App. 1
STATE OF MINNESOTA
IN SUPREME COURT
A18-0090
Court of Appeals

Chutich, J.
Dissenting, Anderson, J.,
Gildea, C.J.
Concurring in part, dissenting in part, Thissen, J.

Minnesota Sands, LLC,
Appellant,
vs.
County of Winona,
Minnesota,

Filed: March 11, 2020
Office of Appellate Courts

Respondent.
Christopher H. Dolan, Bruce G. Jones, Nicholas J. Nelson, Faegre Drinker Biddle & Reath LLP, Minneapolis,
Minnesota; and
Bethany M. Gullman, Faegre Drinker Biddle & Reath
LLP, Washington, D.C., for appellant.
Jay T. Squires, Elizabeth J. Vieira, Kristin C.
Nierengarten, Rupp, Anderson, Squires & Waldspurger, P.A., Minneapolis, Minnesota, for respondent.
Peder A. Larson, Gary A. Van Cleve, Bryan J. Huntington, Sonali J. Garg, Larkin Hoffman Daly & Lindgren

App. 2
Ltd., Minneapolis, Minnesota, for amici curiae Aggregate and Ready Mix Association of Minnesota and Minnesota Industrial Sand Council.
Scott W. Carlson, Lynn A. Hayes, Lindsay Kuehn, Farmers’ Legal Action Group, Saint Paul, Minnesota; and
Edward J. Walsh, Walsh, Knippen & Cetina, Chtd., La
Crescent, Minnesota, for amicus curiae Land Stewardship Project.
Susan L. Naughton, Saint Paul, Minnesota, for amicus
curiae League of Minnesota Cities.
Harry N. Niska, Howse & Thompson, P.A., Plymouth,
Minnesota; and
J. David Breemer, David J. Deerson, Sacramento, California, for amicus curiae Pacific Legal Foundation.
-----------------------------------------------------------------------

SYLLABUS
1. Appellant has standing to challenge the provisions of a zoning ordinance related to mining for “local
construction purposes.”
2. The challenged county zoning ordinance does
not violate the dormant Commerce Clause on its face,
in purpose, or in effect.
3. Appellant’s mineral leases, which granted Appellant a speculative, contingent right to possess and
use the land, did not create a compensable property interest under state law for the purposes of a takings

App. 3
claim under the Minnesota and United States Constitutions.
Affirmed.
OPINION
CHUTICH, Justice.
In November 2016, the Winona County Board of
Commissioners revised its comprehensive zoning ordinance to prohibit “[i]ndustrial mineral operations”
within the county. See Winona County, Minn., Winona
County Zoning Ordinance (WCZO) § 9.10.2 (2016). The
ordinance continues to allow extraction of “construction minerals,” provided that the landowner secures a
conditional-use permit. Winona County, Minn., WCZO
§§ 4.2, 9.10.3.a (2016). Appellant Minnesota Sands,
LLC (Minnesota Sands) is a Minnesota mining company that seeks to mine and process silica sand in
Winona County (County)—an industrial mineral operation under the zoning ordinance—and sell its product
to out-of-state oil and gas producers for use in hydraulic fracturing. The company claims that the County’s
prohibition on its proposed land use violates the Commerce Clause. U.S. Const. art. I, § 8. It also contends
that the ordinance is an unconstitutional taking of its
property interests in five mineral leases that it holds
within the County. See U.S. Const. amends. V, XIV;
Minn. Const. art. I, § 13.
This appeal arises from the district court’s order
granting summary judgment to the County on all of

App. 4
Minnesota Sands’ claims. A panel of the court of appeals affirmed, with one judge concurring in part and
dissenting in part. Minn. Sands, LLC v. Cty. of Winona,
917 N.W.2d 775 (Minn. App. 2018). We granted Minnesota Sands’ petition for further review, and we now affirm.
FACTS
The southeastern Minnesota region, where
Winona County is located, contains rich deposits of silica sand. Because silica sand consists of nearly 95 percent quartz—a hard mineral—it is used in the
extraction process for drilling oil and natural gas
known as hydraulic fracturing, or “fracking.” The recent upsurge in fracking in oil-producing states has
created high demand for the raw silica sand found in
southeastern Minnesota.
Before raw silica sand can be used as “frac sand,”
however, it must be processed to meet industry standards for purity, grain size, shape, and intactness. Although processing methods vary, the typical method
involves washing, screening, and filtering raw sand in
unlined sedimentation ponds located at the mines
themselves. This process requires large volumes of water—up to 6,000 gallons per minute—and chemicals
called flocculants that cause the sediments to aggregate so that the desired sand particles can be collected
and removed. The leftover mixture of undesired sand,
water, and flocculants is then returned to the mines

App. 5
untreated. Some of the flocculants that are used during
this process are known hazards to human health.1
No end-user market for processed frac sand exists
within Minnesota, because no significant reserves of
oil or natural gas exist in this state. But the oil and gas
industry is not the only industry that generates demand for raw silica sand. For example, silica sand is
used in glass-making, in the abrasives industry, in agriculture as livestock bedding, and for sand traps on
golf courses. It is also used in the construction industry.
Unlike the market for frac sand, the silica sand that
supplies these other markets is not necessarily bound
to leave Minnesota. The record here shows that silica
sand is used by Minnesota firms that manufacture
countertops, glass, shingles, and more.
The silica sand deposits in Winona County are located in an ecologically sensitive area. They are part of
a large, geologically unique karst region in southeastern Minnesota.2 Karst regions are areas with a shallow
or unconsolidated layer of sediment covering a bedrock
of limestone, dolostone, or sandstone. Below the surface, karst regions are defined by large, highly interconnected networks of caverns, sinkholes, springs, and
disappearing and underground streams.

1

Specifically, acrylamide, a common component of one prominent flocculant, is a neurotoxin and a probable carcinogen according to the Environmental Protection Agency.
2
Colloquially known as the “Driftless Area,” this geologic
landscape also extends to Illinois, Iowa, and Wisconsin.

App. 6
The County’s efforts to manage industrial silica
sand mining began in September 2011, when it received three conditional-use permit applications for
silica sand mining operations. The county planning
and environmental services department and county attorney raised concerns about the need to regulate silica
sand mining operations. In January 2012, the Winona
County Board of Commissioners (Board) denied the
three applications and imposed a 3-month moratorium
on silica sand mining operations to allow the County
to conduct a land-use planning study. The moratorium
was allowed to expire in May 2012, after the County
adopted additional land-use regulations for silica sand
mining.3
In February 2012—during the moratorium—Minnesota Sands acquired four leases to remove silica
sand from property located within the County. It acquired a fifth lease in November 2015.4 Each lease provides that, in exchange for a one-time payment of
$1,000, royalties on any sand removed from the premises, and other conditions, Minnesota Sands was
granted the right to use and possess the premises
3

Only one of the initial three applicants re-applied for a conditional-use permit, which was granted in June 2013.
4
The first four leases were initially acquired in November
2011, by Minnesota Sands’ founder and president, Richard Frick.
Frick then assigned the leases to the company. The company contends that six leases are at issue in this litigation. It appears,
however, that one of the company’s leases relates to land located
in Fillmore County and is therefore unaffected by the Winona
County Zoning Ordinance. Accordingly, only five leases are actually at issue in this case.

App. 7
“solely to mine Frac Sand to be used by [Minnesota
Sands] for commercial purposes.”5 The leases also
grant Minnesota Sands permission to use the premises
to “[p]rocess mined minerals . . . including the building
of a processing plant and all accessories thereof.” The
company’s obligations under the leases are expressly
“conditioned upon . . . obtaining any zoning or other
governmental approvals” required to permit silica
sand mining operations.
Minnesota Sands submitted applications for conditional-use permits for two sites in August 2012, as
required by the zoning ordinance then in effect. See
Winona County, Minn., WCZO § 9.10.1.a (2010) (“A
Conditional Use Permit shall be required for all extraction pits and land alteration operations.”). At that time,
any mining operation in Winona County required a
conditional-use permit. Id. The County determined
that the company was required to obtain an environmental impact statement before applying for a permit.
According to the company’s president, the frac sand
market crashed as the company was pursuing the environmental review process. Consequently, the company abandoned its efforts to obtain the needed
permits for the two sites. It never sought permits or
environmental review for any of its other leased properties in Winona County. Effective June 1, 2013, moreover, the Legislature created additional environmental
5

The leases define “Frac Sand” to mean “sand usable for hydraulic fracturing in the production of oil or natural gas without
alteration,” and specify that “[m]aterial less than 50% ‘Frac Sand’
shall not be included within the definition of `Frac Sand.’ ”

App. 8
review requirements for all silica sand projects. See Act
of May 23, 2013, ch. 114, art. 4, § 92, 2013 Minn. Laws
1653, 1752–53 (codified as amended at Minn. Stat.
§ 116C.991 (2018)).6 After June 1, 2013, therefore, Minnesota Sands was required to complete the environmental review process before it could receive any
conditional-use permits for silica sand mining facilities. See Minn. Stat. § 116C.991(a)(1). Nearly 4 years
passed without any further action by Minnesota
Sands.
In 2016, the Board considered an amendment to
the zoning ordinance, which was proposed by the Land
Stewardship Project, that would prohibit “[f ]rac sand
operations.” After referring the proposal to the planning commission and county attorney’s office for further analysis, the Board opened the amendment and
several alternatives to public comment and held public
hearings. The County received hundreds of oral and
written comments about these proposals.

6

The Legislature also directed the Environmental Quality
Board to create “model standards and criteria for mining, processing, and transporting silica sand” for use by local government
“in developing local ordinances.” Minn. Stat. § 116C.99, subd. 2
(2018). The Legislature stated that “[t]he standards and criteria
shall be different for different geographic areas of the state. The
unique karst conditions and landforms of southeastern Minnesota
shall be considered unique when compared with the flat scoured
river terraces and uniform hydrology of the Minnesota Valley.”
Id. (emphasis added). Model standards were published by the Environmental Quality Board on March 19, 2014. See Minn. Envtl.
Quality Bd., Tools to Assist Local Governments in Planning for
and Regulating Silica Sand Projects (2014).

App. 9
At its October 25, 2016 meeting, the Board voted
to adopt a version of the amendment recommended by
the county attorney entitled “Large Scale Industrial
Silica Sand Mining and Processing Prohibited.” The
amended provisions of the ordinance have remained
unchanged since their adoption. As noted above, before
adoption of the amendment, the ordinance required
all proposed mineral extraction projects to obtain a
conditional-use permit. Winona County, Minn., WCZO
§ 9.10.1.a (2010); see also Winona County, Minn.,
WCZO § 9.11.1 (2010) (“All Subsurface Mineral Exploration borings shall require a Conditional Use Permit
in all zoning districts.”). The current ordinance continues to require a conditional-use permit for “all extraction pits and land alteration operations.” Winona
County, Minn., WCZO § 9.10.3.a. But any “[i]ndustrial
mineral operations, which includes excavation, extraction, mining, and processing of industrial minerals[,]
are prohibited” within the County unless those uses
were legally established operations before the
amended ordinance was adopted. Id. § 9.10.2.
Central to the issues presented here are the definitions of “industrial minerals” and “construction minerals” set forth in the ordinance. The term “industrial
minerals” is defined as:
naturally existing high quartz level stone, silica sand, quartz, graphite, diamonds, gemstones, kaolin, and other similar minerals
used in industrial applications, but excluding
construction minerals as defined [elsewhere].
...

App. 10
“Silica sand” has the meaning given in Minnesota Statutes, section 116C.99, subd. 1(d):
“ ‘Silica sand’ means well-rounded, sand-sized
grains of quartz (silicon dioxide), with very little impurities in terms of other minerals. Specifically, the silica sand for the purposes of this
section is commercially valuable for use in the
hydraulic fracturing of shale to obtain oil and
natural gas. Silica sand does not include common rock, stone, aggregate, gravel, sand with
a low quartz level, or silica compounds recovered as a by-product of metallic mining.”
Winona County, Minn., WCZO § 4.2 (2016). As the definition states, “construction minerals” are expressly
excluded from the list of “industrial minerals” that
may not be mined in the county. “Construction minerals” include:
natural common rock, stone, aggregate, gravel
and sand that is produced and used for local[7]
construction purposes, including road pavement, unpaved road gravel or cover, concrete,
asphalt, building and dimension stone, railroad ballast, decorative stone, retaining walls,
revetment stone, riprap, mortar sand, construction lime, agricultural lime and bedding
for livestock operations, sewer and septic systems, landfills, and sand blasting. The term
“construction minerals” does not include “industrial minerals” as defined [elsewhere].
Id. Accordingly, under these definitions in the current
ordinance, extracting “well-rounded, sand-sized grains
7

The ordinance does not define “local.”

App. 11
of quartz (silicon dioxide), with very little impurities in
terms of other minerals” is prohibited. Winona County,
Minn., WCZO § 9.10.2. But extracting “natural common rock, stone, aggregate, gravel and sand that is produced and used for local construction purposes” is
allowed, provided that the County issues a conditionaluse permit for the activity. Id. § 9.10.3.a.
Minnesota Sands sued the County in March 2017,
requesting declaratory, injunctive, and monetary relief.8 On appeal from the district court’s order granting
summary judgment to the County on all of Minnesota
Sands’ claims, a divided panel of the court of appeals
concluded that the ordinance did not violate the
dormant Commerce Clause or work an unconstitutional taking of the company’s property interests.
Minn. Sands, LLC, 917 N.W.2d at 789. This appeal followed.
ANALYSIS
Because the case comes to us on the district court’s
order granting summary judgment, we review that decision “de novo to determine (1) whether there are any
genuine issues of material fact, and (2) whether the
8

In addition to the Commerce Clause and Takings Clause
claims addressed here, the company also alleged violations of its
rights to equal protection and to due process under the Minnesota
and United States Constitutions, as well as a violation of the
state-law requirement that zoning ordinances apply uniformly
under Minnesota Statutes section 394.25, subdivision 3. Minnesota Sands appealed only the dismissal of its Commerce Clause
and Takings Clause claims.

App. 12
district court correctly applied the law.” Rochester City
Lines, Co. v. City of Rochester, 868 N.W.2d 655, 661
(Minn. 2015). We review the evidence in the light most
favorable to the party against whom summary judgment was granted—here, Minnesota Sands. McBee v.
Team Indus., Inc., 925 N.W.2d 222, 230 (Minn. 2019).
In considering Minnesota Sands’ constitutional claims,
we presume that the challenged law is constitutional.
Minn. Voters Alliance v. City of Minneapolis, 766
N.W.2d 683, 688 (Minn. 2009). We are mindful that our
power to declare a law unconstitutional “is to be exercised only when absolutely necessary and with extreme caution.” Caterpillar, Inc. v. Comm’r of Revenue,
568 N.W.2d 695, 697 (Minn. 1997) (quoting Miller
Brewing Co. v. State, 284 N.W.2d 353, 356 (Minn.
1979)).
I.
As an initial matter, we must address the court of
appeals’ conclusion that Minnesota Sands lacks standing to assert that the ordinance discriminates against
interstate commerce by the County’s use of the word
“local” in the definition of “construction minerals.”9
Minn. Sands, LLC, 917 N.W.2d at 782–83. The court of
appeals reasoned that, because Minnesota Sands has
no interest in producing construction minerals, a challenge to the word “local” in the construction-minerals
9

Although the County does not press the standing argument, standing is a jurisdictional prerequisite that we can address sua sponte. Glaze v. State, 909 N.W.2d 322, 325 (Minn.
2018).

App. 13
definition would not secure the company any relief because it would still be unable to engage in the industrial mining of silica sand. Id. at 782. We disagree that
Minnesota Sands lacks standing to bring this case.
The standing doctrine requires only that a party
“have a sufficient stake in a justiciable controversy to
seek relief from a court.” McCaughtry v. City of Red
Wing, 808 N.W.2d 331, 338 (Minn. 2011) (quoting Lorix
v. Crompton Corp., 736 N.W.2d 619, 624 (Minn. 2007)).
Standing is a question of law that we determine de
novo. Glaze v. State, 909 N.W.2d 322, 325 (Minn. 2018).
In Minnesota, a party has standing if it has suffered an injury-in-fact. Webb Golden Valley, LLC v.
State, 865 N.W.2d 689, 693 (Minn. 2015).10 For a party
to establish an injury-in-fact, it must demonstrate that
it suffered “a concrete and particularized invasion of a
legally protected interest.” Id. (quoting Lorix, 736
N.W.2d at 624). An allegation of a “merely possible or
hypothetical” injury is inadequate. McCaughtry, 808
N.W.2d at 338. A litigant challenging the constitutionality of a law need only demonstrate that the litigant
has “a legally cognizable interest that [ ] has suffered
because of the State’s action.” Webb Golden Valley,
LLC, 865 N.W.2d at 693.
Here, Minnesota Sands has demonstrated a colorable interest in producing silica sand under the leases
10

A party may also have standing if it is “the beneficiary of
a legislative enactment granting standing.” Webb Golden Valley,
LLC, 865 N.W.2d at 693. Statutory standing does not assist Minnesota Sands in this case.

App. 14
that it holds within the County. The company alleges
that it is prevented from doing so by an ordinance that
violates the United States Constitution. Moreover, although Minnesota Sands seeks invalidation of the entire ordinance amendment (lifting the law’s burdens
from all affected), its alleged discrimination injury
could conceivably be remedied by a narrowing construction that invalidated only the “local construction
purposes” language of the ordinance (imposing any
burdens on everyone equally). See Winona County,
Minn., WCZO § 2.7 (2016) (declaring any provision of
the ordinance separable if declared invalid).11 This
showing is more than enough to establish that Minnesota Sands has a “sufficient stake” in a “legally cognizable interest.” McCaughtry, 808 N.W.2d at 338; Webb
Golden Valley, LLC, 865 N.W.2d at 693. As a party disadvantaged by the ordinance, Minnesota Sands is a
proper party to bring this constitutional claim. See
McKee v. Likins, 261 N.W.2d 566, 569–70 n.1 (Minn.
1977) (stating that standing “is concerned with ‘who’
may bring a suit”).
II.
The Commerce Clause states that Congress may
“regulate Commerce . . . among the several states.”
U.S. Const. art. I, § 8. The Supreme Court has long understood that this affirmative grant of authority
11

As we explain below, because of the way the term “local”
interacts with the definitions of “construction minerals” and “industrial minerals,” such a narrowing construction would not, in
fact, grant Minnesota Sands any relief.

App. 15
includes a “negative or dormant implication.” Gen. Motors Corp. v. Tracy, 519 U.S. 278, 287 (1997). The
“dormant” Commerce Clause provides that state laws
may not “unjustifiably discriminate on their face
against out-of-state entities or . . . impose burdens on
interstate trade that are clearly excessive in relation
to the putative local benefits.” Am. Trucking Ass’ns, Inc.
v. Mich. Pub. Serv. Comm’n, 545 U.S. 429, 433 (2005)
(citations omitted) (internal quotation marks omitted).
This prohibition applies to local ordinances and statewide enactments alike. See, e.g., Dean Milk Co. v. City
of Madison, Wis., 340 U.S. 349, 356 (1951) (invalidating
city ordinance requiring all milk to be bottled within
five miles of city limits). The burden to establish discrimination rests on the party challenging the validity
of the law. Hughes v. Oklahoma, 441 U.S. 322, 336
(1979).
The basic principle underlying the dormant Commerce Clause is that a state may not pursue “economic
isolation” by placing “burdens on the flow of commerce
across its borders that commerce wholly within those
borders would not bear.” Okla. Tax Comm’n v. Jefferson
Lines, Inc., 514 U.S. 175, 179–80 (1995); see also Am.
Trucking Ass’ns, 545 U.S. at 433; Minnesota v. Clover
Leaf Creamery Co., 449 U.S. 456, 471 (1981); City of
Philadelphia v. New Jersey, 437 U.S. 617, 623–24
(1978). At the same time, the Supreme Court has recognized that “incidental burdens on interstate commerce may be unavoidable when a State legislates to
safeguard the health and safety of its people.” City of
Philadelphia, 437 U.S. at 623–24.

App. 16
In light of this principle, the Supreme Court has
articulated a three-part framework for analyzing
dormant Commerce Clause issues. The first part asks
whether the challenged law “discriminates on its face
against interstate commerce.” United Haulers Ass’n,
Inc. v. Oneida-Herkimer Solid Waste Mgmt. Auth., 550
U.S. 330, 338 (2007). If not, the second part of the
framework asks if the law discriminates against interstate commerce “on the basis of either discriminatory
purpose or discriminatory effect.” Bacchus Imports,
Ltd. v. Dias, 468 U.S. 263, 270 (1984) (emphasis added)
(citations omitted); see also W. Lynn Creamery, Inc. v.
Healy, 512 U.S. 186, 201 (1994) (“ ‘In each case it is our
duty to determine whether the statute under attack
. . . will in its practical operation work discrimination
against interstate commerce.’ ” (quoting Best & Co. v.
Maxwell, 311 U.S. 454, 455–56 (1940))).
Laws that fall in the facial discrimination category, or the discriminatory purpose or effect categories,
are “subject to a virtually per se rule of invalidity” as a
violation of Congress’s exclusive right to make such
regulations. United Haulers Ass’n, 550 U.S. at 338
(quoting City of Philadelphia, 437 U.S. at 624). Unless
the state demonstrates that it has no other means to
achieve a legitimate local purpose, the law is unconstitutional. Id. at 338–39 (citing Maine v. Taylor, 477 U.S.
131, 138 (1986)).
The third part of the framework establishes a
more flexible standard of scrutiny for a state law that
“regulates ‘evenhandedly,’ and imposes only ‘incidental’ burdens on interstate commerce.” Clover Leaf

App. 17
Creamery Co., 449 U.S. at 471. Laws in this category
are upheld unless the burdens that they impose on interstate commerce are “clearly excessive in relation to
the putative local benefits.” Pike v. Bruce Church, Inc.,
397 U.S. 137, 142 (1970).
A.
Applying this framework here, the first question
is whether the Winona County Zoning Ordinance “discriminates on its face against interstate commerce.”
United Haulers Ass’n, 550 U.S. at 338. A law is facially
discriminatory if it expressly provides for “differential
treatment of in-state and out-of-state economic interests that benefits the former and burdens the latter.”
Or. Waste Sys., Inc. v. Dept. of Envtl. Quality of Or., 511
U.S. 93, 99 (1994).
The operative provision of the ordinance states
that “[i]ndustrial mineral operations, which includes
excavation, extraction, mining, and processing of industrial minerals are prohibited in Winona County.”
Winona County, Minn., WCZO § 9.10.2. Industrial mineral operations encompass “any process or method of
digging, excavating, mining, drilling, blasting, tunneling, dredging, stripping or removing industrial minerals from the land surface or underground,” as well as
the processing, storage and stockpiling, and hauling or
transport of industrial minerals. Winona County,
Minn., WCZO § 4.2. As noted above, the term “industrial minerals” includes silica sand, as the latter term

App. 18
is defined by statute. Id.; see Minn. Stat. § 116C.99,
subd. 1(d) (2018).
Minnesota Sands argues that the ordinance is essentially a ban on the export of silica sand. It notes
that the Supreme Court has applied strict scrutiny review to state laws that banned the export of minnows
and natural gas. See Hughes, 441 U.S. at 337 (minnows); Pennsylvania v. West Virginia, 262 U.S. 553,
595–600 (1923) (natural gas); Haskell v. Kan. Nat. Gas
Co., 224 U.S. 217, 218 (1912) (natural gas). Minnesota
Sands contends that because the ordinance is also an
export ban, it must meet strict scrutiny.
As a land-use regulation, the ban on industrial
mining operations is foremost a restriction on the
rights of Minnesota landowners, not an “export ban.”
Specifically, the ordinance restricts the rights of any
landowner who wishes to engage in industrial mining
operations within the County. Unlike a typical export
embargo that confers a home-state advantage by denying outsiders equal access to some in-state market, the
ordinance is evenhanded on its face. It pays no regard
to whether the person or entity who wishes to engage
in industrial mining resides in-state or out-of-state or
wishes to sell the industrially mined sand to in-state
or out-of-state consumers.
In contrast to the types of embargos invalidated
by the Supreme Court as effectively banning exports,
the ordinance here does not, on its face, confer any benefit to in-state economic interests. See Hughes, 441 U.S.
at 336; Pennsylvania, 262 U.S. at 596–97; Haskell, 224

App. 19
U.S. at 220. In Hughes, for example, the embargo on
transporting minnows harvested in Oklahoma was facially discriminatory because in-state consumers benefited at the expense of out-of-state consumers. 441
U.S. at 336–38. But the terms of this ordinance confer
no benefit to in-state consumers of silica sand. To be
sure, the out-of-state firms that would buy industrially
mined silica sand that might otherwise be produced
within the County must look elsewhere. But the same
barrier exists for any in-state purchaser of industrially
produced silica sand, including those that would re-sell
to out-of-state interests.12 Without express discrimination between in-state and out-of-state economic interests, Minnesota Sands’ facial discrimination theory
fails. See Gen. Motors Corp. v. Tracy, 519 U.S. 278, 298
(1997) (stating that “any notion of discrimination assumes a comparison of substantially similar entities”);
City of Philadelphia, 437 U.S. at 624 (noting that a law
is facially discriminatory if it “overtly blocks the flow
of interstate commerce at a State’s borders”); see also
Zenith/Kremer Waste Sys., Inc. v. W. Lake Superior Sanitary Dist., 572 N.W.2d 300, 305 (Minn. 1997).
Minnesota Sands attempts to bolster its theory by
citing to the ordinance’s definitions of industrial and
construction minerals. It contends that facial discrimination arises from the exception for the mining of
12

Indeed, at oral argument, counsel for Minnesota Sands
acknowledged that the ordinance was not an “interstate” embargo. As we explain, this concession undermines the company’s
argument. Unless an embargo is an “interstate” embargo, it is not
discriminatory on its face.

App. 20
“sand that is produced and used for local construction
purposes.” See Winona County, Minn., WCZO § 4.2
(definition of “construction minerals”) (emphasis
added). By banning all industrial sand mining within
the County, but allowing mining for “local” construction minerals, the company argues that the County has
facially discriminated between local and out-of-state
markets. This argument is not convincing for two reasons.
First, “local” is not synonymous with “in-state.”
The word “local” is not defined in the ordinance. And
dictionary definitions do not suggest that “local” always or predominantly distinguishes between in-state
and out-of-state areas. See, e.g., The American Heritage
Dictionary of the English Language 1029 (5th ed. 2011)
(“Of, relating to, or characteristic of a particular
place”); The Oxford Dictionary of English 1037 (3d ed.
2010) (“relating or restricted to a particular area or
one’s neighbourhood”); Merriam-Webster’s Collegiate
Dictionary 730 (11th ed. 2014) (“of, relating to, or characteristic of a particular place: not general or widespread”).
Here, the term “local” can be interpreted to include, at the very least, the neighboring parts of Wisconsin located across the river from Winona County.
And assuming that “local” denotes an in-state geographical restriction would be inconsistent with our
duty to invalidate a law as unconstitutional “only
when absolutely necessary and with extreme caution.”
Caterpillar, Inc., 568 N.W.2d at 697 (quoting Miller
Brewing Co., 284 N.W.2d at 356).

App. 21
In any event, the Supreme Court has generally
held that laws falling expressly along state lines are
facially discriminatory. See, e.g., Or. Waste Sys., Inc.,
511 U.S. at 108 (invalidating a state statute imposing
a surcharge on waste generated out of state); Sporhase
v. Nebraska, 458 U.S. 941, 943 (1982) (invalidating a
state law restricting withdrawal of groundwater “from
any well within Nebraska intended for use in an adjoining State”); Hughes, 441 U.S. at 337 (invalidating a
state law that banned transporting “minnows for sale
outside the state” which were procured within the
state’s waters); City of Philadelphia, 437 U.S. at 618
(invalidating a state law that banned waste originating “outside the territorial limits of the State”); cf. Taylor, 477 U.S. at 138 (upholding, under strict scrutiny, a
ban on importing out-of-state baitfish). The absence of
any express distinction between in-state and out-ofstate interests causes Minnesota Sands’ claim of facial
discrimination to fail. Because the zoning ordinance is
facially neutral in its treatment of in-state and out-ofstate interests, we hold that it is not facially discriminatory.
The dissent seeks a different result, concluding
that a municipal law is invalid on its face if it mentions
the word “local” because such a law “shield[s] local interests—even if not statewide interests—from interstate commerce.” We disagree. As discussed above, the
ordinance in this case does not shield local interests
from interstate commerce: the “local” restriction includes some interstate markets in Wisconsin. In addition, the cases cited by the dissent do not support its

App. 22
conclusion. Although those cases acknowledge that
some laws that draw merely local, rather than
statewide, distinctions may run afoul of the dormant
Commerce Clause, none of them state that the use of
the word “local” makes an ordinance facially invalid.
For example, Dean Milk Co. v. City of Madison,
Wis., 340 U.S. 349 (1951) predates the Supreme Court’s
three-part dormant Commerce Clause framework.
Dean Milk held that an ordinance requiring milk to be
pasteurized within five miles of city limits “imposes an
undue burden on interstate commerce” and that “reasonable and adequate alternatives [were] available” to
the city. Id. at 353–54. The Court remanded the case to
the Wisconsin Supreme Court to consider whether a
second-tier limitation of 25 miles was “inconsistent
with the principles announced in this opinion.” Id. at
356–57. The Court’s reasoning and its disposition of
the case suggest that the Court considered the ordinance under a balancing test akin to the one announced almost 20 years later in Pike v. Bruce
Church—namely, that laws imposing an incidental
burden on interstate commerce will be upheld unless
the burden on commerce is “clearly excessive in relation to putative local benefits.” 397 U.S. at 142. Given
these developments in the law, the dissent’s reliance on
Dean Milk is inapt.
Similarly, the Court’s decision in Sprout v. City of
South Bend, Ind., 277 U.S. 163, 167–71 (1928), did not
distinguish between local and non-local interests or
traffic, relying instead on other factors. Likewise, the
Court in C & A Carbone, Inc. v. Town of Clarkstown,

App. 23
N.Y., 511 U.S. 383 (1994), did not hold that a distinction
between local and non-local interests made a restriction discriminatory on its face. See, e.g., id. at 390–
91. Further, the Michigan statute at issue in Fort Gratiot Sanitary Landfill, Inc. v. Michigan Department of
Natural Resources, 504 U.S. 353 (1992), unlike the zoning ordinance in this case, allowed counties to impose
restrictions on all out-of-county commerce. Id. at 356–
57. And the deficiency of the statute at issue in Chemical Waste Management was that it explicitly imposed
an additional fee on waste “generated outside of Alabama.” 504 U.S. at 338. Accordingly, these cases do not
demonstrate that distinctions between local and nonlocal interests are facially discriminatory against interstate commerce.
Second, even if Minnesota Sands and the dissent
were correct that the zoning ordinance’s use of the
term “local” is facially discriminatory—or, for that matter, discriminatory in practical effect—that conclusion
would not lead to a different result in this case. If the
“local” restriction were invalid, we would not invalidate the entire ordinance, but would “attempt to retain
as much of the original [ordinance] as possible while
striking the portions that render the [ordinance] unconstitutional.” State v. Melchert-Dinkel, 844 N.W.2d
13, 24 (Minn. 2014) (noting that severance is permissible unless the remaining provisions are “incomplete”
or “incapable of being executed in accordance with legislative intent”).
In this case, if the definition of “construction
minerals” were altered to eliminate the “local”

App. 24
restriction—defining “construction minerals” in relevant part as “sand that is produced and used for [any]
construction purposes”—the resulting ordinance
would be sensible and capable of being executed. See
id. But the silica sand that Minnesota Sands intends
to mine would still fall within the zoning ordinance’s
ban. Minnesota Sands admits that it has no interest in
mining sand to be used for “construction purposes,”
and therefore the sand it intends to mine would continue to be classified as “industrial minerals” under
the ordinance, even if the local restriction were absent.
Accordingly, Minnesota Sands would not be entitled to
relief even if we concluded that the local restriction is
invalid because the ordinance does not discriminate on
its face against interstate commerce.
B.
Even if not discriminatory on its face, a state law
is invalid under the dormant Commerce Clause if it
has the purpose or practical effect of favoring in-state
interests and burdening out-of-state interests. Bacchus Imports, Ltd., 468 U.S. at 270; see also W. Lynn
Creamery, Inc., 512 U.S. at 201; Clover Leaf Creamery
Co., 449 U.S. at 471 n.15. Laws in this category are unconstitutional unless the government shows that it has
no other means of advancing a legitimate, non-protectionist purpose. W. Lynn Creamery, Inc., 512 U.S. at
192–93; see also United Haulers Ass’n, 550 U.S. at 338–
39; Taylor, 477 U.S. at 138.

App. 25
Although Minnesota Sands contends that the
County’s ordinance was motivated by animus toward
the primarily out-of-state fracking industry, it has not
pointed to any concrete evidence to support that claim.
Instead, the company bases its animus theory on the
alleged motivation of actors who lobbied in favor of the
amendment, namely, the initial proposal by the Land
Stewardship Project and statements of private citizens
during the public comment period at the zoning hearings.
The initial proposal, however, was rejected by the
Board; tellingly, none of the comments that were critical of the fracking industry were credited by the Board
in its findings adopting the amendment. These sources
therefore have “little (if any) probative value in demonstrating the objective of the [Board] as a whole.” Portland Pipe Line Corp. v. City of S. Portland, 332 F. Supp.
3d 264, 303 (D. Me. 2018) (quoting Alliance of Auto.
Mfrs. v. Gwadosky, 430 F.3d 30, 39 (1st Cir. 2005) (discussing statements by a law’s private proponents concerning a dormant Commerce Clause challenge)). The
connection between the motives of the ordinance
amendment’s proponents and the Board is speculative
at most. Speculative assertions are insufficient to create a genuine issue of material fact on a motion for
summary judgment. Bob Useldinger & Sons, Inc. v.
Hangsleben, 505 N.W.2d 323, 328 (Minn. 1993).
Turning to the practical effect of the ordinance, the
“crucial inquiry” is whether the ordinance is “basically
a protectionist measure, or whether it can fairly be
viewed as a law directed to legitimate local concerns,

App. 26
with effects upon interstate commerce that are only incidental.”13 City of Philadelphia, 437 U.S. at 624. For
the ordinance to be considered as discriminatory in
practical effect, Minnesota Sands must demonstrate
that the ordinance “favors in-state economic interests
over out-of-state interests.” IESI AR Corp. v. Nw. Ark.
Reg’l Solid Waste Mgmt. Dist., 433 F.3d 600, 605 (8th
Cir. 2006) (citing Smithfield Foods, Inc. v. Miller, 367
F.3d 1061, 1066 (8th Cir. 2004)). “Negatively affecting
interstate commerce is not the same as discriminating
against interstate commerce.” Cotto Waxo Co. v. Williams, 46 F.3d 790, 794 (8th Cir. 1995); see also Exxon
Corp. v. Governor of Md., 437 U.S. 117, 126 (1978) (“The
fact that the burden of a state regulation falls on some
13

Some commentators have noted the Supreme Court’s inconsistent guidance on whether, absent any discriminatory purpose, strict scrutiny is appropriate. See John M. Baker & Mehmet
K. Konar-Steenberg, “Drawn from Local Knowledge . . . and Conformed to Local Wants": Zoning and Incremental Reform of
Dormant Commerce Clause Doctrine, 38 Loyola U. Chi. L.J. 1, 6–
8 (2006) (discussing the absence of a bright line rule and contradictory statements concerning discriminatory effect and incidental burden). Moreover, at least one commentator suggests that
applying strict scrutiny without a showing of discriminatory purpose would conflict with the Supreme Court’s equal protection jurisprudence. Donald H. Regan, The Supreme Court and State
Protectionism: Making Sense of the Dormant Commerce Clause,
84 Mich. L. Rev. 1091, 1166 (1986) (“It is ironic that if we engage
in effects review under the dormant commerce clause, we will be
giving out-of-state economic interests more protection than the
Supreme Court has deemed appropriate for racial minorities and
women under the equal protection clause.”). An answer to this
question would not change our analysis, however, because we conclude that the ordinance was neither motivated by a discriminatory purpose nor has the practical effect of discriminating against
interstate commerce.

App. 27
interstate companies does not, by itself, establish a
claim of discrimination against interstate commerce.”).
Minnesota Sands’ effects-based claim fails to show
that the County’s ordinance functions to discriminate
between in-state and out-of-state interests. Minnesota
Sands maintains that discrimination occurs because
the market for frac sand exists only in interstate commerce as there are no known oil or natural gas reserves
in Minnesota. This argument ignores the ordinance’s
entire scope. The prohibition here is not limited to sand
destined for use in hydraulic fracturing; it applies to
all industrial-scale silica sand mining operations that
produce “well-rounded, sand-sized grains of quartz (silicon dioxide), with very little impurities in terms of
other minerals,” no matter the ultimate consumer.14
Winona County, Minn., WCZO § 4.2.
14

According to the dissent, the ordinance is invalid because
it draws a distinction that is based only on the end use for an
article of commerce. We are unaware of any authority that holds
such a law per se invalid. Even so, the dissent’s conclusion that
construction minerals and industrial minerals are in reality “the
same sand” is not supported by the ordinance or the record. The
ordinance defines “construction minerals” far more broadly than
“industrial minerals,” and the expert affidavit relied upon by the
dissent candidly admits that the two are not always the same.
The statement that silica sand extracted in a construction mineral operation “can be, and often is, the same” as industrial silica
sand implies that, at least some of the time, construction minerals
are not the kind of raw silica sand that is needed to produce processed frac sand.
Moreover, that distinction is sensible, as the record shows
that industrial minerals often must be processed to be useful,
causing pollution that may affect the groundwater in the geologically unique karst area of which Winona County is a part.

App. 28
Consequently, not only is the out-of-state market
for frac sand deprived of the County’s supply of silica
sand, so are Minnesota consumers of silica sand, which
according to the record includes the manufacturers of
countertops, glass, and shingles. That the ordinance affects these two groups in the same manner obviates
any concern that the County acts to “isolat[e itself ]
from the national economy,” or to “saddle those outside
the State with the entire burden” imposed by the ordinance. City of Philadelphia, 437 U.S. at 627–29. Instead, the adverse impact of the zoning ordinance on
in-state consumers of silica sand is a “powerful safeguard against legislative abuse.” Clover Leaf Creamery
Co., 449 U.S. at 473 n.17 (citing S.C. State Highway
Dept. v. Barnwell Bros., Inc., 303 U.S. 177, 187, (1938)).
In evaluating a dormant Commerce Clause claim,
courts must assuredly be on alert for pure economic
protectionism. See id. at 471. But the dormant Commerce Clause does not protect “the particular structure” of a given market from laws that do not
discriminate against interstate commerce on their
face, in purpose, or in practical effect. See Exxon Corp.,
437 U.S. at 127–28 (rejecting the argument that the
Commerce Clause “protects the particular structure or
methods of operation in the retail market” and noting
that it “protects the interstate market, not particular
interstate firms, from prohibitive or burdensome regulations”); cf. Lochner v. New York, 198 U.S. 45, 75
(1905) (Holmes, J., dissenting) (“[The] Constitution is
not intended to embody a particular economic theory,

App. 29
whether of paternalism and the organic relation of the
citizen to the state or of laissez faire.”)
Because the County’s ordinance does not further
economic protectionism in the sense that in-state interests benefit at the expense of out-of-state interests,
we conclude that it does not discriminate against interstate commerce in purpose or in practical effect. Accordingly, we hold that Winona County’s ordinance
does not violate the dormant Commerce Clause on its
face, in purpose, or in effect.15

15

We need not consider whether under Pike v. Bruce Church,
the County’s ordinance imposes a burden that “is clearly excessive in relation to the putative local benefits.” 397 U.S. at 142. As
confirmed by counsel for Minnesota Sands at oral argument, this
question is not before us because it was not raised on appeal. The
only reference to this argument in either court comes in Minnesota Sands’ reply brief, by way of a single citation to a Supreme
Court case that applied the Pike analysis, Raymond Motor Transportation, Inc. v. Rice, 434 U.S. 429, 447–48 (1978). We do not
consider arguments that lack full development in the briefs and
that, for lack of thorough argument, “may have inhibited the respondent’s ability to argue the issue to our court.” State v. Myhre,
875 N.W.2d 799, 806 (Minn. 2016) (citing In re GlaxoSmithKline
PLC, 699 N.W.2d 749, 757 (Minn. 2005)). We also will not consider arguments that are first raised in a reply brief. Minn. R. Civ.
App. P. 128.02, subd. 3 (“The reply brief must be confined to new
matter raised in the brief of the respondent.”). See also Webb v.
Downes, 93 Minn. 457, 101 N.W. 966, 968 (1904) (declining to
“give any weight” to a claim raised for the first time in a reply
brief ).

App. 30
III.
Minnesota Sands’ second claim is that the
County’s prohibition, in the ordinance, of industrial
mineral operations amounts to an unconstitutional
taking of the rights that it acquired under five property
leases located within the County. The district court and
the court of appeals concluded that Minnesota Sands’
takings claims failed because the property interests
that it claims were taken by the County had not yet
accrued. For the reasons explained below, we agree
with this conclusion.
The Takings Clause states that “private property
[shall not] be taken for public use, without just compensation.” U.S. Const. amend. V; see also Chi., Burlington & Quincy R.R. Co. v. City of Chicago, 166 U.S.
226, 241 (1897) (concluding that the Takings Clause
applies to the states via the Fourteenth Amendment).
The Minnesota Constitution, which also provides protection against the taking of property without just
compensation, is slightly broader in scope, stating that
“[p]rivate property shall not be taken, destroyed or
damaged for public use without just compensation
therefor, first paid or secured.” Minn. Const. art. I, § 13
(emphasis added). Whether the county’s action
amounts to a taking is an issue of law that we review
de novo. Wensmann Realty, Inc. v. City of Eagan, 734
N.W.2d 623, 631 (Minn. 2007).
Minnesota Sands raises its claims under both the
state and federal constitutions. Unless a property
owner contends that the Minnesota Takings Clause

App. 31
provides greater protections than the federal constitution, however, we may rely on cases interpreting the
federal Takings Clause when interpreting our own. See
id. at 633. Minnesota Sands does not maintain that the
language in the Minnesota Takings Clause, or any decision of this court, gives it greater constitutional protection here than that afforded by the federal Takings
Clause. Accordingly, we treat the company’s federal
and state takings claims together.
The first question in any takings analysis is to determine what, if any, property interest is at stake. See
Hall v. State, 908 N.W.2d 345, 352 (Minn. 2018); see
also Phillips v. Washington Legal Found., 524 U.S. 156,
164 (1998); Ruckelshaus v. Monsanto Co., 467 U.S. 986,
1000 (1984). The Takings Clause does not “compensate
property owners for property rights they never had.”
Wensmann Realty, Inc., 734 N.W.2d at 635 (citation
omitted). Unless the party has a property interest, no
takings claim arises. Property interests that are protected by the Fifth Amendment “are not created by the
Constitution. Rather, they are created and their dimensions are defined by existing rules or understandings that stem from an independent source such as
state law.” Webb’s Fabulous Pharms., Inc. v. Beckwith,
449 U.S. 155, 161 (1980) (citation omitted); see also
Phillips, 524 U.S. at 164.
Initially, we note that if the owners of the land affected had not partitioned their property rights, separating (at least part of ) the mineral rights from their
remaining rights in the land, this case would be relatively easy to decide. “[I]n instances in which a state

App. 32
tribunal reasonably concluded that the health, safety,
morals, or general welfare would be promoted by prohibiting particular contemplated uses of land,” the Supreme Court “has upheld land-use regulations that
destroyed or adversely affected recognized real property interests.” Penn Cent. Transp. Co. v. City of New
York, 438 U.S. 104, 125 (1978) (citation omitted) (internal quotation marks omitted). “Zoning laws are, of
course, the classic example, which have been viewed as
permissible governmental action even when prohibiting the most beneficial use of the property.” Id. (citations omitted). Of course, “if regulation goes too far it
will be recognized as a taking.” Pa. Coal Co. v. Mahon,
260 U.S. 393, 415 (1922). The Supreme Court has recognized that regulation goes “too far” when it “denies
all economically beneficial or productive use of land.”
Lucas v. S.C. Coastal Council, 505 U.S. 1003, 1015
(1992).
That scenario is clearly not the case here. Before
enactment of the zoning ordinance amendment that
Minnesota Sands challenges, a landowner in Winona
County was required to apply for a conditional-use permit “for all extraction pits and land alteration operations,” Winona County, Minn., WCZO § 9.10.1.a (2010).
That requirement was without regard to whether the
extraction involved “industrial minerals” or “construction minerals,” a distinction drawn only by the amendment. That is, the previous zoning ordinance generally
prohibited a land use—extraction of minerals—but allowed a potential exception to the prohibition by way
of a conditional-use permit.

App. 33
After the amendment to the ordinance, the extraction of construction minerals was regulated in the
same way—a general prohibition, with the possibility
of an exception, by a conditional-use permit—but concerning the specific extraction of industrial minerals,
the possible exception was eliminated. Winona County,
Minn., WCZO §§ 9.10.2, 9.10.3.a (2016). We are unaware of any authority that would make such a restriction unlawful. Certainly the amendment did not
deprive the landowners of “all economically beneficial
or productive use of [the] land.” Lucas, 505 U.S. at
1015. When viewed as a land regulation in relation to
the entire “bundle of rights”16 that the landowners held
before the zoning ordinance amendment, the relatively
limited regulation that the amendment provides would
not qualify as a taking. See generally Penn Cent.
Transp. Co., 438 U.S. at 125–27 (discussing zoning ordinances that had been sustained against takings
challenges).
Our analysis is complicated, however, because in
Minnesota the right to subsurface minerals is separable from the rest of the land. Washburn v. Gregory Co.,
125 Minn. 491, 147 N.W. 706, 707 (1914). And takings
jurisprudence has historically recognized that such
partitions must be respected. In Pennsylvania Coal, a
landowner had conveyed the surface rights to certain
land but reserved the right to remove coal from the
land. 260 U.S. at 412. The Court held that a statute
prohibiting the removal of coal in such a way as to
16

See generally Lucas, 505 U.S. at 1027.

App. 34
cause the subsidence of surface structures—thereby
making it commercially impracticable to mine the
coal—was a taking. Id. at 414–15. In this case, Minnesota Sands alleges that it has leased the right to remove certain minerals. We therefore assume, for this
takings-clause analysis, that the right to remove frac
sand is a separate, concrete interest in land, the deprivation of which could be a taking.
Even granting that assumption, Minnesota Sands
must still have a sufficiently concrete interest in the
right to remove frac sand to be recognized as a property interest under Minnesota law. And of course, that
Minnesota Sands has alleged that it holds a property
right does not settle the issue of whether a taking has
occurred. Indeed, as we set out below, we hold that
Minnesota Sands’ interest in the right to remove frac
sand is, under Minnesota law, inchoate and therefore
cannot sustain a takings claim.
Minnesota Sands maintains that because it owns
leases that afford it the right—under certain conditions—to remove and process frac sand, it has a compensable property interest. Leasehold interests may
support a takings claim. See Metro. Airports Comm’n v.
Noble, 763 N.W.2d 639, 643 (Minn. 2009) (“The established rule is that both the lessor and the lessee have
a constitutionally protected property interest when
leased property is taken by condemnation.”). The mere
existence of a property lease, however, is not enough
for a lessee to establish the property-interest element
of a takings claim.

App. 35
The very nature of a lease is the granting of some
subset of the fee owner’s so-called “bundle of rights.” Cf.
Gates v. Herberger, 202 Minn. 610, 279 N.W. 711, 712
(1938) (“The relation of landlord and tenant exists
where one person occupies the premises of another in
subordination to that other’s title and with his consent.”); 6A Steven J. Kirsch, Minnesota Practice—
Methods of Practice § 51.41 (3d ed. 1990) (“Generally,
the term [of a tenancy] is limited only by the desires of
the parties and the power of the lessor to make a lease,
depending on the extent of the lessor’s interest in the
premises.”). The property interests, if any, belonging to
a lessee therefore depend upon the terms of the lease.
Hous. & Redev. Auth. of St. Paul v. Lambrecht, 663
N.W.2d 541, 546–47 (Minn. 2003) (noting that a tenant’s right to just compensation depends on the specific
terms of the lease agreement); see also Ruckelshaus,
467 U.S. at 1003 (noting that the term “property” as
used in the Takings Clause may “denote the group of
rights inhering in the citizen’s relation to the physical
thing, as the right to possess, use and dispose of it” (citation omitted)).
Looking to the five leases at issue here, we are unpersuaded that the property interests purportedly conveyed to Minnesota Sands by the fee owners were
affected by the County’s ordinance amendment. The
leases cover the essential terms of a lease: they identify
the parties, define the premises and durational term,
and the consideration to be paid to the landlord. See,
e.g., 6A Steven J. Kirsch, Minnesota Practice–Methods
of Practice § 51.1 (3d ed. 1990) (noting that the

App. 36
essential terms of a lease include, among others, “[t]he
names of the parties,” “a description of the property,”
“the amount and terms of rent payments,” and “the
commencement, duration and termination of the
rental period”); see also Restatement (Second) of Prop.:
Landlord & Tenant § 2.2 (1977) (noting similar formal
requirements of a written lease).
But the essential terms of these leases are subject
to specific conditions that govern Minnesota Sands’
rights to use and to possess the leased premises. The
leases are confined to “the sole purpose of removing
sand only.” Under paragraph 5, entitled “Use and Condition of Premises,” the leases state that the company
“may use the Premises solely to mine Frac Sand to be
used by [it] for commercial purposes.” The leases grant
possession of the premises to Minnesota Sands “on the
commencement date,”17 yet virtually annul the right
to possession in a clause that reserves to the landowners the “absolute right to continue to complete cropping and farming activities on the portion of the
premises not affected by the mining operation.”18 As a
17

The first four leases were entered into in November 2011
“for a term commencing Nov. 1, 2011.” The commencement date
of the fifth lease was the date the agreement was signed by the
parties, November 18, 2011.
18
The dissent disagrees with this characterization, contending that the leases gave Minnesota Sands “the right to enter the
land, clear the land, and exclude others from the land.” The leases
did give Minnesota Sands the right to enter the land (to explore
for materials) and to clear portions of the land (to explore for materials and otherwise prepare for mining) before extraction began.
But they did not give Minnesota Sands the right to exclude others—not even the landowners—except from portions of the land

App. 37
consequence of this reservation clause, Minnesota
Sands had no right to use or possess the land until it
was able to engage in silica sand mining. Until that
condition was met, the leases reserved the rights to use
and possess the premises to the lessors in absolute
terms.
These lease terms are the fatal defect in Minnesota Sand’s takings claim as a matter of Minnesota law.
A transfer of the right to possession of the leased property is the defining feature of a leasehold interest. See
Gates, 279 N.W. at 712 (“No particular form of words is
necessary to create a tenancy. Any words that show an
intention of the lessor to divest himself of the possession, and confer it upon another, but in subordination
“affected by the mining operation.” At the “commencement date,”
the existence of any mining operation—and therefore full rights
to possession and to exclude others—was both highly contingent,
and in the distant future.
The highly contingent nature of Minnesota Sands’ interests
under the leases is demonstrated by other terms in those leases.
Under paragraph 11, entitled “Zoning,” the leases state that Minnesota Sands’ obligations “are conditioned upon [it] obtaining any
zoning or other governmental approvals required to permit the
use set forth in paragraph 5,” yet give the lessors “the right to
object to any approvals or permits at or before any type of zoning,
planning, county or township or commissioning authority.” Minnesota Sands paid the lessors a one-time sum of $1,000.00 upon
execution. Beyond this initial sum, however, Minnesota Sands’
remaining obligations to the landlord are all contingent upon the
possibility that mining occurs: it promises to pay an additional
$9,000.00 “on obtaining a Conditional Use Permit” from the
County, pay royalties for any sand that it later removes, maintain
a stockpile of sand for “miscellaneous use” by the landlord, and
restore the surface condition of the premises once mining concludes.

App. 38
of his own title, is sufficient.”); see also Restatement
(Second) of Prop.: Landlord & Tenant § 1.2 (1977) (“A
landlord-tenant relationship exists only if the landlord
transfers the right to possession of the leased property.”) The right of possession, we have said, “is transferred when the lease agreement gives the tenant
control over the property and the power to exclude all
others.” Cocchiarella v. Driggs, 884 N.W.2d 621, 626–
27 (Minn. 2016) (citing Restatement (Second) of Prop.:
Landlord & Tenant § 1.2). For the leasehold interest to
arise therefore requires a transfer of possession and
control.
Here, the conditions precedent to acquiring possession and control under any of the leases demonstrate that Minnesota Sands does not have a fullyfledged leasehold interest under Minnesota law. Rather, the agreements at most grant Minnesota Sands
expectancy interests that are too speculative to support a takings claim.19 The steps that Minnesota Sands
19

The dissent’s claim that our decision affords the government immunity to regulate the leases “out of existence” is incorrect. Our decision proceeds on the uncontroversial premise that
the government cannot “take” property rights that a party never
had. See Murr v. Wisconsin, ___ U.S. ___, ___, 137 S. Ct. 1933,
1951 (2017) (Roberts, C.J., dissenting) (noting that the first question in a Takings Clause claim is “what `private property’ the government’s planned course of conduct will affect”). Likewise, the
government does not regulate out of existence a leaseholder’s
rights that terms of the lease never granted. It bears emphasizing
that the rights granted under the terms of the lease agreements
were determined by the parties. The decision to limit Minnesota
Sands’ rights to a contingency interest that would not become definite unless the government granted a conditional-use permit was
the company’s.

App. 39
had to have taken to make choate its inchoate rights
under the lease agreements illustrate this point.
First, Minnesota Sands would have had to obtain
a conditional-use permit for each silica sand mining
operation. Under the County’s zoning ordinance, a conditional-use permit applicant must submit “[a] statement of reasons warranting the intended use in the
zoning district to insure compatibility of the proposed
use with the County Comprehensive Plan.” Winona
County, Minn., WCZO § 5.5.3.3 (2016); see also Winona
County, Minn., Winona County Comprehensive Plan
(2014) (a document created to preserve and enhance
“the area’s culture, customs and economy along with
its unique topography, natural resources and environment”). Among other procedural requirements, the application, with a detailed site plan, must first be
submitted to the county planning director, who then
files the application with the county planning commission for review. Winona County, Minn., WCZO
§ 5.5.4.1-.2 (2016); see id. § 5.5.3.4 (setting forth numerous site plan requirements including, but not limited to, the location of proposed structures, geological
features, architectural plans, water table, landscaping
plans, utilities, topography, adjacent land use, water
supply systems, and storage of materials).
The application must include a Township Acknowledgment Form, which documents the “concerns,
observation, and/or recommendation” of the town
board of the subject property for the Planning Commission to consider. Id. § 5.5.3.5. An applicant only receives this form after contacting the town board “to

App. 40
seek a place on their agenda as a means to advise the
[board] of the proposal.” Id. A recommendation from
the relevant township is also required, along with
“[a]ny other relevant information and material requested by the Planning Director or the Planning
Commission.” Id. §§ 5.5.3.5-.7.20
Next, assuming that Minnesota Sands met the
conditional-use permit requirements, it was simultaneously required to undergo the environmental review
process set forth in Minnesota Statutes section
116C.991. Depending on the size of the proposed project, an environmental review entails the preparation
of either an environmental assessment worksheet or a
more detailed environmental impact statement. See
Minn. Stat. § 116C.991(a) (environmental review for
silica sand projects). The environmental review process is extensive. See generally Minn. Stat. § 116D.04
(2018) (laying out procedures and requirements for environmental assessment worksheets and environmental impact statements); Minn. R. 4410.1000-.9910
(2019) (same).21 As demonstrated by Minnesota Sands’
20

Even assuming that Minnesota Sands completed all of the
foregoing steps, its eligibility for a permit on any project proposal
could still be subject to the approval of the property owners. The
leases contain contradictory provisions; the landowners are
obliged to support approval, but they retain the right to “object to
any approvals or permits at or before any type of zoning, planning, county or township or commissioning authority.” The record
does not shed any light on whether the property owners were inclined to give their approval, or give up their right to object, before
Minnesota Sands had even developed individual site plans.
21
A detailed overview of the environmental review process is
not necessary. Suffice it to say that the process has many

App. 41
own decision in August 2012 to abandon its conditional-use application for two projects in the County
after being told by the County that environmental review was required, an applicant’s completion of this
process depends upon many variables.
But even if Minnesota Sands met all the foregoing
criteria, the County was empowered to grant a conditional-use permit subject to “conditions it considers
necessary to protect the public health, safety and welfare.” Winona County, Minn., WCZO § 5.5.4.6. This provision raises another contingency. Whether Minnesota
Sands would find it profitable to mine silica sand under potential additional conditions imposed by the
County—and, therefore, obtain the right to possession—is, at this point, pure speculation.
potential steps that begin with an environmental assessment
worksheet. Minn. R. 4410.0200, subp. 24. The worksheet is “a
brief document which is designed to set out the basic facts necessary to determine whether an [environmental impact statement]
is required for a proposed project.” Id. The project’s “responsible
governmental unit” is established, which in turn reviews the
worksheet and solicits public comment. See Minn. R. 4410.0500
(2019) (responsible governmental unit selection procedures);
Minn. R. 4410.1600 (public comment period). If an environmental
impact statement is needed, the process follows four additional
steps: (1) “scoping” the environmental assessment worksheet to
determine what issues and alternatives will be covered in the environmental impact statement, Minn. R. 4410.2100; (2) preparing
the draft statement, which includes an analysis of project alternatives, mitigation measures, and cumulative potential effects,
Minn. R. 4410.2600; (3) public review of the draft statement and
preparing a final statement in response to public comments,
Minn. R. 4410.2700; and (4) review of the statement’s “adequacy”
by the responsible governmental unit, Minn. R. 4410.2800.

App. 42
Only after Minnesota Sands obtained the conditional-use permit could it engage in mining silica
sand—the only activity for which it had the right to
enter upon and use the premises that it leased. Until
Minnesota Sands actually began that activity, the
property owners retained “the absolute right to continue to complete cropping and farming activities on
the portion of the premises.” Thus, for example, if the
company received a permit from the County to mine
sand, but decided to wait until market conditions were
optimal to do so, its right to possession and control of
the premises would remain inchoate.22
For a variety of understandable reasons—including a downturn in the hydraulic fracturing industry—
Minnesota Sands never came close to securing the possessory rights described in its lease agreements. When
the ordinance was passed that prohibited industrial
mineral operations, Minnesota Sands’ interest was, at
most, a contingent-use interest under Minnesota law,
for which it paid $1,000.00 to keep that interest open
for a term of years. See Interest, Black’s Law Dictionary
(10th ed. 2014) (defining “contingent interest” as an
“interest that the holder may enjoy only upon the occurrence of a condition precedent”). A contractual interest that is contingent upon the discretionary
22

This conclusion accords with the common law rule as expressed by section 1.8 of the Restatement (Second) of the Law of
Property. According to the Restatement, “[w]hen a stipulated
event must occur before an otherwise validly created landlordtenant relationship is to commence, the relationship is not established until such event occurs.” Restatement (Second) of Prop.:
Landlord & Tenant § 1.8 cmt. a (1977).

App. 43
decision of a governmental unit is not a property interest protected by the Fifth Amendment. See, e.g., Conti
v. United States, 291 F.3d 1334, 1342 n.5 (Fed. Cir.
2002) (declining to recognize a property interest in “the
government’s discretionary decision not to exercise its
explicitly granted authority to revoke, suspend, or
modify [a] permit” (citing Bowen v. Pub. Agencies Opposed to Soc. Sec. Entrapment, 477 U.S. 41, 55 (1986)));
see also Campbell v. United States, 134 Fed. Cl. 764,
778 (Fed. Cl. 2017) (stating that “when a property interest is contingent on a favorable decision of a federal
agency, it is not a cognizable property interest under
the Takings Clause” (citing Acceptance Ins. Cos. v.
United States, 583 F.3d 849, 858 (Fed. Cir. 2009))),
aff ’d, 932 F.3d 1331 (Fed. Cir. 2019).23
Because under Minnesota law Minnesota Sands
never had a present, or even non-contingent, possessory right to use, or to possess and control, the premises described in its lease agreements, we conclude
that it did not have a property interest protected by the
Fifth Amendment. Accordingly, Minnesota Sands’

23

The dissent implies that the Takings Clause forbids the
government from requiring that a property owner seek its permission to make whatever use of her property that she wants. This
view of the government’s authority to regulate property rights is
both misguided and wrong. The regulation of land use is “perhaps
the quintessential state activity.” FERC v. Mississippi, 456 U.S.
742, 768 n.30 (1982). And while a government cannot eliminate
all productive use of the land, Lucas, 505 U.S. at 1026, the exercise of regulatory power—including zoning regulations—is
squarely within constitutional bounds. See Penn Cent. Transp.
Co., 438 U.S. at 125.

App. 44
takings claims under the United States and Minnesota
Constitutions fail.
CONCLUSION
For the foregoing reasons, we affirm the decision
of the court of appeals.
Affirmed.

DISSENT
ANDERSON, Justice (dissenting).
Respondent County of Winona passed an ordinance that allows silica sand to be mined and used for
local purposes, but prohibits the export of that sand
from Minnesota if the intended use of the sand outside
the state is hydraulic fracturing of shale. Because protecting local mining and use of silica sand at the expense of out-of-state uses of that sand violates the
Commerce Clause, and also because the analysis of the
court defeats the purpose of the Takings Clause, I respectfully dissent.
I.
I first address whether the Winona County ordinance is valid under the Commerce Clause of the
United States Constitution.
“The Commerce Clause presumes a national market free from local legislation that discriminates in

App. 45
favor of local interests.” C & A Carbone, Inc. v. Town of
Clarkstown, N.Y., 511 U.S. 383, 393 (1994); see H.P.
Hood & Sons, Inc. v. Du Mond, 336 U.S. 525, 537–39
(1949) (noting that the “economic unit is the Nation,”
and production is encouraged “by the certainty that
[the producer] will have free access to every market in
the Nation, [and] that no home embargoes will withhold [its] exports”). The Commerce Clause “circumscribes a State’s ability to prefer its own citizens in the
utilization of natural resources found within its borders, but destined for interstate commerce,” Hicklin v.
Orbeck, 437 U.S. 518, 533 (1978), and precludes local
protectionist measures, New England Power Co. v. New
Hampshire, 455 U.S. 331, 339 (1982) (stating that the
state’s export ban on energy “is precisely the sort of
protectionist regulation that the Commerce Clause declares off-limits to the states”). Thus, “a State may not
accord its own inhabitants a preferred right of access
over consumers in other States to natural resources located within its borders.” City of Philadelphia v. New
Jersey, 437 U.S. 617, 627 (1978) (citations omitted).
“If a restriction on commerce is discriminatory, it
is virtually per se invalid.” Or. Waste Sys., Inc. v. Dep’t
of Envtl. Quality of Or., 511 U.S. 93, 99 (1994). The law
“must be invalidated” unless “ ‘it advances a legitimate
local purpose that cannot be adequately served by reasonable nondiscriminatory alternatives.’ ” Id. at 100–
01 (quoting New Energy Co. of Ind. v. Limbach, 486 U.S.
269, 278 (1988)). “The virtually per se rule of invalidity
applies not only to laws motivated solely by a desire to
protect local industries from out-of-state competition,

App. 46
but also to laws that respond to legitimate local concerns by discriminating arbitrarily against interstate
trade.” Chem. Waste Mgmt., Inc. v. Hunt, 504 U.S. 334,
344 n.6 (1992) (citations omitted) (internal quotation
marks omitted).
In simple terms, Winona County’s ordinance prohibits all excavation, mining, and processing of “industrial minerals.” See Winona County, Minn., Winona
County Zoning Ordinance (WCZO) § 9.10.2 (2016). But
the details of this ordinance show a very specific distinction between permitted “local” uses of “sand” as opposed to an export ban for one narrow use: sand,
specifically silica sand, intended “for use in the hydraulic fracturing of shale to obtain oil and natural gas.” Id.
§ 4.2 (2016) (definition of “Industrial Minerals”). No
one contends—and the record certainly does not establish—that there are any local or Minnesota uses of silica sand for hydraulic fracturing of shale to obtain oil
and natural gas; thus, the plain terms of the ordinance
can be read only as a ban on the export of silica sand
when the intended out-of-state use is for hydraulic
fracturing.
It is on this point that I part ways with the court.
The potential barrier constructed by the court for a hypothetical in-state purchaser of silica sand ignores the
benefit conferred by the ordinance on permitted “local”
uses of sand.1 Winona County admits that the
1

Although the court refers to this as “industrially produced
silica sand,” the ordinance does not. The ordinance prohibits the
“excavation, extraction, mining, and processing of industrial

App. 47
permitted “construction minerals” under the ordinance
includes silica sand that is “identical” to the silica sand
that is a prohibited “industrial mineral.” The ordinance
creates no barrier for an in-state purchaser of silica
sand and imposes differential treatment only with respect to an intended out-of-state use for silica sand. See
Or. Waste Sys., Inc., 511 U.S. at 99 (explaining that the
Supreme Court uses the term “discrimination” to mean
“differential treatment of in-state and out-of-state economic interests that benefits the former and burdens
the latter”). The term “industrial minerals” includes
“silica sand” but then excludes that same sand when it
would be used as “construction minerals.” Winona
County, Minn., WCZO § 4.2. I cannot agree with the
court that there is no discrimination between the economic interests of in-state users versus out-of-state users when the plain terms of the ordinance draw
distinctions based only on the intended use.
Despite the mutual exclusions in the definitions,
the record suggests that one mineral is different from
another only to the extent that its use is either local or
nonlocal. One county official, who is charged with administering the zoning ordinance, recognized that
“ ‘sand and gravel’ considered [by the zoning ordinance
as] a construction mineral may include ‘silica sand,’ as
silica sand is found throughout the County and used
for construction purposes and animal bedding.” And in
an affidavit, a consultant for appellant Minnesota
Sands stated that “the composition of the two types of
minerals,” and those minerals are defined as “silica sand,” which
is not a “construction mineral[ ]” used for “local” purposes.

App. 48
sand can be, and often is, the same” and that “[t]he process to mine silica sand, when used as a proppant in
hydraulic fracturing, and silica sand, when used . . . as
a construction or bedding material[,] does not differ in
any material way.”
These facts, which we must accept as true for summary judgment purposes, see Rochester City Lines, Co.
v. City of Rochester, 868 N.W.2d 655, 661 (Minn. 2015),
establish that end use alone defines the mineral. If
sand were to be used for “local” purposes—or construction purposes or animal bedding, for example—then it
would be mined as a “construction mineral,” which is
permissible. But if the same sand were “commercially
valuable for use” in fracking that cannot occur locally
(the court and the parties agree that fracking does not
occur in Minnesota) and used as a fracking proppant,
then the sand would be mined as an “industrial mineral,” which is not permissible under the ordinance.
This differential treatment, which allows local mining
to proceed without impairment, while selectively banning the mining of the same resource for nonlocal uses,
violates the Commerce Clause.
The ordinance “preserves local commerce, to the
benefit of local consumers of silica sand, who are insulated from the effects of unrestricted trade in silica
sand,” Minn. Sands, LLC v. Cty. of Winona, 917 N.W.2d
775, 789 (Minn. App. 2018) (Johnson, J., concurring in
part and dissenting in part), giving locals a “preferred
right of access,” City of Philadelphia, 437 U.S. at 627,
to sand located within the county borders. This “is precisely the sort of protectionist regulation that the

App. 49
Commerce Clause declares off-limits.” New England
Power Co., 455 U.S. at 339. The Supreme Court of the
United States correctly overturned another Minnesota
law over a century ago, stating that “[o]ur duty to
maintain the Constitution will not permit us to shut
our eyes to [the] obvious and necessary results of the
Minnesota statute.” Minnesota v. Barber, 136 U.S. 313,
323 (1890) (striking down a Minnesota law that required a Minnesota inspector to certify meat within 24
hours before slaughter, because, in effect, it was an absolute ban on the sale of out-of-state meat).
Because the discrimination appears on the face of
the ordinance by way of an affirmative distinction
drawn between local and nonlocal uses of sand, the ordinance is subject to per se invalidation. See Or. Waste
Sys., Inc., 511 U.S. at 99. Winona County does not explain why the ordinance “advances a legitimate local
purpose that cannot be adequately served by reasonable nondiscriminatory alternatives.” Id. at 100–01
(quoting New Energy Co. of Ind., 486 U.S. at 278). The
ordinance, therefore, should be invalidated.2 I would
2

The court concludes that this ordinance does not confer any
benefit to in-state economic interests. But on its face, the ordinance allows Winona County to hoard more sand for local construction purposes. And although it may not be a proclaimed
purpose, it cannot be overlooked that the effect specifically harms
the out-of-state fracking industry—an industry that groups who
advocated for this ordinance have animus towards—by depriving
it of sand from Winona County.
Regardless of how much or how little sand is removed, the
ban is effective whenever out-of-state fracking occurs. It is, of
course, conceivable that the County, using its police powers, could
constitutionally ban sand mining activities altogether. But what

App. 50
reverse the district court’s summary judgment in favor
of Winona County.
The court disagrees, concluding that “[t]he absence of any express distinction between in-state and
out-of-state interests causes Minnesota Sands’ claim of
facial discrimination to fail.” To be sure, as the court
describes, many laws invalidated by the Supreme
Court have employed an express distinction between
in-state and out-of-state interests. But those laws were
enacted by a legislative body with statewide authority;
there is no talismanic significance to the words “instate” or “out-of-state” because we consider here an
ordinance enacted by a local legislative body that does
not have statewide authority.3 The Supreme Court
has invalidated ordinances enacted by a local legislative authority to shield local interests—even if not
statewide interests—from interstate commerce. See,
the County cannot do is what the County did here—tailor a local
ordinance to shield and protect local interests while using its ordinance power to devastating effect against the out-of-state fracking industry.
3
Fort Gratiot Sanitary Landfill, Inc. v. Michigan Dept. of
Natural Resources, 504 U.S. 353 (1992), undermines the court’s
rationale that discriminating against other in-state interests
saves Winona County’s ordinance. In Fort Gratiot, a state law allowed individual counties to burden other in-state counties, in addition to other states, by refusing to receive trash from either. The
state law violated the Commerce Clause because it allowed each
of the state’s counties to “isolate itself from the national economy.” Id. at 361. Here, the fact that the term “local” can be
stretched to mean that Winona Country burdens other counties
in addition to other states does not make the ordinance constitutional. The ordinance isolates the local sand industry from the
national economy for frac sand.

App. 51
e.g., Dean Milk Co. v. City of Madison, Wis., 340 U.S.
349, 354 (1951) (concluding that a city ordinance that
restricted milk sales in the city unless processed
within a 5-mile radius from the city center “erect[s] an
economic barrier protecting a major local industry
against competition from without the State” and
“plainly discriminates against interstate commerce”
(emphasis added)); Sprout v. City of South Bend, Ind.,
277 U.S. 163, 167–71 (1928) (finding a city ordinance
that required a city license to conduct bus services
without making distinctions between interstate and
intrastate services invalid under the Commerce
Clause and stating that the “privilege of engaging in
[interstate] commerce is one which a State cannot
deny”); see also C & A Carbone, 511 U.S. at 391–92
(summarizing cases where “offending local laws [that]
hoard[ed] a local resource . . . for the benefit of local
businesses” were struck down (emphasis added)); Fort
Gratiot Sanitary Landfill, Inc. v. Mich. Dep’t of Nat.
Res., 504 U.S. 353, 361 (1992) (holding that a county
“evenhandedly” discriminating against other counties
in addition to other states does not save the law banning acceptance of solid waste because a state “may not
avoid the strictures of the Commerce Clause by curtailing the movement of articles of commerce through
subdivisions of the State, rather than through the
State itself ”); Chem. Waste Mgmt., 504 U.S. at 344 n.6
(stating that “[t]he virtually per se rule of invalidity
applies not only to laws motivated solely by a desire to
protect local industries from out-of-state competition,
but also to laws that respond to legitimate local concerns by discriminating arbitrarily against interstate

App. 52
trade” (emphasis added) (citations omitted) (internal
quotation marks omitted)).
The court also decides that local commerce is
somehow transformed into interstate commerce because the local uses of construction sand might extend
into neighboring counties that happen to be located in
Wisconsin. The court’s narrow view of interstate commerce is not supported by fundamental principles of
the dormant Commerce Clause; longstanding case law
also rejects this limited view of interstate commerce.
See H.P. Hood & Sons, Inc., 336 U.S. at 539 (“Our system, fostered by the Commerce Clause, is that every
farmer and every craftsman shall be encouraged to
produce by the certainty that he will have free access
to every market in the Nation, [and] that no home
embargoes will withhold his exports. . . .”); see also
Wyoming v. Oklahoma, 502 U.S. 437, 469 (1992)
(Scalia, J., dissenting) (“Our negative Commerce
Clause jurisprudence grew out of the notion that the
Constitution implicitly established a national free
market. . . .”). A Minnesota meat inspection ordinance,
invalidated by the Supreme Court under the dormant
Commerce Clause, Barber, 136 U.S. at 323, was not
saved by the plausible fact (although not explored by
the Supreme Court) that some butchers in western
Wisconsin were able to bring their meat to Minnesota
for inspection within 24 hours before slaughtering. The
focus of the dormant Commerce Clause is the national
economy; Winona County’s ordinance protects local users of sand and burdens users of sand located outside
of Minnesota. This Winona County cannot do.

App. 53
In sum, Winona County’s ordinance erects a facially discriminatory ban on silica sand mining when
intended for hydraulic fracturing that is per se invalid.
Minnesota Sands is entitled to relief, and the court of
appeals should be reversed.
II.
But even if we concluded that the local ordinance
at issue here does not fall on Commerce Clause
grounds, Minnesota Sands has protected constitutional interests in its leasehold property under the
Takings Clause. The court concludes otherwise, in the
process defeating the constitutional protection of private property that the Takings Clause extends and
reaching a result that is inconsistent with controlling
Supreme Court decisions.
The Takings Clause provides that “private property [shall not] be taken for public use, without just
compensation.” U.S. Const. amend. V; see also Minn.
Const. art. I, § 13. “A property owner has an actionable
Fifth Amendment takings claim when the government
takes his property without paying for it.” Knick v. Twp.
of Scott, Pa., ___ U.S. ___, ___, 139 S. Ct. 2162, 2167
(2019).
When determining the scope of “property” subject
to the Takings Clause, we must be “mindful of the basic
axiom that property interests are not created by the
Constitution” but “are created and their dimensions
are defined by existing rules or understandings that
stem from an independent source such as state law.”

App. 54
Ruckelshaus v. Monsanto Co., 467 U.S. 986, 1001 (1984)
(citations omitted) (internal quotation marks omitted).4 The “existing rules or understandings” to which
we must look are traditional property law rules. We
may not “sidestep the Takings Clause by disavowing
traditional property interests long recognized under
state law.” Phillips v. Wash. Legal Found., 524 U.S. 156,
167 (1998).
We have long recognized that mineral leases are
protectable property interests under Minnesota law. “It
is well settled in this state, as elsewhere, that the
owner of land may segregate the mineral estate from
the rest of the land, and convey either interest without
4

Indeed, the right to own property is not created by the government; rather, it predates our Constitution and is properly
thought of as belonging to the natural rights all people possess.
See, e.g., John Locke, Second Treatise of Civil Government and a
Letter Concerning Tolerance ¶ 27 (J.W. Gough ed. 1948).
Though the earth, and all inferior creatures be common
to all men, yet every man has a property in his own
person; this nobody has any right to but himself. The
labour of his body and the work of his hands we may
say are properly his. Whatsoever, then, he removes out
of the state that nature hath provided and left it in, he
hath mixed his labour with, and joined to it something
that is his own, and thereby makes it his property. It
being by him removed from the common state nature
placed it in, it hath by this labour something annexed
to it that excludes the common right of other men. For
this labour being the unquestionable property of the labourer, no man but he can have a right to what that is
once joined to, at least where there is enough and as
good left in common for others.
Id.; see also 1 William Blackstone, Commentaries on the Laws of
England 138 (1771) (identifying property as an absolute right).

App. 55
the other.” Washburn v. Gregory Co., 125 Minn. 491,
147 N.W. 706, 707 (1914). We have acknowledged that
“[t]he customary method of developing, working, and
obtaining profits from mineral lands, at the time of the
adoption of our Constitution, was, by means of mineral
leases.” State v. Evans, 99 Minn. 220, 108 N.W. 958, 960
(1906); see also Sehlstrom v. Sehlstrom, 925 N.W.2d
233, 238 (Minn. 2019) (“ ‘For what,’ says Lord Coke . . .
`is the land, but the profits thereof.’ ” (citation omitted)); Evans, 108 N.W. at 960 (“The contention . . . that
iron ore in place is a part of the land, that there may
be a separate ownership of the surface and the minerals of land, [and] that the mineral leases in question
create an interest in the land . . . must be, and is, conceded.”).
Because mineral leases, including the leases at issue here, have been “long recognized” as property, Phillips, 524 U.S. at 167, the protected property interest
defined by those leases may not be regulated out of existence by the government, see Pa. Coal Co. v. Mahon,
260 U.S. 393, 415 (1922) (explaining that regulation
will be recognized as a Fifth Amendment taking if it
“goes too far”).5 Put another way, leasehold interests

5

Prior to its decision in Lucas v. South Carolina Coastal
Council, the Supreme Court had been unclear about what constitutes the denominator in determining whether a taking should be
analyzed as a total taking or a diminution in value. 505 U.S. 1003,
1016–17 n.7 (1992). In determining the denominator, Lucas clarified that a protectable property interest is “shaped by the State’s
law of property—i.e., whether and to what degree the State’s law
has accorded legal recognition and protection to the particular

App. 56
are protected by the Takings Clause of the United
States Constitution. Because Minnesota Sands argues
that its mineral leases were taken by the county ordinance, this case should, at a minimum, be remanded to
the district court for an inquiry that considers factors
“such as the economic impact of the regulation, its interference with reasonable investment-backed expectations, and the character of the government action.”
Horne v. Dep’t of Agric., ___, ___, 135 S. Ct. 2419, 2417
(2015) (discussing the takings factors to be considered
under Penn Cent. Transp. Co. v. New York City, 438 U.S.
104, 124 (1978)).
The court disagrees, rejecting the takings claim
because it concludes that Minnesota Sands does not
have a vested property interest protected by the Takings Clause. The court offers several reasons why this
is so. First, Minnesota Sands has not obtained conditional-use permits, which may entail “potential additional conditions” that may not be acceptable to
Minnesota Sands. Nor has Minnesota Sands pursued
environmental review, which would involve “many potential steps” and “many variables.” Last, the court
interest in land with respect to which the takings claimant alleges
a diminution in (or elimination of ) value.” Id.
In Minnesota, as recognized in Washburn and Evans, severed
mineral rights are a recognized property interest. Minnesota
Sands holds those rights, and only those rights. These rights were
nearly completely extinguished by Winona County’s ordinance,
and thus, under Supreme Court precedent, it is necessary to analyze the facts here using the framework of full deprivation (i.e., as
a deprivation of all economically viable use), rather than treating
these circumstances as a deprivation in value.

App. 57
speculates that Minnesota Sands might not “find it
profitable to mine silica sand” after all these steps are
completed.6 Thus, the court holds that, “[b]ecause under Minnesota law Minnesota Sands never had a present, or even non-contingent, possessory right to use,
or to possess and control, the premises described in its
lease agreements, . . . it did not have a property interest protected by the Fifth Amendment.”
The court’s reasoning presents both factual and legal difficulties. Factually, the court’s conclusion requires that we simply ignore lease provisions that cut
against a vesting theory. For example, the leases expressly state that Minnesota Sands “shall be entitled
to possession on the commencement date.” With that
entitlement to possession, Minnesota Sands also has
“the right to make use of all roadways presently existing on the Property” and the right to “clear brush and
undergrowth from such portions of the Property as
may be reasonably necessary to explore for materials
or to locate pits, quarries, roads and stockpile areas.”
The leases also give Minnesota Sands an exclusive
right to mine the leased premises. Each lessor “represent[ed] that it has not previously leased or assigned
6

In addition to these contingencies, the court also suggests
that Minnesota Sands would need “approval of the property owners” to mine sand but then states that “[t]he record does not shed
any light on whether the property owners were inclined to give
their approval, or give up their right to object, before Minnesota
Sands had even developed individual site plans.” But the court is
incorrect on the record: Each landlord also expressly promised, in
the relevant leases, “to assist and cooperate in obtaining any such
approvals or permits.”

App. 58
the mineral rights to the premises to any other party”
and “covenant[ed] not to lease, grant or assign the mineral rights to the premises described above, during the
term of this lease.” Thus, under the terms of the leases,
Minnesota Sands has the right to enter the land, clear
the land, and exclude others from the land, demonstrating that it has the required “immediate, fixed
right of present or future enjoyment” of the property to
have a vested leasehold. Vest, Black’s Law Dictionary
(11th ed. 2019).
Legally, even if we could accept the court’s
abridged take on the leases, I disagree with its
abridged take on the Fifth Amendment. Under the
court’s view of this constitutional protection, it does
not matter how significant the interference of a regulation is with the “reasonable investment-backed expectations” of a property owner. Horne, ___ U.S. at ___,
135 S. Ct. at 2427 (discussing the Penn Central factors). Indeed, according to the court, it does not matter
if the government subjected the owner’s private property to a total regulatory taking, see Lucas v. S.C.
Coastal Council, 505 U.S. 1003, 1016 (1992), if the
owner’s property was not sufficiently “vested” before
the regulation became effective. An owner’s regulatory
takings claim, partial or total, may proceed only after
the owner has a “vested interest to use” the property
as expected. Here, according to the court, that means
that Minnesota Sands has no constitutionally protected property interest until Winona County approves
mining silica sand for hydraulic fracturing, which is
the proposed use of Minnesota Sands’ leaseholds.

App. 59
Therefore, under the court’s logic, Minnesota Sands
may not bring a Takings Clause challenge to Winona
County’s frac sand mining ban until Winona County
first permits frac sand mining.7
This vesting analysis defeats the very purpose of
the Takings Clause. If a government regulation reduces private property to the point where it is only
“contingent,” “speculative,” and “inchoate” (as the court
variously describes the postregulation leases of Minnesota Sands), it has not gone “too far,” Pa. Coal Co., 260
U.S. at 415, as one might expect. But under the court’s
analysis, the regulation does not even trigger Takings
Clause protection. The court thus gives confiscatory
government regulation immunity from the Takings
Clause.
The court’s logic is at odds with several Supreme
Court decisions. See Lucas, 505 U.S. at 1026, 1032
(reversing the South Carolina Supreme Court, which
took a Takings Clause approach that “would essentially nullify Mahon’s affirmation of limits to the
7

The court contends that a governmental unit can insulate
itself from the Takings Clause by relying on the ability of the government to manipulate zoning and land use controls. This is not,
and cannot be, the law; the Takings Clause cannot be voided by
local ordinance, no matter how eager Winona County is to limit
out-of-state interests. I agree with amici, “the inability to get a
[conditional-use permit] is properly analyzed as a taking of property, not a flaw in the property interest.” (Emphasis added.) The
fact that a takings claim, either partial or total, could have arisen
under the prior regulations cannot now mean that a takings claim
cannot arise from a more absolute and total ban on mining frac
sand.

App. 60
noncompensable exercise of the police power”); see also
Palazzolo v. Rhode Island, 533 U.S. 606, 626–27 (2001)
(rejecting a “sweeping” rule of the Rhode Island Supreme Court that “absolve[d] the State of its obligation
to defend any action restricting land use, no matter
how extreme or unreasonable”); Phillips, 524 U.S. at
167 (forbidding state efforts to “sidestep the Takings
Clause”).
There is not now, nor has there ever been, a vesting requirement under the Takings Clause. The Supreme Court has not required that a claimant obtain
vested rights in a prohibited use before bringing a regulatory takings challenge. See, e.g., Palazzolo, 533 U.S.
at 614–15, 632 (allowing a regulatory takings claim to
proceed despite claimant never having obtained authorization to fill a salt marsh); John J. Delaney &
Emily J. Vaias, Recognizing Vested Development Rights
as Protected Property in Fifth Amendment Due Process
and Takings Claims, 49 Wash. U. J. Urb. & Contemp.
L. 27, 37 n.38 (1996) (noting that “in Lucas, there is no
indication that the successful plaintiff possessed
vested rights, because plaintiff did not possess a building permit, and under South Carolina law, vesting occurs only upon issuance of a building permit and
expenditures in reliance thereon”). Nor have we
adopted the vesting requirement imposed today. See
Hubbard Broad., Inc. v. City of Afton, 323 N.W.2d 757,
759, 766 (Minn. 1982) (analyzing the merits of a takings claim even though the claimant’s property interest was “conditioned upon the granting . . . of a specialuse permit”).

App. 61
The decisions on which the court relies add little
weight to its vesting theory. In Conti v. United States,
the federal government banned the use of gillnets for
harvesting swordfish. 291 F.3d 1334, 1337 (Fed. Cir.
2002). A fisherman who used gillnets argued that the
ban was a taking of his swordfishing permit. Id. Rejecting this argument, the Conti court looked to the fact
that the fisherman “could not assign, sell, or otherwise
transfer the permit” and that he “lacked the authority
to exclude others from the Atlantic Swordfish Fishery,”
both traditional hallmarks of property. Id. at 1341.
Therefore, the court held, “[t]he absence of crucial indicia of a property right, coupled with the government’s irrefutable retention of the right to suspend,
revoke, or modify [the fisherman’s] swordfishing permit, compels the conclusion that the permit bestowed
a revocable license, instead of a property right.” Id. at
1342.
An interest in a revocable, nonexclusive, swordfishing permit is nothing like, and indeed is substantially less than, the interest of Minnesota Sands in its
mineral-rights leases. These leases bear traditional
hallmarks of property; for example, the right of quiet
enjoyment as well as the right to alienate—after all,
Minnesota Sands acquired its leasehold interests by
assignment. Each lease gives Minnesota Sands an exclusive right to mine the leased premises. Not only did
each lessor “represent[ ] that it has not previously
leased or assigned the mineral rights to the premises
to any other party[,]” but also expressly “covenant[ed]
not to lease, grant or assign the mineral rights to the

App. 62
premises described above, during the term of this
lease.” Nor do the leases of Minnesota Sands suggest
that they are revocable at will by the government.
Most importantly, Minnesota recognizes severable
rights in minerals. Minnesota Sands holds that right,
to the exclusion of the rest of the world, for the leased
premises.
Moreover, the fact that the contract specified that
certain payments under the lease were not due to the
lessor until a conditional-use permit was obtained does
not make the interest of Minnesota Sands in the right
to mine sand, as the court states, “inchoate.” The court
does not understand the effect of a conditional-use permit on property rights. A conditional-use permit allows
the owner of a property to put his property to use in a
manner that the ordinance expressly permits. Westling
v. City of St. Louis Park, 284 Minn. 351, 170 N.W.2d
218, 221 (1969) (stating that uses under a conditionaluse permit are “legislatively [p]ermitted in a zone subject to controls” whereas uses requiring a variance are
“legislatively [p]rohibited but may be allowed for special reasons” (citations omitted) (internal quotation
marks omitted)). That Minnesota Sands temporarily
chose not to pursue a permitted activity is a business
decision driven by many factors, including the market
price and demand for sand. When to actually extract
sand is a business decision made by Minnesota Sands,
not by our court. See Janssen v. Best & Flanagan, 662
N.W.2d 876, 882 (Minn. 2003) (“[C]ourts are illequipped to judge the wisdom of business ventures and
have been reticent to replace a well-meaning decision

App. 63
by a corporate board with their own.”). The fact that
sand mining had not yet begun under the exclusive
mineral lease held by Minnesota Sands at the time of
the total taking by the ordinance does not mean that
Minnesota Sands had abandoned its interests, but rather that the business conditions were not ideal. A conditional-use requirement does not exempt Winona
County from the Takings Clause.
Campbell v. United States, 134 Fed. Cl. 764 (Fed.
Cl. 2017), is equally unpersuasive. In Campbell, the
plaintiffs who brought the takings claim were “victims
of accidents which occurred while driving General Motors vehicles.” Id. at 767. After General Motors filed a
bankruptcy petition, the plaintiffs’ causes of action became unsecured claims. Id. at 768. The plaintiffs asserted that a taking of property occurred when “the
United States took actions to obtain a particular restructuring” of General Motors that led the bankruptcy
court to “extinguish[ ] plaintiffs’ successor liability
causes of action” against the reorganized General Motors. Id. Looking to “the powers accorded the bankruptcy court,” the Campbell court found that plaintiffs’
interest in successor-liability claims was “targeted
for—and was subject to—extinguishment by the conditions that the government imposed.” Id. at 776. Therefore, the court concluded, plaintiffs’ asserted interest
in their unsecured claims becoming successor-liability
claims “was not a cognizable property interest under
the Takings Clause.” Id. at 779.
A mineral lease is nothing like an expectancy that
an unsecured claim will survive bankruptcy. It is, as

App. 64
we have long recognized in Minnesota, a valuable property interest. Washburn, 147 N.W. at 707; Evans, 108
N.W. at 960. The leases here give current, fixed, possessory rights to Minnesota Sands—the right to enter the
land, the right to clear and develop the land, and the
right to exclude others from the land. Before this decision, long-recognized private-property interests like
those of Minnesota Sands were not subject to extinguishment by the government in the same way that
unsecured claims are subject to extinguishment by a
bankruptcy court. Pa. Coal Co., 260 U.S. at 415. In
short, neither Campbell, nor any other case the court
cites, supports the court’s result.
The novel analysis used by the court here has subtle, but serious, implications for Takings Clause jurisprudence. The court opines that environmental
regulations, and regulatory schemes such as conditional-use requirements, are enough to deprive an
owner of the full use of his property interests. This
analysis starts at the wrong place; the analysis must
start with the constitutionally protected interests.
Both the United States Constitution and the Minnesota Constitution recognize that private property shall
not be taken for public use without just compensation.
U.S. Const. amend. V; Minn. Const. art. I, § 13. Unlike
these constitutional protections for “private property,”
there is no equivalent constitutional protection for environmental regulation or for a requirement that the
owner of property must approach the government on
bended knee for permission to use his property as he
sees fit.

App. 65
I do not dispute that some regulation of sand mining is necessary, beneficial, and constitutionally permissible. But Minnesota Sands has a property interest
in the use, possession, and control of its mineral leases
protected by the Takings Clauses of the Fifth Amendment and the Minnesota Constitution. Mineral leases,
which have been recognized as property at least since
“the time of the adoption of our Constitution,” Evans,
108 N.W. at 960, cannot be regulated out of existence
with immunity.
I would reverse the grant of summary judgment
and remand to the district court for further proceedings—at a minimum, for an analysis under the Penn
Central factors. For that reason, and also because the
Winona County ordinance contravenes the Commerce
Clause, I respectfully dissent.

GILDEA, Chief Justice (dissenting).
I join in the dissent of Justice Anderson.

THISSEN, Justice (concurring in part, dissenting in
part).
I join in Part II of Justice Anderson’s dissent.

App. 66
CONCURRENCE & DISSENT
THISSEN, Justice (concurring in part, dissenting in
part).
I join in the opinion of the majority with respect to
parts I-II. With respect to part III of the majority’s
opinion, I dissent. Because I join part II of Justice Anderson’s dissent, I would reverse the district court’s
grant of summary judgment on Winona Sand’s constitutional claim under the Takings Clauses.

App. 67
STATE OF MINNESOTA

SUPREME COURT

Minnesota Sands, LLC,
Appellant, vs. County of
Winona, Minnesota,
Respondent

JUDGMENT
Appellate Court
# A18-0090
Trial Court
# 85-CV-17-771

Pursuant to a decision of the Minnesota Supreme
Court duly made and entered, it is determined and adjudged that the decision of the Winona County District
Court herein appealed from be and the same hereby is
affirmed and judgment is entered accordingly.
It is further determined and adjudged that the
County of Winona herein, have and recover of Minnesota Sands, LLC, herein the amount of $822.91 as costs
and disbursements in this cause, and that execution
may be issued for the enforcement thereof.
Dated and signed:
FOR THE COURT
May 4, 2020
Attest: AnnMarie S. O’Neill
Clerk of the Appellate Courts
By: /s/ AnnMarie S. O’Neill
Clerk of the Appellate Courts

App. 68
Statement For Judgment
Costs and Disbursements in the Amount of: $822.91
Attorney Fees in the Amount of:
Other in the Amount of:
Total:

$822.91

Satisfaction of Judgment filed:
Dated
Therefore the above judgment is duly satisfied in
full and discharged of record
Attest: AnnMarie S. O’Neill By:
Clerk of the Appellate
Court

Assistant Clerk

[Certification Omitted]

App. 69
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-0090
Minnesota Sands, LLC,
Appellant,
vs.
County of Winona, Minnesota,
Respondent.
Filed July 30, 2018
Affirmed
Worke, Judge
Concurring in part, dissenting in part,
Johnson, Judge
Winona County District Court
File No. 85-CV-17-771; 85-CV-17-516
Bethany M. Gullman, Faegre Baker Daniels, L.L.P.,
Washington, D.C., and
Christopher H. Dolan, Nicholas J. Nelson, Delmar R.
Ehrich, Faegre Baker Daniels, L.L.P., Minneapolis,
Minnesota (for appellant).
Jay T. Squires, Elizabeth J. Vieira, Kristin C.
Nierengarten, Rupp, Anderson, Squires & Waldspurger, PA, Minneapolis, Minnesota (for respondent).
Considered and decided by Johnson, Presiding
Judge; Worke, Judge; and Jesson, Judge.
SYLLABUS
A county ordinance that even-handedly bans
all industrial-mineral mining, including silica-sand

App. 70
mining, within the county does not discriminate
against interstate commerce in violation of the
dormant Commerce Clause.
A party must have a compensable property interest to assert a viable regulatory-takings claim.
OPINION
WORKE, Judge.
In this appeal from the district court’s dismissal of
its declaratory-judgment action challenging a land-use
ordinance prohibiting all mining of industrial minerals, including silica sand, appellant argues that the
district court erred in concluding that the ordinance
does not violate the dormant Commerce Clause and
does not constitute a regulatory taking. We affirm.
FACTS
Between 2011 and 2012, Richard Frick, president
of appellant Minnesota Sands, LLC (Minnesota Sands),
entered into several leases with various landowners in
Winona County to use the properties to mine silica
sand to be processed and used in hydraulic fracturing
for oil and natural gas (fracking). Frick then assigned
the leases to Minnesota Sands. At that time, this type
of industrial mining was a conditional use requiring
a conditional use permit (CUP) prior to excavation. In
2011, respondent Winona County (the county) received
three applications for CUPs to engage in industrial
mining for silica sand. None of the applications were
for the parcels leased by Minnesota Sands.

App. 71
On January 10, 2012, the county denied the pending applications and enacted a three-month moratorium to allow its board of commissioners to study the
issue more closely. After the moratorium expired, a
company that is not a party in this litigation, Nisbit
operation, submitted a second CUP application to engage in silica-sand mining, which the county granted.
In 2016, a local non-profit asked the county to renew discussions about amending the county’s zoning
ordinance governing sand mining. The county engaged
in an eight-month-long process, during which it investigated the environmental concerns related to industrial mineral operations in particular, and received
comments from over 200 county residents through
public hearings and written submissions. On November 22, 2016, the county board formally adopted an
amendment to the zoning ordinance.
The amendment prohibits all industrial mineral
operations within the county and permits construction
mineral operations, which remains a conditional use.
Winona County, Minn., Zoning Ordinance (WCZO), Ch.
10, § 11 (2016). It defines and distinguishes two groups
of minerals:
Construction Minerals: The term “construction minerals” includes natural common
rock, stone, aggregate, gravel and sand that is
produced and used for local construction purposes, including road pavement, unpaved road
gravel or cover, concrete, asphalt, building
and dimension stone, railroad ballast, decorative stone, retaining walls, revetment stone,

App. 72
riprap, mortar sand, construction lime, agricultural lime and bedding sand for livestock
operations, sewer and septic systems, landfills, and sand blasting. The term “construction minerals” does not include “industrial
minerals” as defined below.
Industrial Minerals: The term “industrial
minerals” includes naturally existing high
quartz level stone, silica sand, quartz, graphite, diamonds, gemstones, kaolin, and other
similar materials used in industrial applications, but excluding construction minerals as
defined above.
Silica sand is categorized as an industrial
mineral by the Minnesota Department of Natural Resources and the North American Classification System under classification no.
212322.
“Silica sand” has the meaning given in
Minnesota Statutes, section 116C.99, subd.
1(d): “ ‘Silica sand’ means well-rounded, sandsized grains of quartz (silicon dioxide), with
very little impurities in terms of other minerals. Specifically, the silica sand for the purposes of this section is commercially valuable
for use in the hydraulic fracturing of shale to
obtain oil and natural gas. Silica sand does
not include common rock, stone, aggregate,
gravel, sand with a low quartz level, or silica
compounds recovered as a by-product of metallic mining.” Minn. Stat. Section 116C.99,
subd. 1(d).

App. 73
Id., Ch. 4, § 2. Industrial mineral operations include
the following activities: (1) acquiring industrial minerals through all digging, excavating, and mining of any
sort; (2) processing, filtering, cleaning, and refining industrial minerals; (3) storing or stockpiling said industrial minerals; and (4) hauling or transporting any
industrial minerals mined in the county. Id.
Southeast Minnesota Property Owners (SMPO)
sued the county in March 2017, alleging that the ordinance is arbitrary and capricious; violates the Due Process, Equal Protection, and Takings Clauses of the
Minnesota and United States Constitutions; and violates the Interstate Commerce Clause of the United
States Constitution. In April 2017, Minnesota Sands
sued and alleged the same.
After the district court consolidated the two actions, Minnesota Sands and SMPO each filed a motion
for summary judgment on all claims against the
county. Specifically, each requested declaratory and injunctive relief to invalidate the amendment and enjoin
its enforcement, as well as summary judgment as to all
other claims set forth in the complaints. The county
filed a motion to dismiss, or in the alternative, for summary judgment. The district court granted the county’s
summary judgment motion, affirming the validity of
the ordinance. This appeal by Minnesota Sands follows.

App. 74
ISSUES
I.

Does the zoning ordinance violate the
dormant Commerce Clause?

II. Is the zoning ordinance a regulatory taking
of Minnesota Sands’ compensable property
interest?
ANALYSIS
Minnesota Sands challenges the district court’s
grant of summary judgment in favor of the county.
On appeal from summary judgment, we determine
whether there are any genuine issues of material fact
and whether a party is entitled to judgment as a matter of law. Laymon v. Minnesota Premier Properties,
LLC, 913 N.W.2d 449, 452 (Minn. 2018). Where the
material facts are not in dispute, as in this case, we
review the district court’s application of the law de
novo. Wensmann Realty, Inc. v. City of Eagan, 734
N.W.2d 623, 630 (Minn. 2007).
This appeal presents two issues. The first is
whether the county may ban all silica-sand mining
within its boundaries without transgressing Congress’
authority under the Commerce Clause of the United
States Constitution. The second is whether the ordinance prohibiting all silica-sand mining constitutes a
regulatory taking of Minnesota Sands’ compensable
property interest for which it is owed just compensation pursuant to Article I, Section 13 of the Minnesota
Constitution and the Takings Clause of the United

App. 75
States Constitution. We address each argument in
turn.
I.

Dormant Commerce Clause

The Commerce Clause of the United States Constitution grants Congress the power to regulate commerce among the states. U.S. Const. art I, § 8, cl. 3. The
Commerce Clause refers to an affirmative grant of
power to Congress, but it has long been interpreted to
contain an implied negative command, the dormant
Commerce Clause, that states may not unduly burden
or discriminate against interstate commerce. Chapman v. Comm’r of Revenue, 651 N.W.2d 825, 832 (Minn.
2002). The dormant Commerce Clause “is driven by a
concern about ‘economic protectionism—that is, regulatory measures designed to benefit in-state economic
interests by burdening out-of-state competitors.”
Swanson v. Integrity Advance, LLC, 870 N.W.2d 90, 93
(Minn. 2015) (quoting McBurney v. Young, 569 U.S. 221,
235, 133 S. Ct. 1709, 1719 (2013)).
Our precedent prescribes that we first determine
whether the challenged law implicates the Commerce
Clause. Chapman, 651 N.W.2d at 832. Congressional
Commerce-Clause authority extends to three broad
categories of activity: “(1) the use of the channels of interstate commerce, (2) the instrumentalities of interstate commerce, or persons or things in interstate
commerce, and (3) activities having a substantial effect
on interstate commerce.” Id. at 832-33 (citing United
States v. Lopez, 514 U.S. 549, 558-59, 115 S. Ct. 1624,

App. 76
1629-30 (1995)) (noting types of interstate commerce
that the dormant Commerce Clause may implicate).
Next, if the challenged law implicates commerce,
we evaluate whether the government action violates
the Commerce Clause. Id. at 832. This may occur in
two ways. Oregon Waste Sys., Inc. v. Dep’t of Envtl.
Quality, 511 U.S. 93, 99, 114 S. Ct. 1345, 1350 (1994).
First, a law may violate the Commerce Clause by
discriminating against interstate commerce, either on
its face or in its effect. Oregon Waste Sys., Inc. v. Dep’t
of Envtl. Quality, 511 U.S. 93, 99, 114 S. Ct. 1345, 1350
(1994); Hunt v. Washington State Apple Advertising
Comm’n, 432 U.S. 333, 350-51, 97 S. Ct. 2434, 2446
(1977).
Wyoming v. Oklahoma, 502 U.S. 437, 455, 112
S. Ct. 789, 800 (1992). Discrimination occurs if a law
prescribes “differential treatment of in-state and outof-state interests that benefits the former and burdens
the latter.” Oregon Waste Sys., 511 U.S. at 99, 114 S. Ct.
at 1350. A law that discriminates against interstate
commerce in its purpose or effect is a virtually per se
rule of invalidity subject to “the strictest scrutiny.” Id.
at 101, 114 S. Ct. at 1351 (quoting Hughes v. Oklahoma, 441 U.S. 322, 337, 99 S. Ct. 1727, 1737 (1979)).
Second, a law that is non-discriminatory, regulates
even-handedly to effectuate a legitimate local purpose,
and has only an incidental effect on interstate commerce, may violate the Commerce Clause if “the burden imposed on such commerce is clearly excessive in
relation to the putative local benefits.” Pike v. Bruce

App. 77
Church, Inc., 397 U.S. 137, 142, 90 S. Ct. 844, 847
(1970). We analyze the Pike balancing test by using “a
less strict scrutiny.” Wyoming v. Oklahoma, 502 U.S.
437, 455 n.12, 112 S. Ct. 789, 800 n.12 (1992).
A. The ordinance does not discriminate
against interstate commerce on its face
by banning all silica-sand mining.
Minnesota Sands argues that the ordinance is a
per se violation of the dormant Commerce Clause because it is facially discriminatory against out-of-state
interests and is a ban on the exportation of industrial
minerals mined in the county. We disagree.
Assuming that the ordinance implicates commerce, it nonetheless does not discriminate against interstate commerce on its face because it does not favor
in-state interests over out-of-state interests. On the
contrary, it even-handedly bans all industrial-mineral
mining, which includes silica-sand mining, within the
county. Indeed, the company challenging the county’s
ban in this litigation is a Minnesota company with a
registered address in Winona County. See Minnesota v.
Clover Leaf Creamery Co., 449 U.S. 456, 473, 101 S. Ct.
715, 728 (1981) (“[T]here is no reason to suspect that
the gainers will be Minnesota firms, or the losers outof-state firms. Indeed, two of the three dairies, the sole
milk retailer, and the sole milk container producer
challenging the statute in this litigation are Minnesota

App. 78
firms.”).1 “The existence of major in-state interests adversely affected by the [ordinance] is a powerful safeguard against legislative abuse.” Id. at 473 n.17, 101
S. Ct. at 728 n.17. We have no reason to believe that
the ordinance benefits in-state interests and burdens
those out-of-state. The across-the-board application of
the ordinance is detrimental to both in-state interests,
such as those of Minnesota Sands, as well as out-ofstate interests, which indicates that the ordinance
does not discriminate on its face.
Minnesota Sands also argues that the ordinance
is facially discriminatory because it singles out the
end-use of the industrial minerals; specifically, silica
sand to be processed and used in fracking. In 2014, the
Minnesota Environmental Quality Board (EQB) set
forth model standards and criteria for local government use in developing local ordinances regarding the
mining, processing, and transporting of silica sand.
MINN. ENVTL. QUALITY BD., Tools to Assist Local Governments in Planning for and Regulating Silica Sand
Projects (2014). The report noted that “silica sand is
highly desirable because it can be processed into a
product called frac sand, which is used in [the] hydraulic fracturing method of producing oil and gas.” Id. at
1

The dissent argues that this quotation is not applicable to
a facial-discrimination analysis because it is taken from the analysis under the Pike-balancing test. But this quotation regarding
the burden imposed on the parties, is applicable to our initial discrimination determination, as the word “discrimination” is defined as “differential treatment of in-state and out-of-state
interests that benefits the former and burdens the latter.” Oregon
Waste Sys., 511 U.S. at 99, 114 S. Ct. at 1350.

App. 79
13 (emphasis added). It is evident that not all silica
sand is frac sand. Rather, mined silica sand becomes
frac sand after it undergoes a specific process of crushing, cleaning, screening, washing, filtering, drying,
sorting, and refining. But the ordinance outlaws all silica-sand mining—not just silica sand to be processed
and used in fracking.
The ordinance amendment defines silica sand as
that which “is commercially valuable for use in the hydraulic fracturing of shale to obtain oil and natural
gas.” WCZO, Ch. 4, § 2. Minnesota Sands argues that
this amounts to facial discrimination against interstate commerce because Minnesota has no oil or natural gas reserves, and any silica sand processed into frac
sand would be transported interstate and used elsewhere. But the ordinance does not discriminate
against interstate commerce on its face by merely stating that silica sand is commercially valuable for use in
fracking. Nor does it mean that silica sand has no other
commercial uses; it simply describes one commercially
valuable use.
This reasoning is consistent with the affidavit of a
registered professional geologist retained by Minnesota Sands as an expert, certifying that silica sand may
be used for fracking operations, as well as in the manufacture of glass, filter media, and as a construction
material or animal bedding. We do note, however, that
the expert’s comment about the use of silica sand as a
construction material does not alter our conclusion
that the ordinance does not discriminate against interstate commerce on its face. The use of silica sand as a

App. 80
construction material in other counties has no bearing
on the plain language of the ordinance itself, which
specifies that silica sand is an industrial mineral and
bans all industrial-mineral mining regardless of its
end use. Additionally, the ordinance’s definition of “construction minerals” specifies that “[t]he term ‘construction minerals’ does not include ‘industrial minerals’ as
defined below” and the definition of industrial minerals states the same relating to construction minerals.
Id.
The ordinance’s differentiation between silica
sand—an industrial mineral—and other types of
sand—construction minerals—is consistent with the
record. Silica sand has a high quartz level, whereas
sand within the definition of construction minerals includes many different rock types. Silica sand that is
sought for industrial purposes is small, consistentlysized, round sand, which, after processing, becomes
frac sand. Sand classified as a construction mineral is
not dependent on the uniformity or silica quartz
makeup of the mineral, and may have mineral and
rock compositions that vary in makeup and size.
Minnesota Sands argues that the ordinance violates the dormant Commerce Clause because the
county permits the Nisbit operation to mine silica sand
that is sold for various purposes, including animal bedding. Before the county amended the ordinance, all
sand mining was a conditional use in Winona County.
WCZO, Ch. 10.4.6 (2011) (CUP required for mining);
Id., Ch. 4.2 (mining includes “the extraction of sand”).
On July 4, 2013, the county granted a CUP to the

App. 81
Nisbits to mine silica sand under this version of the
zoning ordinance in effect prior to its amendment on
November 22, 2016. The previous version of the ordinance, like the amendment at issue, did not distinguish between the end use of the mined product. In
addition, the previous zoning ordinance did not distinguish between silica sand and other types of sand as
the amendment does. One limitation imposed on the
right of a governmental body to enact zoning restrictions is that such restrictions are subject to the
preexisting uses already established within the zoning
district. Hawkins v. Talbot, 248 Minn. 549, 551, 80
N.W.2d 863, 865 (1957). Thus, the preexisting use does
not affect our dormant Commerce Clause analysis
here.
Minnesota Sands contends that the ordinance is
discriminatory because “industrial mineral operations” includes “hauling or transport, including, but not
limited to, the loading, unloading, transfer, hauling,
moving and transporting of industrial minerals extracted from a mine located in Winona County.” WCZO,
Ch. 4, § 2. But this provision of the amendment’s definition of “industrial mineral operations” is rendered
superfluous by the corresponding provision of the “industrial mineral operations” definition that prohibits
all silica-sand mining. We interpret laws so that, when
possible, their provisions will not be deemed superfluous. ILHC of Eagan, LLC v. County of Dakota, 693
N.W.2d 412, 419 (Minn. 2005). However, the transportation provision at issue cannot reasonably be interpreted as anything other than superfluous, given the

App. 82
ban on all silica-sand mining, resulting in no silica
sand in need of transport to which the provision may
apply.2
For these reasons, the ordinance’s ban on silicasand mining does not discriminate against interstate
commerce on its face. It is even-handed in its application, burdens both in-state and out-of-state interests,
and does not violate the dormant Commerce Clause.3
B. Minnesota Sands does not have standing
to challenge, and we decline to address,
the constitutionality of the ordinance’s
use of the word “local.”
Minnesota Sands also argues that the use of the
word “local” in the ordinance’s definition of “construction
minerals” discriminates against interstate commerce.
While the parties do not raise the issue of justiciability
on appeal, “the existence of a justiciable controversy is
essential to our exercise of jurisdiction, so we can raise
2

The transportation provision of the zoning-ordinance
amendment does not apply to the Nisbit operation either, which
is instead governed by the numerous transportation provisions
detailed in its CUP.
3
Minnesota Sands’ argument relates only to facial discrimination under the dormant Commerce Clause and does not offer
argument regarding discriminatory effects. See generally Hunt,
432 U.S. at 350-51, 97 S. Ct. at 2446 (analyzing statute’s discriminatory impact on interstate commerce “[d]espite the statute’s facial neutrality”). Thus, we need not and do not address this
argument because those issues not briefed on appeal are forfeited
and not properly before this court. State Dep’t of Labor & Industry
v. Wintz Parcel Drivers, Inc., 558 N.W.2d 480, 480 (Minn. 1997).

App. 83
the issue on our own.” In re Guardianship of Tschumy,
853 N.W.2d 728, 733-34 (Minn. 2014). A declaratory
judgment action must present an actual, justiciable
controversy. Onvoy, Inc. v. ALLETE, Inc., 736 N.W.2d
611, 617 (Minn. 2007). “To establish a justiciable controversy in a declaratory judgment action challenging
the constitutionality of a law, a plaintiff must show a
direct and imminent injury which results from the alleged unconstitutional provision.” McCaughtry v. City
of Red Wing, 808 N.W.2d 331, 337 (Minn. 2011) (quotation omitted); see Lee v. Delmont, 228 Minn. 101, 11011, 36 N.W.2d 530, 537 (1949) (litigant challenging constitutionality of a statute must show that the statute
“is, or is about to be, applied to his disadvantage”).
Minnesota Sands itself contends that it has no interest in mining construction minerals. Striking down
this provision of the ordinance will not redress its asserted injuries because industrial-mineral mining will
continue to be unlawful and the zoning ordinance
amendment will continue to prohibit Minnesota Sands
from mining industrial minerals. See generally Back v.
State, 902 N.W.2d 23, 31 (Minn. 2017) (severing of as
little as possible of an unconstitutional law).
Minnesota Sands does not have standing, which
bars us from addressing this issue for lack of jurisdiction. See Seiz v. Citizens Pure Ice Co., 207 Minn. 277,
281, 290 N.W. 802, 804 (1940). And we do not address
constitutional claims unless required. See Brayton v.
Pawlenty, 781 N.W.2d 357, 363 (Minn. 2010). To do so
would be to issue an advisory opinion. North Carolina
v. Rice, 404 U.S. 244, 246, 92 S. Ct. 402, 404 (1971)

App. 84
(advisory opinion calls the court “to decide questions
that cannot affect the rights of litigants in the case before them”). We therefore decline to address this argument.
C. We also decline to address whether the
ordinance excessively burdens interstate
commerce because Minnesota Sands did
not make this argument in its briefing.
An ordinance that is even-handed in its application may nonetheless violate the dormant Commerce
Clause by excessively burdening interstate commerce.
See generally Pike, 397 U.S. at 142, 90 S. Ct. at 847.
Although Minnesota Sands raised this issue during
oral argument, it did not brief it. We decline to address
this argument, which, absent briefing on appeal, is forfeited and not properly before this court. Wintz, 558
N.W.2d at 480.
II.

Regulatory Taking

Minnesota Sands also argues that it is entitled to
compensation because the zoning ordinance amendment is a regulatory taking of its property. We are not
persuaded.
The Minnesota Constitution provides that “[p]rivate property shall not be taken, destroyed or damaged
for public use without just compensation.” Minn.
Const. art. I, § 13. The language in the Takings Clause
of the Minnesota Constitution is similar to the language of the United States Constitution. Wensmann,

App. 85
734 N.W.2d at 631. Appellate courts may rely on cases
interpreting the Takings Clause of the United States
Constitution in interpreting this clause of the Minnesota Constitution. Id. at 631-32. However, property interests themselves are not created by the United
States Constitution and instead are “created and their
dimensions are defined by existing rules or understandings that stem from an independent source such
as state law.” Ruckelshaus v. Monsanto Co., 467 U.S.
986, 1001, 104 S. Ct. 2862, 2872 (1984); see also Hay v.
City of Andover, 436 N.W.2d 800, 804 (Minn. 1989).
Whether a governmental entity’s action constitutes a
taking is a question of law that we review de novo.
Wensmann, 734 N.W.2d at 631.
Prior to analyzing whether the zoning ordinance
amendment constituted a regulatory taking of the
mineral interest in the parcels of real property, we
must determine whether Minnesota Sands has a
compensable property interest for which it is owed
just compensation. Hall v. State, 908 N.W.2d 345, 352
(Minn. 2018) (citing Ruckelshaus, 467 U.S. at 1000, 104
S. Ct. at 2871-72 (analyzing compensable property
interest issue as applied to regulatory scheme));
Metropolitan Airports Comm’n v. Noble, 763 N.W.2d
639, 644 (Minn. 2009) (aggrieved party must have a
compensable interest in property to assert valid claim
for taking of leasehold interest). Thus, we must analyze whether Minnesota Sands possesses the predicate
property interest that must underlie any takings
claim; specifically, whether Minnesota Sands’ leases

App. 86
created a compensable property interest to which Minnesota Sands is owed just compensation.
Lease rights are compensable property rights to
which the Takings Clause applies. See Lynch v. United
States, 292 U.S. 571, 579, 54 S. Ct. 840, 843 (1934)
(“The Fifth Amendment commands that property not
be taken without making just compensation. Valid
contracts are property, whether the obligor be a private
individual, a municipality, a state, or the United
States.”). Of the six leases that Minnesota Sands entered into, four were specifically conditioned upon
Minnesota Sands obtaining any required zoning or
governmental approvals on or before the commencement date of each agreement, in November 2011. Minnesota Sands never applied for a CUP prior to the
county’s amendment of the zoning ordinance.
Minnesota Sands failed to fulfill a condition precedent before its leasehold interest accrued. See Carl
Bolander & Sons Co. v. United Stockyards Corp., 298
Minn. 428, 433, 215 N.W.2d 473, 476 (1974) (condition
precedent is an act that must be performed or an event
that must occur before a contractual right accrues or
contractual duty arises). And Minnesota Sands explicably agreed in advance to such a term. See Metropolitan Airports Comm’n v. Noble, 763 N.W.2d 639, 644
(Minn. 2009) (interest in real property created by lease
may be altered by lease’s terms). Minnesota Sands is
not entitled to just compensation because the mineral
interest in the real property for which it seeks compensation, created by the leases, required the acquisition

App. 87
of a CUP prior to the accrual of a compensable property
interest.
Minnesota Sands entered into its remaining
leases in November 2011 and amended each lease in
November 2015. The county amended the zoning ordinance one year later, in November 2016. Prior to its
amendment, silica-sand mining was a conditional use.
Minnesota Sands lost its leasehold interests because
it failed to apply for a CUP in the five-year period between the lease executions and the amendment of the
zoning ordinance.4 Regulation of private property
rights does not take private property when an individual’s reasonable, investment-backed expectations can
continue to be realized as long as he or she complies
with the regulatory restrictions imposed. U.S. v. Locke,
471 U.S. 84, 107, 105 S. Ct. 1785, 1799 (1985); see Texaco, Inc. v. Short, 454 U.S. 516, 530, 102 S. Ct. 781, 792
(1982) (no compensation due to “the owner for the consequences of his own neglect”); Hawkins v. Barney’s
Lessee, 30 U.S. 457, 465 (1831) (“What right has any
one to complain, when a reasonable time has been
given to him, if he has not been vigilant in asserting
his rights?”). Minnesota Sands has no compensable
property interest, which ends our analysis.

4

And since July 1, 2013, entities seeking to mine silica sand
in Minnesota must complete an environmental-impact statement
before submitting a CUP application if the project seeks to excavate 20 or more acres of land, as Minnesota Sands sought to. See
Minn. Stat. § 116C.991, subd. (a)(1) (2016). Minnesota Sands also
failed to meet this requirement.

App. 88
DECISION
The county’s zoning ordinance amendment does
not violate the dormant Commerce Clause because it
even-handedly bans both in-state and out-of-state interests from mining all silica sand in Winona County.
In addition, Minnesota Sands does not have a compensable property interest for which it is owed just compensation. We affirm the district court’s grant of
summary judgment to respondent Winona County because there are no genuine issues of material fact and
the district court did not err in its application of the
law.
Affirmed.

JOHNSON, Judge (concurring in part, dissenting in
part)
The first issue in this appeal is whether a ban on
the mining of silica sand for sale to consumers in other
states may be imposed by a state or a political subdivision of a state or, on the other hand, only by Congress.
I respectfully disagree with the majority opinion insofar as it concludes that the county is entitled to summary judgment on Minnesota Sands’s claim that the
November 22, 2016, amendments to the county’s zoning ordinance violate the Commerce Clause of the
United States Constitution.
The second issue in this appeal is whether, assuming the county’s regulation of silica-sand mining is

App. 89
valid, the county must compensate Minnesota Sands
for the elimination of or diminution in the value of its
property. I respectfully disagree with the majority
opinion insofar as it concludes that the county is entitled to summary judgment on Minnesota Sands’s claim
that the county’s enforcement of its zoning ordinance
results in a partial regulatory taking. But I agree with
the majority insofar as it concludes that Minnesota
Sands cannot prove a total regulatory taking, although
I reach that conclusion for different reasons.
Therefore, I concur in part and dissent in part.
I.
The Commerce Clause of the United States Constitution provides, “The Congress shall have Power . . .
To regulate Commerce . . . among the several States. . . .”
U.S. Const. art. I, § 8, cl. 3. The Commerce Clause confers on Congress “plenary authority over interstate
commerce.” Oregon Waste Sys., Inc. v. Department of
Envtl. Quality, 511 U.S. 93, 98, 114 S. Ct. 1345, 1349
(1994). In light of Congress’s plenary authority over interstate commerce, the Commerce Clause has been interpreted “to have a ‘negative’ aspect” that limits the
states’ authority to regulate interstate commerce. Id.
Those limits are defined by “two primary principles”:
“First, state regulations may not discriminate against
interstate commerce; and second, States may not impose undue burdens on interstate commerce.” South

App. 90
Dakota v. Wayfair, Inc., 138 S. Ct. 2080, 2090-91
(2018).5
Accordingly, “the first step in analyzing any law
subject to judicial scrutiny under the negative Commerce Clause is to determine whether it [either] ‘regulates evenhandedly with only “incidental” effects on
interstate commerce, or discriminates against interstate commerce.’ ” Oregon Waste Sys., 511 U.S. at 99,
114 S. Ct. at 1350 (quoting Hughes v. Oklahoma, 441
U.S. 322, 336, 99 S. Ct. 1727, 1736 (1979)); see also
Swanson v. Integrity Advance, LLC, 870 N.W.2d 90,
93-94 (Minn. 2015). A state law is “discriminatory” for
purposes of the Commerce Clause if it provides for
“differential treatment of in-state and out-of-state
5

The majority opinion assumes without deciding that the
county’s zoning ordinance “implicates” interstate commerce. See
supra at 779. The ordinance plainly implicates interstate commerce because the threshold for such a determination is quite low.
See Gonzales v. Raich, 545 U.S. 1, 17-22, 125 S. Ct. 2195, 2205-09
(2005) (holding that, under Commerce Clause, Congress may prohibit local cultivation and use of marijuana for medicinal purposes because such activity has substantial effect on interstate
commerce); Wickard v. Filburn, 317 U.S. 111, 127-28, 63 S. Ct.
82, 90 (1942) (holding that, under Commerce Clause, Congress
may regulate production of wheat grown and harvested solely for
personal consumption because failure to regulate activity would
undercut regulation of interstate commerce). Furthermore, the
United States Supreme Court has held that Congress’s authority
under the Commerce Clause includes the power to regulate mining, even though land-use regulation typically is within the inherent police power of the states and their political subdivisions.
Hodel v. Virginia Surface Mining & Reclamation Ass’n, Inc., 452
U.S. 264, 275-83, 101 S. Ct. 2352, 2359-63 (1981) (reviewing Surface Mining Control & Reclamation Act of 1977, 30 U.S.C. § 1201
et seq. (1976 ed., Supp. III)).

App. 91
economic interests that benefits the former and burdens the latter.” Oregon Waste Sys., 511 U.S. at 99, 114
S. Ct. at 1350; see also Integrity Advance, 870 N.W.2d
at 93-94; Chapman v. Commissioner of Revenue, 651
N.W.2d 825, 834 (Minn. 2002). If a state law is discriminatory, “it is virtually per se invalid.” Oregon Waste
Sys., 511 U.S. at 99, 114 S. Ct. at 1350; see also Chapman, 651 N.W.2d at 834. A discriminatory state law
“must be invalidated unless [the state] can ‘show that
it advances a legitimate local purpose that cannot be
adequately served by reasonable nondiscriminatory alternatives.’ ” Oregon Waste Sys., 511 U.S. at 100-01, 114
S. Ct. at 1351 (alteration omitted) (quoting New Energy Co. v. Limbach, 486 U.S. 269, 278, 108 S. Ct. 1803,
1810 (1988)); see also Chapman, 651 N.W.2d at 834.
A.
Before applying these principles to the facts of this
case, it is important to identify the significant factual
issues.
The county’s arguments generally are based on
the premise that silica sand (and only silica sand) is
used for “industrial” purposes such as hydraulic fracturing and that ordinary sand (and only ordinary
sand) is used for “local construction purposes.” This
premise corresponds to the county’s zoning ordinance,
which defines “industrial minerals” and “construction
minerals” accordingly and imposes different consequences based on the distinction between the two
types.

App. 92
The appellate record confirms that silica sand
(and not ordinary sand) may be used in hydraulic fracturing. But the record does not confirm that only ordinary sand is used for “local construction purposes.”
Rather, the record indicates that, both before and after
the 2016 amendments to the zoning ordinance, silica
sand has been and continues to be used for both “local
construction purposes” and “industrial” purposes.
For example, a report prepared by the state department of natural resources in 2014 describes the
uses of silica sand:
Silica sand has been mined in the Upper
Midwest for over a century. Uses for this resource include a variety of products and applications like glass-making, abrasives, bedding
for livestock, golf course sand traps, and frac
sand. Over the past decade, a sharp increase
in demand for silica sand corresponded with a
rapid expansion of shale oil and gas development. . . .
Silica sand is found in the southeastern
portion of the state. Five mines are currently
known to extract silica sand for industrial applications. An unknown number of silica sand
mines produce silica sand for construction
and agricultural uses.
(Emphasis added.)
In addition, evidence was presented to the county
planning commission that “there is no geological difference between the industrial mineral ‘silica sand’ and

App. 93
construction mineral ‘sand’ ” and that “the only distinction in the Proposed Ordinance between ‘construction
minerals’ and ‘industrial minerals’ is how they are
used.” There also is evidence that the “mining, processing, storage and transportation operations” related
to the two categories of minerals in the draft ordinance
“are essentially the same,” with the differences limited
to “the final stages of production when silica sand is
washed and sorted.” This evidence is consistent with
an affidavit of a registered professional geologist, who
stated that silica sand is used both “as a proppant in
hydraulic fracturing” and “in the manufacture of glass,
filter media, or a construction or bedding material” and
that the process of mining silica sand for its various
purposes “does not differ in any material way.”
Furthermore, the county’s own zoning administrator executed an affidavit in which he stated that “ ‘sand
and gravel’ considered [by the zoning ordinance as] a
construction mineral may include ‘silica sand,’ as silica
sand is found throughout the County and used for construction purposes and animal bedding.” Moreover,
there is evidence in the record that the Nisbit mine
(the only Winona County mine that received a conditional-use permit before the 2016 amendments to the
county’s zoning ordinance) produces silica sand that
meets the specifications for hydraulic fracturing but is
sold for use as animal bedding.
In analyzing the effect of the county’s zoning ordinance on interstate commerce, this court should not
confine its review to the language of the ordinance.

App. 94
Rather, we should consider the realities of the marketplace. In reality, Winona County silica sand is used
both for “local construction purposes” and for “industrial” purposes, such as hydraulic fracturing, even
though the county’s zoning ordinance deems silica
sand to be an “industrial mineral” and defines “industrial minerals” to be mutually exclusive with “construction minerals.” Consequently, the county’s zoning
ordinance effectively allows the mining of silica sand
for some uses, which are common in the Winona
County area, but prohibits the mining of silica sand for
other uses, which occur solely outside the state of
Minnesota.
In resolving the issues raised by the parties’ arguments, we must be mindful of the procedural posture
of the case. This is not a case in which the district court
conducted a trial, resolved factual disputes arising
from conflicting evidence, and made findings of fact.
See Minn. R. Civ. P. 52.01. Rather, the district court decided the case on cross-motions for summary judgment. A district court may not grant a motion for
summary judgment unless “there is no genuine issue
as to any material fact.” Minn. R. Civ. P. 56.03 (2017).
A district court must view the evidence in the light
most favorable to the non-moving party. Commerce
Bank v. West Bend Mut. Ins. Co., 870 N.W.2d 770, 773
(Minn. 2015). In applying a de novo standard of review,
this court also must view the evidence in the light most
favorable to the non-moving party. See id. Accordingly,
the district court’s decision may be affirmed only if
“there is no genuine issue as to any material fact” and

App. 95
the county “is entitled to a judgment as a matter of
law.” See Minn. R. Civ. P. 56.03 (2017).
B.
As stated above, “the first step in analyzing any
law subject to judicial scrutiny under the negative
Commerce Clause is to determine whether it ‘regulates
evenhandedly with only “incidental” effects on interstate commerce, or discriminates against interstate
commerce.’ ” Oregon Waste Sys., 511 U.S. at 99, 114
S. Ct. at 1350 (quoting Hughes, 441 U.S. at 336, 99
S. Ct. at 1736).
1.
Minnesota Sands contends that the county’s zoning ordinance is discriminatory. In this context, a state
law is “discriminatory” if it provides for “differential
treatment of in-state and out-of-state economic interests that benefits the former and burdens the latter.”
Id. For example, a state law is discriminatory if it prohibits or restricts the transportation of the state’s natural resources to consumers in other states. In West v.
Kansas Natural Gas Company, 221 U.S. 229, 31 S. Ct.
564 (1911), an Oklahoma statute prohibited the construction of pipelines for the purpose of transporting
natural gas from that state to other states. Id. at 239
n.1, 31 S. Ct. at 565 n.†. The Supreme Court concluded
that the statute violated the Commerce Clause, stating
that, “in matters of . . . interstate commerce there are

App. 96
no state lines.” Id. at 255, 31 S. Ct. at 571 (quotation
omitted).
A state law is discriminatory on its face if it expressly provides for different treatment based on
whether commerce is interstate or intrastate. For example, in Oregon Waste Systems, an Oregon statute
charged $0.85 per ton for the disposal of solid waste
and a “surcharge” of $2.25 per ton for the disposal of
“solid waste generated out-of-state.” 511 U.S. at 96, 114
S. Ct. at 1348 (emphasis added). The Supreme Court
reasoned that it was “obvious here that Oregon’s $2.25
per ton surcharge is discriminatory on its face.” Id. at
99, 114 S. Ct. at 1350. Similarly, in Hughes, an Oklahoma statute made it unlawful for a person to
“transport or ship minnows for sale outside the state”
in which they were captured. 441 U.S. at 323, 99 S. Ct.
at 1730 (emphasis added). The Supreme Court reasoned that the statute “on its face discriminates
against interstate commerce” because it “forbids the
transportation of natural minnows out of the State for
purposes of sale, and thus ‘overtly blocks the flow of
interstate commerce at [the] State’s borders.’ ” Id. at
336-37, 99 S. Ct. at 1736-37 (alteration in original)
(quoting Philadelphia v. New Jersey, 437 U.S. 617, 624,
98 S. Ct. 2531, 2535 (1978)).
A state law may be facially discriminatory for
purposes of the Commerce Clause, even if it does not
expressly distinguish between interstate commerce
and intrastate commerce, if the circumstances make
clear that the law discriminates against interstate
commerce. For example, in Bacchus Imports, Ltd. v.

App. 97
Dias, 468 U.S. 263, 104 S. Ct. 3049 (1984), a Hawaii
statute imposed a 20-percent excise tax on the sale of
wholesale liquor but exempted two types of liquor that
were unquestionably local in character (okolehao, “a
brandy distilled from the root of . . . an indigenous
shrub,” and fruit wine made from pineapples). Id. at
265, 104 S. Ct. at 3052. The Supreme Court stated that
the exemption “seems clearly to discriminate on its
face against interstate commerce by bestowing a commercial advantage on okolehao and pineapple wine.”
Id. at 268, 104 S. Ct. at 3053.
Furthermore, a state law may discriminate against
interstate commerce “either on its face or in practical
effect.” Hughes, 441 U.S. at 336, 99 S. Ct. at 1736 (emphasis added). A state law may discriminate “in practical effect” even if it is facially neutral with respect
to whether commerce is interstate or intrastate. For
example, in Hunt v. Washington State Apple Advertising Commission, 432 U.S. 333, 97 S. Ct. 2434 (1977),
North Carolina law provided that apples sold within
the state in closed containers must display a grade or
standard approved by the federal government and
must not display any other grade or standard, including a grade or standard approved by a state. Id. at 337
n.2, 339, 97 S. Ct. at 2438 n.2, 2439. The stated purpose
of North Carolina law was to avoid consumer confusion
by ensuring “a single uniform standard.” Id. at 349, 97
S. Ct. at 2444. The state contended that its laws were
not discriminatory because they applied “in an evenhanded manner . . . to all apples sold in closed containers in the State without regard to their point of origin.”

App. 98
Id. But the record showed that apples sold in North
Carolina were grown in 13 other states and that 7 of
those 13 states “had their own grading systems,” which
differed in their standards and descriptions. Id. The
Supreme Court reasoned that North Carolina law had
“the practical effect of . . . discriminating against” apple growers from the state of Washington by increasing
their costs of doing business in North Carolina “while
leaving those of their North Carolina counterparts unaffected.” Id. at 351, 97 S. Ct. at 2445 (emphasis
added).
In this case, the ordinance and the factual record,
in combination, make clear that the county’s zoning
ordinance is both facially discriminatory and discriminatory in practical effect. The ordinance allows the
mining of sand that will be “used for local construction
purposes” but prohibits the mining of sand that will be
used for other purposes, such as hydraulic fracturing.
Winona County, Minn., Zoning Ordinance (WCZO)
§§ 4.2, 9.10.2, 10.11.1.a (2016) (emphasis added). The
record reveals that silica sand has been and continues
to be mined and sold to consumers for purposes that
are deemed by the ordinance to be “local construction
purposes.” The record also reveals that hydraulic fracturing is utilized in other states (such as North Dakota
and Texas) but is not utilized in Minnesota and cannot
be utilized in Minnesota because Minnesota does not
have any significant reserves of oil or natural gas. The
ordinance effectively allows silica sand to be mined
and sold to local consumers but does not allow it to be
mined and sold to consumers in other states. Thus, the

App. 99
ordinance suppresses interstate commerce, to the detriment of (among others) consumers of silica sand in
other states, but the ordinance preserves local commerce, to the benefit of local consumers of silica sand,
who are insulated from the effects of unrestricted trade
in silica sand. For these reasons, the ordinance is discriminatory on its face because it favors “local” commerce over interstate commerce. See Oregon Waste
Sys., 511 U.S. at 99, 114 S. Ct. at 1350; Hughes, 441 U.S.
at 336-37, 99 S. Ct. at 1736-37. Even if the ordinance
did not use the word “local,” it still would be facially
discriminatory because, given the obvious fact that hydraulic fracturing is not conducted in Minnesota, the
ordinance favors intrastate commerce over interstate
commerce. See Bacchus Imports, 468 U.S. at 268, 104
S. Ct. at 3053. Furthermore, even if the ordinance is
not facially discriminatory, it has “the practical effect
of . . . discriminating against” consumers of silica sand
in other states “while leaving [their intrastate] counterparts unaffected.” See Washington State Apple Advertising Comm’n, 432 U.S. at 351, 97 S. Ct. at 2445.6

6

The majority opinion does not consider whether the
county’s zoning ordinance is discriminatory in practical effect. See
supra at 782 n.3. The court should do so because Minnesota Sands
does not limit its argument to the issue of facial discrimination.
At oral argument, Minnesota Sands clearly argued that the
county’s zoning ordinance is both facially discriminatory and discriminatory in practical effect.

App. 100
2.
The county argues that the ordinance is not facially discriminatory because the term “local” may be
interpreted to include construction projects in Wisconsin that are near Winona County. For this purpose, the
county relies on the affidavit of its zoning administrator, who stated, “If I were asked to enforce the Zoning
Ordinance with respect to sand being used for a construction project across the river in Wisconsin, the fact
that sand was used in Wisconsin would not necessarily
make it a non-local use.” This argument fails for at
least four reasons. First, the county’s argument is inconsistent with the common definition of the word local, which means “[o]f or relating to a city, town, or
district rather than a larger area.” The American Heritage Dictionary 1029 (5th ed. 2011). Second, there is
no evidence in the record that Winona County sand actually is sold in Wisconsin. The zoning administrator
did not say so; he considered it to be a hypothetical. It
appears unlikely that sand actually is sold in Wisconsin because the record indicates that operating sand
mines are far more numerous in the Wisconsin counties that are immediately across the Mississippi River.
Third, the zoning administrator did not commit to the
interpretation on which the county relies in its brief.
He merely stated that the out-of-state location of such
use “would not necessarily make it a non-local use.”
Fourth, and most importantly, any sale of Winona
County sand in Wisconsin for “local construction purposes” likely would be in relatively small quantities
and would not alter the fact that the ordinance

App. 101
disrupts a substantial amount of interstate commerce
in silica sand while preserving commerce in silica sand
within Winona County. In any event, even if the ordinance is not facially discriminatory because of the
word “local,” it is discriminatory “in practical effect.”
See Washington State Apple Advertising Comm’n, 432
U.S. at 351, 97 S. Ct. at 2445.
The majority opinion reasons that Minnesota
Sands does not have standing to argue that the ordinance is facially discriminatory based on the ordinance’s use of the word “local.” See supra at 782-83.
“Standing is a legal requirement that a party have a
sufficient stake in a justiciable controversy to seek relief from a court.” Enright v. Lehmann, 735 N.W.2d 326,
329 (Minn. 2007). Standing exists if the person seeking
relief “has suffered some ‘injury-in-fact.’ ” Id. Minnesota Sands plainly has suffered a financial injury by
being prohibited from mining silica sand and selling it
in interstate commerce. But again, the use of the word
“local” is not the sole reason why the county’s zoning
ordinance is discriminatory; it also is discriminatory
“in practical effect.” See Washington State Apple Advertising Comm’n, 432 U.S. at 351, 97 S. Ct. at 2445.
The majority opinion also reasons that the ordinance is not discriminatory simply because Minnesota
Sands is a Minnesota-based company. See supra at 780.
Such reasoning would nullify the dormant Commerce
Clause doctrine in practically every case because a
state or local law that discriminates against interstate
commerce inevitably affects at least one resident of
the state or locale from which the law originates. In

App. 102
addition, the majority’s reasoning is contrary to Oregon Waste Systems, in which an Oregon-based company successfully challenged an Oregon statute that
discriminated against interstate commerce. See 511
U.S. at 95-98, 114 S. Ct. at 1348-49. Furthermore, the
authority cited by the majority opinion does not support its reasoning. In Minnesota v. Clover Leaf Creamery Co., 449 U.S. 456, 101 S. Ct. 715 (1981), the
Supreme Court first determined that the statute at issue was not discriminatory, id. at 471-72, 101 S. Ct. at
728, and then considered the alternative ground for a
Commerce Clause violation, namely, “whether the incidental burden imposed on interstate commerce by the
Minnesota Act is ‘clearly excessive in relation to the
putative local benefits,’ ” id. at 472, 101 S. Ct. at 728
(quoting Pike v. Bruce Church, Inc., 397 U.S. 137, 142,
90 S. Ct. 844, 847 (1970)). In discussing the latter issue, the Supreme Court balanced the various advantages and disadvantages that in-state businesses
and out-of-state businesses likely would experience.
Id. at 472-74, 101 S. Ct. at 728-29. The majority opinion relies on the Supreme Court’s discussion of incidental burdens, not its discussion of discrimination.
Because Minnesota Sands does not argue that the
county’s zoning ordinance imposes incidental burdens
that exceed its local benefits, the Pike test does not apply, and the cited portion of Clover Leaf Creamery is
not relevant.

App. 103
C.
As stated above, if a state law is discriminatory, “it
is virtually per se invalid.” Oregon Waste Sys., 511 U.S.
at 99, 114 S. Ct. at 1350. A discriminatory state law
“must be invalidated unless [the state] can ‘show that
it advances a legitimate local purpose that cannot be
adequately served by reasonable nondiscriminatory
alternatives.’ ” Id. at 100-01, 114 S. Ct. at 1351 (alteration omitted) (quoting New Energy Co., 486 U.S. at 278,
108 S. Ct. at 1810). A state’s “justifications for discriminatory restrictions on commerce [must] pass the
‘strictest scrutiny.’ ” Id. at 101, 114 S. Ct. at 1351 (quoting Hughes, 441 U.S. at 337, 99 S. Ct. at 1737).
In this case, the county’s zoning ordinance is motivated by concerns about public health, local infrastructure, and the environment. On appeal, Minnesota
Sands does not challenge the legitimacy of the county’s
purposes. Rather, Minnesota Sands contends that the
county could have achieved its purposes with “reasonable regulations directly targeted at” the county’s concerns. Accordingly, the question is whether the county
has shown that its “legitimate local purpose . . . cannot
be adequately served by reasonable nondiscriminatory
alternatives.” See id. at 100-01, 114 S. Ct. at 1351 (quotation omitted).
The county does not attempt to argue that its purposes cannot be adequately served by reasonable
non-discriminatory alternatives. The county would
be hard-pressed to make such an argument because
alternatives are readily apparent in the record. For

App. 104
example, the March 2014 report of the state environmental quality board contains an extensive list of
recommendations, standards, and criteria for the regulation of silica-sand mining with respect to air quality, water quality, transportation, reclamation, and
numerous other issues.
The record also contains a March 2016 memorandum from the county attorney to the county board, the
county planning commission, and others, in which the
county attorney concluded that “Winona County has
the authority and ability to regulate the size of sandmining operations” and that “the county board not only
has the ability to deny conditional-use permits that do
not meet the criteria for issuance, but also has the ability to impose conditions on such permits that address
the issues a particular proposal raises.”
The record also contains an October 2016 memorandum from the county attorney to the county board
in which the county attorney provided the board with
four options. The second option would have limited the
number of mines and the acreage of each mine, which
was the recommendation of the county’s planning
commission. The third option was a “hybrid” of the
planning commission’s recommendation and certain
recommendations of the county attorney. The fourth
option was to “take no action” and to continue to rely
on conditional-use permits. The record provides details
concerning the fourth option: the conditional-use permit that was issued for the Nisbit mine includes numerous provisions to reduce and limit the effects of
sand mining. The permit, among other things, requires

App. 105
an erosion-control plan, limits the hours of operation,
requires setbacks from residences and wells, requires
air-quality and water-quality monitoring, requires a
fugitive-dust plan, prohibits stockpiles higher than
24 feet, prohibits any effect on wetlands, restricts noise
and lighting levels, requires a road-use agreement that
imposes responsibility on the mine for maintenance
and replacement costs, limits truck traffic to a certain
number of trips per day, requires a “systematic approach to land reclamation,” and requires a performance bond of 110 percent of the estimated costs that
might be borne by the mine.
The United States Supreme Court considered an
analogous situation in Chemical Waste Management,
Inc. v. Hunt, 504 U.S. 334, 112 S. Ct. 2009 (1992), in
which a discriminatory Alabama statute imposed a fee
on all hazardous waste disposed of in the state and an
“additional fee” on hazardous waste and substances
that were “generated outside of Alabama.” Id. at 33839, 112 S. Ct. at 2012 (quotation omitted). In determining whether the state’s purposes could be adequately
served by reasonable non-discriminatory alternatives,
the Supreme Court reasoned as follows:
Ultimately, the State’s concern focuses on
the volume of the waste entering the [hazardous-waste] facility. Less discriminatory alternatives, however, are available to alleviate
this concern, not the least of which are a generally applicable per-ton additional fee on all
hazardous waste disposed of within Alabama,
or a per-mile tax on all vehicles transporting

App. 106
hazardous waste across Alabama roads, or an
evenhanded cap on the total tonnage landfilled at [the facility]. To the extent Alabama’s
concern touches environmental conservation
and the health and safety of its citizens, such
concern does not vary with the point of origin
of the waste, and it remains within the State’s
power to monitor and regulate more closely
the transportation and disposal of all hazardous waste within its borders. Even with the
possible future financial and environmental
risks to be borne by Alabama, such risks likewise do not vary with the waste’s State of
origin in a way allowing foreign, but not local,
waste to be burdened. In sum, we find the additional fee to be an obvious effort to saddle
those outside the State with most of the burden of slowing the flow of waste into the . . .
facility. That legislative effort is clearly impermissible under the Commerce Clause of the
Constitution.
Id. at 344-46, 112 S. Ct. at 2015-16 (quotations and citations omitted). Just as Alabama’s concern for “environmental conservation and the health and safety of
its citizens” did “not vary with the point of origin of the
waste,” Winona County’s concerns also do not vary
with the destination of the silica sand that is mined
within the county. See id.; see also Hughes, 441 U.S. at
337-38, 99 S. Ct. at 1737 (discussing availability of
nondiscriminatory alternatives). Given that a state’s
justifications for a discriminatory restriction on interstate commerce are subject to “the strictest scrutiny,”
Oregon Waste Sys., 511 U.S. at 101, 114 S. Ct. at 1351

App. 107
(quotation omitted), Winona County has not demonstrated that it does not have reasonable alternatives
that would adequately serve its purposes of protecting
public health and the environment.
Therefore, I would conclude that the district court
erred by granting the county’s motion for summary
judgment on Minnesota Sands’s claim that the
county’s zoning ordinance violates the dormant Commerce Clause.
II.
The Takings Clause of the Fifth Amendment to the
United States Constitution provides that private property shall not “be taken for public use, without just
compensation.” U.S. Const. amend. V. The Takings
Clause requires just compensation if a state or political
subdivision regulates the use of real property to such
an extent that the regulation effectively is a taking.
See generally Murr v. Wisconsin, 137 S. Ct. 1933 (2017);
Keystone Bituminous Coal Ass’n v. DeBenedictis, 480
U.S. 470, 107 S. Ct. 1232 (1987); Pennsylvania Coal Co.
v. Mahon, 260 U.S. 393, 43 S. Ct. 158 (1922).
The United States Supreme Court has recognized
two types of regulatory takings. First, a total (or categorical) regulatory taking may occur if a land-use
regulation “denies all economically beneficial or productive use of [the] land” and thereby results in the
“complete elimination of value” to the property. Lucas
v. South Carolina Coastal Council, 505 U.S. 1003, 1015,
1019 n.8, 112 S. Ct. 2886, 2893, 2895 n.8 (1992). If a

App. 108
total taking has occurred, just compensation is owed to
the property owner “without case-specific inquiry into
the public interest advanced in support of the restraint.” Id. at 1015, 112 S. Ct. at 2893; see also Murr,
137 S. Ct. at 1942-43.
Second, a partial regulatory taking may occur if a
land-use regulation “goes too far.” Mahon, 260 U.S. at
415, 43 S. Ct. at 160. The Supreme Court has not
adopted a “set formula” to determine when a regulatory action has gone “too far.” Wensmann Realty, Inc. v.
City of Eagan, 734 N.W.2d 623, 632-34 (Minn. 2007). A
land-use regulation may be a partial regulatory taking
if it “denies an owner economically viable use of his
land.” Keystone Bituminous Coal Ass’n, 480 U.S. at 485,
107 S. Ct. at 1241-42 (quotation omitted) (reviewing
regulation of underground coal mining); see also
United States v. Central Eureka Mining Co., 357 U.S.
155, 168, 78 S. Ct. 1097, 1104 (1958) (reviewing regulation of gold mining); Goldblatt v. Town of Hempstead,
369 U.S. 590, 593-94, 82 S. Ct. 987, 989-90 (1962) (reviewing regulation of sand and gravel mining). Courts
must engage in “essentially ad hoc, factual inquires” to
determine “whether a particular restriction will be
rendered invalid” as a regulatory taking. Penn Central
Transp. Co. v. New York, 438 U.S. 104, 124, 98 S. Ct.
2646, 2659 (1978). The analysis “depends largely
upon the particular circumstances in that case,” id.
(quotation and alteration omitted), and is a “highly
fact-specific” examination, Wensmann Realty, 734
N.W.2d at 632. Whether a partial taking has occurred
depends on three factors: (1) “[t]he economic impact of

App. 109
the regulation on the claimant,” (2) “the extent to
which the regulation has interfered with distinct investment-backed expectations,” and (3) the “character
of the governmental action.” Penn Central, 438 U.S. at
124, 98 S. Ct. at 2659.
A partial regulatory taking also may be established under the Minnesota Constitution, which contains a similar but somewhat broader takings clause:
“Private property shall not be taken, destroyed or damaged for public use without just compensation.” Minn.
Const. art. I, § 13 (emphasis added). According to the
Minnesota Statutes, a “taking” includes “every interference, under the power of eminent domain, with the
possession, enjoyment, or value of private property.”
Minn. Stat. § 117.025, subd. 2 (2016). Accordingly, the
Minnesota Supreme Court has recognized that “the
clear intent of Minnesota law is to fully compensate its
citizens for losses related to property rights incurred
because of state actions.” State by Humphrey v. Strom,
493 N.W.2d 554, 558 (Minn. 1992). The supreme court
sometimes has applied the three-part Penn Central
test to determine whether a partial regulatory taking
has occurred under the Minnesota Constitution. See
Wensmann Realty, 734 N.W.2d at 633 (citing cases).
But the supreme court also has found a partial regulatory taking under state law even though there was no
partial regulatory taking under federal law. See, e.g.,
Johnson v. City of Minneapolis, 667 N.W.2d 109, 11516 (Minn. 2003); see also DeCook v. Rochester Int’l Airport Joint Zoning Bd., 796 N.W.2d 299, 305-06 (Minn.
2011).

App. 110
In this case, both Minnesota Sands and the county
sought summary judgment on both types of regulatory
takings claims. The district court rejected Minnesota
Sands’s regulatory takings claims for two reasons.
A.
The district court’s first reason for rejecting Minnesota Sands’s regulatory takings claims is that Minnesota Sands did not “ever possess[ ] any right to
engage in industrial mineral mining” because it had
not obtained a conditional-use permit. The district
court based this reasoning on the premise that, “for a
party to allege a taking, there must first be a previously existing right to engage in the restricted activity”
and that if “no existing right to perform an activity
ever existed, there is no taking.” As legal authority for
this reasoning, the district court cited the supreme
court’s Wensmann Realty opinion.
The district court misread the Wensmann Realty
opinion. The portion of the Wensmann Realty opinion
that was cited by the district court is concerned only
with the first factor of the Penn Central test, “[t]he
economic impact of the regulation on the claimant.”
Wensmann Realty, 734 N.W.2d at 635 (citing Penn Central, 438 U.S. at 124, 98 S. Ct. at 2659). In that portion
of the Wensmann Realty opinion, the supreme court
discussed various methods by which it might measure
the financial impact on the property owner in that
case. Wensmann Realty, 734 N.W.2d at 634-37. The supreme court did not state that a pre-existing right to

App. 111
engage in a regulated activity is a prerequisite of a
takings claim. See id. In fact, the property owner in
Wensmann Realty was prohibited by the city’s comprehensive plan from developing its property, but the supreme court ruled in the property owner’s favor by
reversing a grant of summary judgment and remanding to the district court for further proceedings. See id.
at 628-29, 641-42.
State law concerning property rights may be relevant in a regulatory takings case to the extent that
“background principles of the State’s law of property
and nuisance already place [restrictions] upon land
ownership.” Lucas, 505 U.S. at 1029, 112 S. Ct. at 2900.
In other words, a challenged regulation “must . . . do no
more than duplicate the result that could have been
achieved in the courts—by adjacent landowners (or
other uniquely affected persons) under the State’s law
of private nuisance, or by the State under its complementary power to abate nuisances that affect the
public generally, or otherwise.” Id. The county
acknowledges these principles but does not contend
that the mining of sand is a nuisance. A cursory review
of Minnesota caselaw does not reveal that the mining
of sand or gravel is a nuisance per se. See, e.g., Scott
County Lumber Co. v. City of Shakopee, 417 N.W.2d
721, 728 (Minn. App. 1988) (reversing city’s denial of
conditional-use permit for expansion of gravel pit because decision was arbitrary and capricious), review
denied (Minn. Mar. 23, 1988). The district court could
not reasonably find that the mining of silica sand in
Winona County is a nuisance per se because the county

App. 112
issued a conditional-use permit to the Nisbit mine in
2013. The county determined at that time that there
was no need for an environmental-impact statement
with respect to the Nisbit mine, and this court affirmed
that determination on appellate review. See In re Environmental Impact Statement re Nisbit Quarry, 849
N.W.2d 71, 84 (Minn. App. 2014).
The majority opinion upholds the district court’s
reasoning on slightly different grounds. The majority
opinion reasons that Minnesota Sands does not have a
compensable property interest on the ground that it
has lost its leasehold interests. See supra at 783-84.
There is nothing in the record to suggest that Minnesota Sands has lost its leasehold interests. A simple review of the six leases indicates that each lease remains
in effect. Three leases have an original term that ends
“five years after the issuance of a conditional-use permit.” Two leases had an original term ending in October 2016 but were amended in 2015 to terminate either
five years after all regulatory approvals or in 2023,
whichever is earlier. The sixth lease was executed in
2015 and terminates either five years after all regulatory approvals or in 2023, whichever is earlier. None of
the six leases has expired. The majority opinion relies
on a lease provision stating that Minnesota Sands’s
“obligations under this Agreement are conditioned
upon [Minnesota Sands] obtaining any zoning or governmental approvals required” for the mining of silica
sand. See supra at 784. Minnesota Sands’s principal
obligation toward the six lessors is to pay royalties
based on the volume of silica sand that is mined. The

App. 113
clause concerning Minnesota Sands’s obligations under each lease does not affect Minnesota Sands’s rights
under each lease, which have not expired.
In essence, the majority opinion reasons that Minnesota Sands does not have a compensable property
interest because it does not have a conditional-use
permit. But of course, Minnesota Sands cannot obtain
a conditional-use permit because the county will not
grant one because of the ordinance that is being challenged in this case. As described above, the majority’s
reasoning is inconsistent with the supreme court’s
opinion in Wensmann Realty, in which the property
owner’s desire to develop its property was forbidden by
the city’s comprehensive plan, yet the supreme court
ruled in the property owner’s favor and reversed and
remanded for further consideration of the property
owner’s takings claim. See 734 N.W.2d at 628-29,
641-42. The majority’s reasoning also is inconsistent
with the United States Supreme Court’s opinion in
Palazzolo v. Rhode Island, 533 U.S. 606, 121 S. Ct. 2448
(2001), in which a state agency made a similar attempt
to defeat a property owner’s takings claim by narrowly
defining the property owner’s property interest according to the agency’s own terms. The Supreme Court rejected the agency’s argument, stating, “The State may
not put so potent a Hobbesian stick into the Lockean
bundle.” Id. at 627, 121 S. Ct. at 2462. The Supreme
Court explained that to accept the agency’s argument
“would absolve the State of its obligation to defend any
action restricting land use, no matter how extreme or
unreasonable.” Id. at 627, 121 S. Ct. at 2462-63.

App. 114
Thus, the district court’s first reason for rejecting
Minnesota Sands’s regulatory takings claims is erroneous.
B.
The district court’s second reason for rejecting
Minnesota Sands’s regulatory takings claims is that
Minnesota Sands “fail[ed] to show that the property
. . . leased is deprived of ‘all economic value.’ ” The district court explained that, even though the county’s
zoning ordinance prohibits Minnesota Sands from
mining “industrial minerals,” the ordinance would allow Minnesota Sands to mine “construction minerals,”
so long as it satisfied the requirements of a conditionaluse permit. The district court concluded, “While Minnesota Sands would not obtain as much money as they
would have preferred from their leases through this
process, their argument that their lease is now deprived of ‘all economic value’ is disingenuous given
these facts.”
To establish a total regulatory taking, Minnesota
Sands must prove that the county’s zoning ordinance
caused the “complete elimination of value” to its property. See Lucas, 505 U.S. at 1019 & n.8, 112 S. Ct. at
2895 & n.8. Before determining whether all value has
been eliminated, it is necessary to first determine the
relevant parcel of property. Murr, 137 S. Ct. at 194346. In Penn Central, the Supreme Court set forth the
“parcel as a whole” rule for determining the relevant
parcel of property in a takings claim:

App. 115
“Taking” jurisprudence does not divide a single parcel into discrete segments and attempt
to determine whether rights in a particular
segment have been entirely abrogated. In deciding whether a particular governmental action has effected a taking, this Court focuses
rather both on the character of the action and
on the nature and extent of the interference
with rights in the parcel as a whole. . . .
438 U.S. at 130-31, 98 S. Ct. at 2662 (emphasis added).
Just last year, the Supreme Court applied the parcelas-a-whole rule to a total takings claim. See Murr, 137
S. Ct. at 1943-45. In doing so, the Supreme Court identified three factors that determine “the proper unit of
property” in a regulatory takings claim: (1) “the treatment of the land under state and local law”; (2) “the
physical characteristics of the land”; and (3) “the prospective value of the regulated land.” Id. at 1943, 1945.
Minnesota Sands contends that the county’s zoning ordinance completely eliminates the value of its
leasehold interests in six parcels of Winona County
property. In each lease, Minnesota Sands acquired a
portion of the mineral interests in the property, specifically, the right to mine silica sand to be used in hydraulic fracturing. Minnesota Sands essentially asks
this court to determine the relevant parcel of property
by severing each of the six properties in which Minnesota Sands has a leasehold interest in two different
ways: first, by severing the mineral interests from the
non-mineral interests, and, second, by severing the
mineral interest in mining silica sand for hydraulic

App. 116
fracturing from the mineral interest in mining silica
sand for other purposes.
Minnesota Sands’s contention concerning the relevant parcels is inconsistent with the Supreme Court’s
application of the parcel-as-a-whole rule in Keystone
Bituminous Coal Association, which concerned a Pennsylvania law that allowed the mining of no more than
half of the coal underneath public buildings and dwellings to ensure that those buildings had structural support. 480 U.S. at 476-77, 107 S. Ct. at 1237-38. Certain
coal-mining companies alleged a regulatory taking and
attempted “to narrowly define certain segments of
their property and assert that, when so defined, the
[Pennsylvania law] denies them economically viable
use.” Id. at 478, 496, 107 S. Ct. at 1238, 1248. Specifically, the plaintiffs contended that the relevant parcel
of property was the coal that was required to be left
in place without being mined. Id. at 498, 107 S. Ct. at
1248. The Supreme Court rejected the contention, reasoning that the coal that must be left in place “do[es]
not constitute a separate segment of property for takings law purposes.” Id. Since Keystone, lower federal
courts generally have rejected the argument that a
mineral interest in real property, by itself, is the relevant parcel for purposes of a regulatory takings claim.
See Appolo Fuels, Inc. v. United States, 381 F.3d 1338,
1346 (Fed. Cir. 2004); Cane Tennessee, Inc. v. United
States, 54 Fed. Cl. 100, 105-09 (Fed. Cl. 2002); Stephenson v. United States, 33 Fed. Cl. 63, 66, 69-70 (Fed. Cl.
1994); see also Machipongo Land & Coal, Inc. v. Pennsylvania, 799 A.2d 751, 766 (Pa. 2002); but see Whitney

App. 117
Benefits, 18 Cl. Ct. 394, 405 (Cl. Ct. 1989), aff ’d, 926
F.2d 1169 (Fed. Cir. 1991). The Keystone opinion suggests not only that mineral interests may not be severed from non-mineral interests but also that certain
mineral interests may not be severed from other
mineral interests. See 480 U.S. at 498, 107 S. Ct. at
1248; see also Tahoe-Sierra Preservation Council, Inc.
v. Tahoe Regional Planning Agency, 535 U.S. 302, 331,
122 S. Ct. 1465, 1483 (2002) (stating that “defining the
property interest taken in terms of the very regulation
being challenged is circular”).
Accordingly, the relevant parcels for purposes of
Minnesota Sands’s regulatory takings claims are the
entireties of the six properties in which Minnesota
Sands has leased mineral interests. Given that definition of the relevant parcels, Minnesota Sands cannot
establish a total regulatory takings claim because it
cannot prove that the county’s zoning ordinance
caused the “complete elimination of value” of any of
the six parcels of property. See Lucas, 505 U.S. at 1019
& n.8, 112 S. Ct. at 2895 & n.8. This is so because sand
may be mined at each of the six properties so long as
it is sold for “local construction purposes.” WCZO § 4.2
In addition, Minnesota Sands has not attempted to
prove that any of the six properties, when considered
as a whole, has no economic value because of the
county’s zoning ordinance. Minnesota Sands’s total
regulatory takings claim fails because it is based on an
extremely narrow definition of the relevant parcels of
property.

App. 118
Thus, the district court’s second reason for rejecting Minnesota Sands’s regulatory takings claims is not
erroneous with respect to Minnesota Sands’s total regulatory takings claim.
C.
The district court’s second reason for rejecting
Minnesota Sands’s regulatory takings claims does not
resolve the partial regulatory takings claim. Whether
the relevant parcels are defined narrowly or broadly, it
is necessary to apply the three-factor Penn Central test
to determine whether the county’s zoning ordinance
amounts to a partial regulatory taking of Minnesota
Sands’s property rights. The district court did not apply the three-factor Penn Central test to the facts and
circumstances of this case. Thus, I would reverse in
part and remand to the district court with instructions
to apply the three-factor Penn Central test and to resolve the parties’ arguments concerning Minnesota
Sands’s partial regulatory takings claim, based on the
premise that the relevant parcels are the entire properties in which Minnesota Sands has leasehold interests. See Palazzolo, 533 U.S. at 630, 632, 121 S. Ct. at
2464-65 (remanding to district court for application of
Penn Central test to partial regulatory takings claim);
Woodbury Place Partners v. City of Woodbury, 492
N.W.2d 258, 263 (Minn. App. 1992) (same), review denied (Minn. Jan. 15, 1993). Because Minnesota Sands
has invoked Minnesota’s takings clause as well as the
federal Takings Clause, the district court also should
consider and resolve Minnesota Sands’s state-law

App. 119
partial regulatory takings claim. See Minn. Const. art.
I, § 13; DeCook, 796 N.W.2d at 305-06; Johnson, 667
N.W.2d at 115-16; Strom, 493 N.W.2d at 558.
Therefore, I would conclude that the district court
did not err by granting the county’s motion for summary judgment on Minnesota Sands’s total regulatory
takings claim, but I would conclude that the district
court erred by granting the county’s motion on Minnesota Sands’s partial regulatory takings claim.

App. 120
STATE OF MINNESOTA
COUNTY OF WINONA

Southeast Minnesota
Property Owners, a Minnesota Nonprofit Corporation,
and Roger Dabelstein,
Plaintiffs,
v.

DISTRICT COURT
THIRD JUDICIAL
DISTRICT
Case Type: Declaratory
Judgment/Injunction
Court File No.
85-CV-17-516
Judge Mary C. Leahy
ORDER

County of Winona, Minnesota, a Political subdivision
of the State of Minnesota

(Filed Nov. 17, 2017)

Defendant.
Minnesota Sands, LLC,
Plaintiff,
v.
County of Winona, Minnesota, a Political subdivision
of the State of Minnesota,

Case Type: Civil Other
Court File No.
85-CV-17-771
Judge Mary C. Leahy

Defendant.
The above-entitled matter came on for a hearing
before the Honorable Mary C. Leahy on October 3,
2017, at the Winona County Courthouse, in the City of
Winona, State of Minnesota, upon Plaintiffs’ Motions
for Summary Judgment and Defendant Winona
County’s Cross Motion to Dismiss, or in the alternative, Motion for Summary Judgment.

App. 121
Jay T. Squires, Esq., Elizabeth J. Vieira, Esq., and
Kristin C. Nierengarten, Esq. appeared on behalf of
Defendant Winona County. Gary A. Van Cleve, Esq.
and Bryan Huntington, Esq., appeared on behalf of
Plaintiffs Southern Minnesota Property Owners and
Roger Dabelstein. Christopher H. Dolan, Esq. appeared on behalf of Plaintiff Minnesota Sands. Upon
all the files, records and proceedings herein, the Court
having heard the argument of counsel and being fully
advised in the premises,
IT IS HEREBY ORDERED:
1.

That the Motions of Defendant Winona
County as to all claims of the Plaintiffs are
GRANTED. All Plaintiffs’ claims against Defendant Winona County are DISMISSED
WITH PREJUDICE.

2.

Enclosed is this Court’s memorandum of law,
incorporated herein.

LET JUDGMENT BE ENTERED ACCORDINGLY.
BY THE COURT
By: /s/ Mary C. Leahy
2017.11.17
The Honorable Mary C. Leahy
Judge of District Court

App. 122
MEMORANDUM
On April 26, 2016, The Winona County Board
(hereinafter “Board”), in a 3-2 vote, directed the
Winona County Planning and Environmental Services
Department (hereinafter “PESD”) and the Winona
County Attorney’s Office to prepare a review of a proposed amendment to the Winona County Zoning Ordinance that would ban all “frac” sand mining operations
in Winona County. The Winona County Attorney created a revised version of the amendment which was
submitted to the Board on June 3, 2016. The revised
version of the amendment made no mention of frac or
silica sand mining operations on its face. Instead, the
proposed ordinance was drafted so as to regulate all
mining operations in Winona County.
Specifically, the language distinguished between
mining operations for industrial minerals versus mining operations for construction materials, as mirrored
by the United States Geological Survey and the land
use ordinance in place in nearby Florence Township.
The proposed alternative language would disallow industrial mineral mining operations while allowing for
construction mineral mining operations, provided such
operations passed any and all other applicable regulations.
The Board voted to forward this language on the
amendment to the Winona County Planning Commission for review and recommendation pursuant to the
Winona County Zoning Ordinance. On June 30, 2016,
the Planning Commission held its first public hearing

App. 123
on the Proposed Ordinance Amendment, considering
written and oral public testimony and discussing the
proposal. At that hearing, seventy-six people testified
about the Proposed Ordinance Amendment. The Planning Commission continued its discussion of the Proposed Ordinance Amendment at its July 21, 2016
meeting, discussing the additional information it
needed before it could make a recommendation to the
Board and setting a timeline for moving forward to allow adequate time to consider additional information.
At its August 8, 2016 meeting, the Planning Commission heard additional oral testimony in response
to information it requested, with eleven individuals
speaking about the Proposed Ordinance Amendment
and answering the questions of the Planning Commission. Testimony continued at the August 11, 2016
Planning Commission meeting with another four individuals addressing the commission. These individuals
included County employees; representatives of sand,
aggregate, agricultural, environmental, township, and
labor union organizations supporting and opposing
regulation of industrial mineral mining as well as
members of Wisconsin County Boards of Supervisors
where industrial silica sand mining is occurring; a doctor from Mayo Clinic; and a member of the Environmental Quality Board Silica Sand Rulemaking
Advisory Panel. In addition, the Planning Commission
considered well over 200 written submissions, which
amounted to thousands of pages of information and
commentary both for and against the Proposed Ordinance Amendment.

App. 124
The input received by the Planning Commission
came from people with various interests and perspectives, with the vast majority of public comments supporting some form of additional regulation on any kind
of mining operations planned for Winona County. The
public’s primary concern related to air and water quality, tourism and the natural landscape, noise and traffic, and economic impacts. Amy Nankivil, citizen and
business owner in Winona County, wrote: “Both the
short and long term negative effects of allowing frac
mining far outweigh the financial benefit to a very few
individuals. The mining, processing, and transporting
of frac sand pose myriad problems: from environmental and infrastructure dangers to very real health concerns.” Exhibit A to Affidavit of Karen Sonneman, 1.
Ann Redig, another citizen wrote: “You know of the
fragile karst topography in our beautiful SE MN. Also
damage to roads, noise and dangerous silica dust make
the ban important to our citizens.” Id, 4. Winona
County Citizen Audrey A. Luhmann Helstad also
wrote:
I have witnessed the heavy traffic, the ghastly
noise levels, and dirty air for the last four years
with the I – 90 road & bridge construction. The
noise doesn’t leave and it’s awful. Horrible, but we
knew we had to endure it for four years. No way I
could live with that noise, dirt & dust a lifetime.
Id, 5. This is just a sampling of the litany of public comments requesting a ban on industrial mineral mining.
The issue clearly resonated with the citizens of Winona

App. 125
County, and it appears the Planning Commission and
the Winona County Board understood these concerns.
The Planning Commission received extensive substantive information regarding the known and anticipated impacts of industrial mineral mining, with the
primary focus of the information being on the environmental, health, and economic effects of large-scale
mining. The Environmental Quality Board provided a
report as to the impact of industrial mining on Winona
County. This information included studies and observations of industrial mineral operations occurring in
nearby Wisconsin counties; studies conducted by and
other information from state and local agencies; studies conducted by organizations that support industrial
mineral mining; analysis conducted by County staff;
and commentary from doctors, geologists, and environmental scientists.
After receiving this extensive information about
mining operations, the Planning Commission discussed the merits of the Proposed Ordinance Amendment and options for moving forward. Following their
discussion and debate, the Planning Commission voted
to recommend a compromise zoning amendment for
approval by the Board, which would allow for industrial mineral operations, but limit the number and size
of industrial mines in the County (“Planning Commission Recommendation”).
On August 23, 2016, the Board received the Planning Commission Recommendation and directed the
County Attorney and Planning Department to assess

App. 126
the recommendation and provide additional information and analysis. It also scheduled a public hearing
on the Planning Commission Recommendation. On October 13, 2016, the Board held this public hearing, taking oral comments on the matter, and accepting
written comments until October 18, 2016. Over one
hundred people spoke at the public hearing and the
Board received over one hundred and fifty written submissions. The positions expressed to the Board mirrored those presented to the Planning Commission,
with the vast majority of comments favoring restrictions on silica sand mining and disfavoring the
Planning Commission Recommendation. While the
concerns about industrial mineral operations largely
echoed those expressed during the Planning Commission hearing process, the Board received additional information, including photos and material related to
industrial mineral operations in Wisconsin and elsewhere in Minnesota and information about the chemical flocculent used in the processing of industrial silica
sand mining.
At its October 25, 2016 meeting, the Board considered its options for amending the mining provisions in
the WCZO. In addition to considering the public comments and other information gathered throughout
amendment process, the Board considered a memorandum from County staff, which laid out various options
the Board had for moving forward. The Board voted to
adopt the Proposed Ordinance Amendment as it was
originally presented to the Planning Commission and
directed County staff to draft the final ordinance

App. 127
language, findings, a conclusion, and an order for consideration at the following Board meeting. On November 22, 2016, the Board approved a document entitled
“Procedural History, Findings of Fact, Conclusions, and
Adoption of Zoning Ordinance Amendment,” which formally adopted the Winona County Zoning Ordinance
Amendment Regarding the Mining and Processing of
Industrial Minerals in Winona County (“Ordinance
Amendment”).
The Ordinance Amendment sets forth definitions
for construction minerals, industrial minerals, mining,
and mineral processing. It prohibits all industrial mineral operations within the County because the Board
found that industrial mining, particularly as it relates
to silica sand mining, transportation, and processing
operations, will likely have an undesirable impact on
air quality, water quality, traffic, road conditions and
safety, and natural landscapes.
Plaintiffs’ contentions in this litigation are all derived from their belief that there is no difference between construction minerals and industrial minerals
or construction mining and industrial mining, and the
mineral processes involved in both other than their
end use. Simply put, Plaintiffs’ believe that the Ordinance Amendment is unlawful because the only difference between the allowed activity of construction
mineral mining and the disallowed activity of industrial mineral mining is the end use and that the Ordinance was enacted as a political “antifrac” measure
that is unconstitutional.

App. 128
The distinction between construction and industrial mining was derived from the information the
County obtained from the outlined eight month-long
process in crafting the ordinance. For example, in examining the distinction between industrial sand and
construction sand for the sake of determining construction minerals and industrial minerals, the county
took note and studied such distinction as described by
the United States Geological Survey. The County also
looked to a similar ordinance from a similarly situated
township to their proposed ordinance in making the
distinction between such mining operations. This ordinance, the Florence Township Ordinance, was created
through a process that found “industrial mineral mining land use operations are larger-scaled industrial,
consume more appropriated water, require more concentrated heavy truck hauling to single destinations,
and embrace other differences than the mining of construction minerals.” The Minnesota Department of
Natural Resources also makes a distinction between
industrial mineral operations and construction mineral operations.
According to an Environmental Quality Board report created for consideration by the County as to this
matter, there are major differences between the operations for mining construction minerals versus industrial minerals. Construction mineral operations tend
to involve small mines that engage in only periodic
mining activities, which do not involve underground
mining, blasting, or chemical processing. Industrial
mineral operations involve larger mines in operation

App. 129
for long periods of time that use blasting, underground
mining techniques and involve chemical treatment of
the mined sand.
In applying these distinctions specifically to sand
mining operations, the Environmental Quality Board
report found industrial silica sand must meet particular standards for size, shape, purity, and intactness,
which is achieved by mining largely through using a
chemical flocculent processing and large amounts of
water. When the sand does not meet the desired standards for industrial mining, the sand is commonly returned to the mine contaminated with flocculent. None
of these issues were found to exist with construction
mineral mining according to the same report. The report also took into consideration the boom-bust cycles
of silica sand mining, demonstrating that the demand
for construction minerals pales in comparison millions
of tons of silica sand demanded during volatile boom
periods. The associated hauling demands of industrial
mines considerably outweigh those of construction
mines as well.
Lastly, the Environmental Quality Board report
found that the sites for specifically industrial silica
sand mining were located primarily in the karst formations known as the Jordon, Saint Peter Sandstone,
and Wonewec Formations. The karst features in the
area serve as a natural filtration system for groundwater, surface water and wells, making the region highly
vulnerable to pollutants entering aquifers with limited
filtration or treatment. Pollution resulting from such
activities can travel to other wells and other water

App. 130
resources. The characteristics of the karst region make
such pollution, if present, unpredictable and difficult to
track, making possible sand pollution during industrial mining operations a grave concern.
The report was far from the only piece of evidence
considered in making the distinctions and final decision on mining in Winona County. Analysis of average
road use during industrial mining boom periods
showed that roads wore down much quicker than comparable periods for construction mining. Two local doctors testified to Winona County as to scrutinizing
industrial silica sand mining features under the U.S.
Department of Labor’s Occupational Safety and
Health Administration’s standards and the standards
of the National Institute for Occupational Safety and
Health. While these persons could only testify as to the
effect of silica sand exposure as used in “frac” operations, the Board found that the same sand would be
exposed to its workers and residents if industrial mining operations for silica sand were allowed, since the
same sand is exposed in both operations. Winona
County, having allowed for some silica sand mines to
open prior to the passage of this ordinance revision,
also took note of the changes the openings of those
mines made within the County and other surrounding
counties. Given the volatility of the demand for silica
sand, the Findings noted that local economies and natural environments suffered due to this boom/bust cycle. Specifically, communities with silica sand mines
open sometimes suffered from declining property values, community stress, diminished overall wellbeing,

App. 131
and unmet financial obligations. As far as this Court is
aware, Winona County did not observe communities
with construction mines open experiencing the same
effects.
On July 24, 2017, Plaintiffs filed their motions for
summary judgment as to all claims against Winona
County for the implementation of the above mentioned
ordinance. Specifically they request declaratory and
injunctive relief declaring the County’s ordinance
amendment invalid and enjoin its enforcement and
summary judgment as to all other claims listed in their
complaint. Defendant Winona County filed a cross-motion to dismiss and motion for summary judgment requesting this Court find the ordinance valid.
LAW AND ANALYSIS
I. SUMMARY JUDGMENT MOTIONS
A.

Standard of Review

Summary judgment is appropriate if there is no
genuine issue of material fact and a party is entitled to
summary judgment as a matter of law. Minn. R. Civ. P.
56.03. Summary judgment must be granted if the moving party is entitled to judgment as a matter of law and
a reasonable fact finder could not disagree with respect
to any fact issues that may exist. Carlisle v. City of
Minneapolis, 437 N.W.2d 712, 715 (Minn. App. 1989).
All a moving party filing a motion for summary judgment has to do to carry its burden is to demonstrate
there is no admissible evidence to support the nonmoving party’s case. Celotex Corp. v. Catrell, 477 U.S. 317,

App. 132
323. Summary Judgment is appropriate when the
moving party identifies those portions of the pleadings,
discovery, and affidavits, if any, which indicate the nonmoving party cannot support a central element of its
claim. When a moving party has properly made and
supported a summary judgment motion, the nonmoving party must show specific facts demonstrate there
is a genuine issue for a trial. DLH, Inc. v. Russ, 566
N.W.2d 60, 69 (Minn. 1997). The nonmoving party
must show that the record could support a finding by a
rational trier of fact in favor of the nonmoving party.
Matsushita Electrical Industrial Co. v. Zenith Radio
Corp. 475 U.S. 574, 587 (1986). Such a showing requires a material fact that will affect the result or outcome of the case. Zappa v. Fahey, 245 N.W.2d 258, 25960 (Minn. 1976).
B. Standard of Review
of Legislative Land Use Decisions
Winona County was acting in a legislative capacity when amending its zoning ordinance to create distinctions between construction and industrial mining
and prohibit industrial mining. When creating public
policy affecting the general population through enacting or amending a zoning ordinance, a local government acts in a legislative capacity. Honn v. City of Coon
Rapids, 313 N.W.2d 409, 416-17 (Minn. 1981).
When a local government acts in a legislative capacity, it is given broad discretion in crafting the contents of its legislative act so long as such contents are

App. 133
not incompatible with state law and are supported by
a rational basis relating to promotion of public health,
safety, morals, or general welfare. Eagle Lake of Becker
Cnty. Lake Ass’n v. Becker Cnty. Bd. Of Comm’rs, 738
N.W.2d 788, 792 (Minn. App. 2007). This test is passed
when the legislative act in question is supported by
any set of facts either known or which could reasonably
be assumed. Arcadia Development Corp. v. City of
Bloomington, 552 N.W.2d 281, 289 (Minn. App. 1996).
Specifically as review applies to zoning ordinances, legislative zoning decisions are judged for
“reasonableness” within the statutory framework delegating zoning authority to local governments. Amcor
Coport v. City of Eagan, 248 N.W.2d 66, 72 (Minn.
1984). A zoning ordinance is presumed valid and the
burden falls upon the party contesting the ordinance’s
validity to prove otherwise. State ex rel. Lachtman v.
Houghton, 158 N.W. 1017 (Minn. 1916). As long as such
an ordinance is supported by any rational basis related
to the promotion of the health, safety, morals, convenience, and general welfare of the public, a court must
uphold the ordinance. Curtis Oil v. City of N. Branch,
364 N.W.2d 880, 882-883 (Minn. App. 1985).
Plaintiffs argue that the burden is on the Defendant to show that the Ordinance Amendment has a rational basis. After an ordinance is adopted, it is
presumptively valid. City of St. Paul v. Kekkedakis, 199
N.W.2d 151 (Minn. 1972). Challengers to the Ordinance Amendment must prove it is invalid. State ex rel
Lachtman v. Houghton, 158 N.W. 1017 (Minn. 1916).
Under this standard, Plaintiffs bear the burden of

App. 134
showing that there is no rational basis for the Ordinance Amendment based on the evidence presented to
the Defendant at the time the Defendant considered
passing the Amendment. Plaintiffs must make the
demonstration of arbitrary, capricious, lacking in rational basis, and unreasonablness under this standard.
C. Even if Plaintiffs Did Not Bear
the Burden, There is Still Rational Basis
for the Ordinance Amendment.
Plaintiffs contentions that the Ordinance Amendment should be found invalid under this test rely
largely on their assertion that there is no practical difference between industrial sand mining for silica sand
and construction sand mining outside their end use.
They attempt to make this showing by presenting
pieces of evidence regarding the differences or lack
thereof to this Court that demonstrated otherwise. Under this standard of review; however, it is not this
Court’s position to re-determine whether there is such
a difference. Instead, it is this Court’s position to determine, based on the evidence presented to the Defendant at the time the Defendant considered the
Ordinance Amendment, if their decision was without
rational basis. Given the many persons, experts, and
reports testifying that there was a difference between
the two types of mining, and these same persons testified that industrial mining was a greater detriment to
the general welfare of Winona County, there was a rational basis for passing the Ordinance Amendment.

App. 135
As stated above, the Environmental Quality Board
report specifically created for Winona County’s consideration examined how industrial mining for silica sand
would primarily occur in karst formation regions of
Winona County. The Minnesota legislature has recognized such regions as unique and appropriate for special consideration in the regulation of industrial silica
sand mining. Minn. Stat. § 116C.99, subd. 2(a). The Environmental Quality Board showed Winona County
that silica sands in these regions serve as natural water filtration systems for groundwater, surface water,
and wells. As stated above, the same report discussed
how the region is vulnerable to pollution. Pollutants
become difficult to track in the region. Industrial silica
sand mining was shown to sometimes involve the
dumping of contaminated materials back into the regions from which they were found according to the Environmental Quality Board report. Allowing industrial
mining for silica sand in the region risks exposing
these water sources to contamination in a way the report did not find for construction mining. Witnesses
from counties that experienced industrial silica sand
mining testified to the conditions of their natural landscapes, destroyed by massive open mining pits. Winona
County cites the concern for preserving these areas as
part of the reasoning for its Ordinance. This concern,
as demonstrated above, was reasonably based on evidence presented to Winona County.
Winona County examined studies from other Wisconsin communities that experienced industrial silica
sand mining operations. These studies showed Winona

App. 136
County that industrial mining routinely drained local
resources, negatively impacted existing industries, and
caused a downturn in the local economy due to
boom/bust cycles that would require immediate, intense excavation, before shutting down soon after due
to demand drying up. These boom/bust cycles are
unique to industrial silica sand excavation. Persons
from these counties also testified as to the same as
well. Based on this evidence, Winona County found
that industrial mining could also pose a problem to the
welfare of the County. These same concerns did not appear correlated with or caused by construction mining
operations.
The county found these same boom/bust cycles
posed a problem to local infrastructure as well. Winona
County’s Highway Engineer testified that in places of
heavy truck traffic due to mineral excavation, pavement designed to last for 20 years lasted only 2 years
in areas around Williston North Dakota. Based on his
estimates of deterioration during boom periods of industrial silica sand excavation, Winona County would
experience similar wear. If the excavators failed or refused to pay for additional paving to compensate,
Winona County would look at having to pay future
paving at faster rates in order to maintain safe roads,
a goal directly related to the public welfare and safety
of Winona County. Again, because the boom/bust cycles
were unique to industrial silica sand excavating, they
did pose different problems to Winona County than
construction sand excavating.

App. 137
In addition, the County looked at how industrial
silica sand mining impacted public health. As the Environmental Quality Board discussed, industrial silica
sand mining would occur in regions that could be contaminated as a result of the mining. Because these regions provide water filtration, if polluted, they could
contaminate drinking water. Two local doctors discussed how silica sand particles increase the risks of
silicosis and lung cancer based on findings from “frac”
sites. Other pollutants inherent to industrial silica
sand mining include dust and diesel exhaust, both of
which increase risks to public health. These risks were
not presented to the County as inherent in construction sand mining.
Even if the burden were on Winona County to
prove its ordinance met the “arbitrary and capricious”
standard, the record shows Winona County consulted
and considered an overwhelming amount of evidence
regarding its Ordinance Amendment. This thorough
consideration resulted in their decision to create the
distinction between two different types of mining while
prohibiting industrial mining. Winona County appears
to not have made their decisions regarding the Ordinance Amendment solely on “end use". Instead, the
wide variety of evidence presented to the County amply supports the County’s actions.

App. 138
D. Standard of Review for Challenging
Legislative Activity On Constitutional Merit
The burden of proof for proving a facial challenge
to an ordinance is on the party challenging the ordinance. Scott v. Minneapolis Police Relief Ass’n, Inc., 615
N.W.2d 66, 73 (Minn. 2000). The party challenging
must prove beyond a reasonable doubt that the Ordinance violates the Minnesota Constitution. Id. Every
presumption is invoked in favor of the constitutionality of any statute. Miller Brewing Co. v. State, 284
N.W.2d 353, 356 (Minn. 1979). The challenging party
must show that the legislation is unconstitutional in
all of its applications. McCaughtry v. City of Red Wing,
808 N.W.2d 331, 339 (Minn. 2001).
E. The Ordinance Amendment
Does Not Violate Equal Protection.
By distinguishing between industrial mineral operations and construction mineral operations while
prohibiting one in favor of another, Plaintiffs argue
that the Ordinance Amendment violates their equal
protection rights. A law is presumed to be constitutional unless it implicates a suspect classification or
fundamental right, and it need only be rationally related to a legitimate government purpose to withstand
equal protection scrutiny. State v. Richmond, 730
N.W.2d 62, 71 (Minn. App. 2007). Because Plaintiffs do
not argue otherwise, Plaintiffs must prove that the law
is not rationally related to a legitimate government
purpose. As stated above in the “arbitrary and capricious” analysis, they have not and cannot do so.

App. 139
Nevertheless, Plaintiffs argue that the Ordinance
Amendment creates arbitrary classes for the purposes
of discriminating against “frac-sand” mining. Again, as
stated above, these classes of mining are not arbitrary.
Instead, they were modeled after already existing classifications based on analysis of differences between
construction and industrial mineral mining. The Plaintiffs continue to argue under the erroneous belief that
the County’s distinction considers only end-use in its
distinction, referring to State v. Northwestern Preparatory School, 37 N.W.2d 370 (1949). However, State v.
Northwestern Preparatory School holds a prohibition
based on ownership use rather than the actual effect
on the residential neighborhood violates equal protection, which actually supports the Defendant’s legislative and deliberative process. Defendant examined
how the county as a whole would be impacted by industrial mineral mining and construction mineral
mining. In its examination, the County determined
there were several characteristics unique to industrial
mineral mining that could be hazardous to the County
in a way entirely different from construction mineral
mines. The land owners; however, are treated equally
in their land use. No owner is favored over another, rather uses are favored or disfavored. Plaintiffs’ reliance
on Cleburne also ignores how equal protection in that
case was implicated based on a class of persons, rather
than the actual use itself.

App. 140
F. The Ordinance Does Not
Violate Substantive Due Process.
Plaintiffs also argue that, because they perceive
the Ordinance Amendment to be arbitrary and capricious and without a public purpose, it must violate
their substantive due process rights. Again, regardless
of whether or not this test should be the “egregious and
irrational” test, because Plaintiffs cannot show the Ordinance Amendment was arbitrary and capricious and
because the Ordinance Amendment is substantially
related to a public purpose, this claim also fails.
G. The Dormant Commerce Clause
Is Not Violated By the Ordinance Amendment.
The Commerce Clause of the United States Constitution provides that states may not unduly burden
or discriminate against interstate commerce. Matter of
Griepentrog, 888 N.W.2d 478, 494 (Minn. App. 2016).
Policy behind the dormant commerce clause reflects a
desire to prevent states from implementing regulatory
measures designed to benefit in-state interests by burdening out-of-state interests. New Energy Co. of Incl. V
Limbach, 486 U.S. 269, 273-74 (1988).
In determining whether a law violates the
Dormant Commerce Clause, first the Court examines
if the Dormant Commerce Clause is implicated, followed by determining if the law discriminates against
interstate commerce or excessively burdens interstate
commerce. Swanson v. Integrity Advance, LLC, 870
N.W.2d 90, 94 (Minn. 2015). Challengers must

App. 141
demonstrate both beyond a reasonable doubt. ILHC of
Eagan, LLC. V. County of Dakota, 693 N.W.2d 412, 421
(Minn. 2005). If the two parties divided by a legislative
act are operators in distinct markets, the commerce
clause is not implicated. Gen. Motors Corp. v. Tracy, 519
U.S. 278, 300 (1997).
To prove implication, Plaintiffs argue that industrial mineral mining, and, particularly silica mineral
mining is a competitor in the same commercial market
as construction mining, particularly construction sand
mining. In this situation, Plaintiff ’s initial arguments
regarding “end-use” discrimination undermine their
argument here.
While Winona County found many differences between industrial mineral mining and construction
mineral mining, both parties agree “end-use” is a large
difference. In this case, the industrial sand mining
would be used in “frac” markets, whereas construction
sand mining would not. Regardless of the characteristics of the sand being mined itself, the two different
types of mining fuel two different markets for the sand.
The U.S. Supreme Court addressed a similar matter in 1961 wherein the court examined a tax assessed
for fish sent to freezer ships. Alaska v. Arctic Maid, 366
U.S. 199 (1961). The same tax was not assessed for fish
sent to on-shore freezer facilities even though it came
from the same water. Even though the product in both
cases shared the same characteristics and was found
from the same area, because the freezer ships served

App. 142
outside markets and the on-shore freezers served local
markets, the commerce clause was not implicated.
The Plaintiffs’ acknowledge their proposed industrial silica sand mining operations are not going to
serve local markets. Mr. Frick of Minnesota Sands
acknowledged as much by Affidavit. Indeed, Plaintiffs’
argument regarding how this Ordinance Amendment
violates the Commerce Clause rests partly on the idea
that national markets that would not be serviced by
construction sand mining would be hindered if industrial sand mining were prohibited. Meanwhile Plaintiffs argued both orally and by brief that construction
sand mining exists solely to benefit local markets, rather than the national markets industrial sand mining
would benefit. Because the statute does not benefit a
local competitor in a market over an outside competitor in the same market, despite mining similar product
in Winona County, the Commerce Clause is not implicated.
Plaintiffs fail to show the Ordinance Amendment
discriminates against or excessively burdens interstate commerce as well. In order to make such a showing, Plaintiffs must demonstrate that there is a facially
differential treatment of in-state and out-of-state interests. Oregon Waste vs., Inc. v. Dep’t of Env. Quality of
Oregon, 511 U.S. 93, 99 (1994). Examples include
higher fees levied against out-of-state operators versus
in-state operators (Oregon Waste Sys., Inc. v. Dep’t of
Env. Quality of Oregon, 511 U.S. 93, 99 (1994), or bans
on selling products outside a state (Hughes v. Oklahome, 441 U.S. 322 (1979).

App. 143
Here, no such distinction exists. On its face, the
Ordinance Amendment does provide language referring to construction mineral mining for “local construction purposes”, but the “local” purposes are never
defined any further and could include inter-state markets, such as Wisconsin. Even still, “local construction
purposes” as a phrase speaks not as to who is or is not
allowed to operate, rather it speaks to the purpose for
the product, which, again, could still be inter-state rather than only in Winona County. Even if it did, the
U.S. Supreme Court has upheld preservation of resources for use within a state to the detriment of interstate markets. Sporhase v. Nebraska, 458 U.S. 941
(1942). Because there is no implication of the Commerce Clause, and even if there were implication, no
burden on interstate commerce, Plaintiffs’ claim as to
the Commerce Clause fails.
H.

The Ordinance Amendment
Effects No Taking.

Where a governmental regulation deprives an
owner of real property of all economically beneficial
use, the owner is entitled to just compensation consistent with the Fifth Amendment. Lucas v. S. Carolina
Coastal Council, 505 U.S. 1003 (1992). When the land
use regulation substantially advances a state interest,
a taking is not effected. Id. In cases of reasonable land
use regulations, a taking is not found. Murr v. Wisconsin, 137 S. Ct. 1933, 1946 (2017). Policy behind such
case law seeks to balance the individual’s right to retain the interests and exercise the freedoms at the core

App. 144
of private property ownership and the government’s
power to adjust rights for the public good. Id., at 1937.
However in order for a party to allege a taking, there
must first be a previously existing right to engage in
the restricted activity. Outdoor Graphics, Inc. v. City of
Burlington Iowa, 103 F.3d 690, 694 (8th Cir. 1996). In
cases where no existing right to perform an activity
ever existed, there is no taking. Wensmann Realty, Inc.
v. City of Eagan, 734 N.W.2d 623, 635 (Minn. 2007).
Here none of the Plaintiffs ever possessed any
right to engage in industrial mineral mining. Mining
in certain areas in Winona County, particularly the areas Plaintiffs proposed mining in, is conditional use.
All parties agree that prior to obtaining such a right,
the Plaintiffs must first pass the permit process before
engaging in any mineral mining. Without such a right,
a taking is not effected.
Additionally, Plaintiffs, specifically Minnesota
Sands, fail to show that the property owned or leased
is deprived of “all economic value”. While industrial
mineral mining is disallowed, construction mineral
mining is allowed, provided a permit is granted.
Through such a process, economic value still exists.
While Minnesota Sands would not obtain as much
money as they would have preferred from their leases
through this process, their argument that their lease
is now deprived of “all economic value” is disingenuous
given these facts.

App. 145
I. This Ordinance Does Not
Violate Minn. Stat. § 394.25 Subd. 3.
Minn. Stat. § 394.25 Subd. 3 provides that all restrictions and protective measures applicable to each
class of land or building for each type of zoning district
be uniform across the entirety of the zoning district.
Plaintiff Minnesota Sands argues that the Winona
County ordinance violates this statute by exempting
parties engaged in construction sand mining from the
same restrictions as industrial sand mining. As explained above, the distinction between construction
and industrial mineral mining is a uniform distinction
that applies to the entirety of Winona County. Given
the regulation is uniform for the applicable zoning districts, the Ordinance conforms to Minn. Stat. § 394.25.
Even if the Ordinance were to somehow violate
Minn. Stat. § 394.25 Subd. 3, a Civil Statute does not
give rise to a private cause of action for the damages
Minnesota Sands seeks unless the statute expressly or
implicitly creates a cause of action. Mut. Serv. Casualty
Ins. Co. v. Midway Massage Inc., 695 N.W.2d 138, 142
(Minn. App. 2005). In determining whether a cause of
action is implied by statute, the Court looks to 1)
whether the plaintiff belongs to the class for whose
benefit the statute was enacted; 2) whether the legislature indicated an intent to create or deny a remedy;
3) whether implying a remedy would be consistent
with the underlying purposes of the legislative enactment. Cort v. Ash, 422 U.S. 66, 78 (1975).

App. 146
Here, no such action is made available on the face
of the statute. Plaintiffs make no attempt to show they
belong to the class for whose benefit the statute is enacted. There exists nothing within the record indicating that the legislature intended to create or imply a
remedy for violation under this statute. This Court’s
review of available precedent indicates that it can intervene under this statute for a private cause of action
when a county’s ordinance authorizes this Court to do
so. Toby’s of Alexandria, Inc. v. County of-Douglas, 545
N.W.2d 54 (Minn. App. 1996). No such ordinance exists
here. Without any showing otherwise, this Court must
find that there is no private cause of action to enforce
Minn. Stat. § 394.25.
M.C.L.

App. 147
[LOGO] Winona County

Board of County
Commissioners
2016 County Board Goals
Meeting Agenda
Engaged Citizens. Work
Winona County
collaboratively, encourage
Board Room
broad public participation,
Government Center,
advance transparency, and
177 Main Street
provide open access to govern- Winona, MN 55987
ment services and functions.
January: 1st, 2nd
Healthy Infrastructure.
Tuesday, 9 AM; & 4th
Maintain or improve the
Tuesday, 7 PM
overall condition, quality or
February-December:
health of internal and exter2nd
Tuesday, 9 AM; &
nal assets including roads,
4th Tuesday, 7 PM
bridges, buildings, technology
and employees.
Sound Fiscal Policy.
While continuing to deliver
quality services, strive to
reduce or eliminate the
structural deficit and lower
the local tax burden.
April 26, 2016

#2016-9
CLOSED SESSION – 6:00 p.m.
Pursuant to Minn. Stat. 13D.05,
Subd. 3b, as Permitted by the
Attorney-Client Privilege to Discuss Litigation Strategy of Duane
Hebert versus Winona County,
et. al.

App. 148
1. CALL TO ORDER – 7:00 p.m.
1.1 Pledge of Allegiance
2. PUBLIC COMMENT
(2 min per speaker – 10 Minute Total)
3. APPROVAL OF COUNTY BOARD
MINUTES
3.1 April 12, 2016 ........................ p. 8
4. CONSENT COMMENTS &
APPROVAL OF AGENDA
5. CONSENT BUSINESS
Auditor5.1 Approve LG220 Gambling
Treasurer
Applications for Exempt
Permits – Winona ORC
Industries, Friends of
Ridgeway Fire Department,
Breastfest .............................. p. 14
Community
5.2 Approve Monthly ResoluServices
tion ........................................ p. 21
Highway
5.3 Award Annual Supply of
Gas and Diesel ...................... p. 27
Highway
5.4 Approve Amendment 1 to
Agreement 03603 and
Resolution for Lewiston
Safe Routes to School Project,
SP 085-591-004 ..................... p. 28
Planning &
5.5 Approve Renewals for
Env. Services
2016 Solid Waste Haulers .... p. 47
Planning &
5.6 Approve Agreement with
Env. Services
HBC, Inc. to Recapture
Broadband Cash Match ........ p. 48

App. 149
Planning &
Env. Services

5.7 Approve Agreement for
Professional Services
between Whitewater Joint
Powers Board and Winona
County ................................... p. 51

County
Attorney

5.8 Approve Professional Services
Agreement with Family and
Children’s Center to Provide
Urinalysis Testing for Drug
Court Participants ................ p. 65
5.9 Confirm Payment of Disbursements ........................... p. 71

Finance

6. GENERAL BUSINESS
County
6.1 Approve Resolution for
Attorney
Winona County to Join the
“White House Data-Driven
Justice Initiative” ................. p. 72
Administra6.2 Discuss and/or Appoint
tion
Citizen Advisory Committee
Applicants and Approve Recruitment to Fill Remaining
Vacancies ............................... p. 75
Planning &
6.3 Approve Resolution to ReEnv. Services
quire Delinquent Property
Taxes be Paid as a Condition
of Acceptance of a Permit
Application ............................ p. 76
Planning &
6.4 Approve Resolution of SupEnv. Services
port for Community Engagement Grant Application........ p. 78
County
6.5 Discuss the Topic of a Frac
Board
Sand Ban ............................... p. 81

App. 150
7. COMMITTEE REPORTS/
COMMUNICATIONS
8. ADJOURN
WINONA COUNTY BOARD OF COMMISSIONERS
First District
Second District Third District
Jim Pomeroy
Marie Kovecsi
Steve Jacob
85 Rivers Lane
133 Whispering 13377 Jacob Lane
Winona MN 55987 Lane
Altura MN 55910
Winona MN 55987
Fourth District
Greg Olson
216 Grand St
Winona MN 55987

Fifth District
Marcia Ward
30978 Four Farms Rd
Dakota, MN [Illegible]
(507) 643-6389

[LOGO] Winona County REQUEST FOR COUNTY
BOARD ACTION
Items must be received
in the Administrator’s
Office by 12:00 Noon
the Tuesday prior to
the scheduled meeting
to be considered.
Item#
6.5
Assigned by Administrator
Consent:
⬜
General:
☒

App. 151
Meeting Date:

April 26, 2016

Department:

County Board

Item Requested: Discuss the Topic of a Frac SandBan
=========================================
Summary of the Issue:
Per the request of Commissioner Olson and second by
Commissioner Pomeroy at the April 12, 2016, County
Board meeting, to place the topic of a frac sand ban on
the next County Board meeting for discussion. Attached is the proposed Zoning Ordinance amendment
recommended by the Land Stewardship Project.
Recommendation:
Discuss the topic of a frac sand ban.

VII.

Appendix A. Model Ordinance Language
WINONA COUNTY
ZONING ORDINANCE AMENDMENT
REGARDING FRAC SAND

CHAPTER 4: RULES AND DEFINITIONS
4.2 Definitions – AMEND TO ADD THE FOLLOWING:
FRAC SAND: Silica sand that, when processed, is
suitable for use as a proppant for the exploration,
drilling, production, and recovery of oil and gas
and that is intended to be sold or used as such.

App. 152
Frac sand does not include silica sand that is intended to be sold or used for construction, agriculture, or other applications where its use is other
than as frac sand.
FRAC SAND OPERATIONS: Includes each and all of
the following:
(a) Excavation and mining, including but not limited to any process or method of digging, excavating, mining, drilling, blasting, tunneling,
dredging, stripping or removing frac sand
from the land surface or underground. Excavation and mining applies to all activities occurring at excavation or mining sites,
including sites commonly identified as quarries and sand or extraction pits.
(b) Processing, including but not limited to preparation, processing, washing, cleaning, screening, filtering, crushing, drying, sorting, and
refining of all excavated, mined, stockpiled,
stored, or other frac sand either at the mining
site or at any other site within Winona
County.
(c) Storing or stockpiling of all excavated, mined,
or other frac sand either at the mining site or
at any other site within Winona County.
(d) Hauling or transport, including but not limited to the loading, unloading, transfer, hauling, moving, and transporting of frac sand at
or from a mining site, transfer facility, or other
site within Winona County by rail, barge,
truck, or other means of transport.

App. 153
The term “frac sand operations” does not apply to
the excavation and mining, processing, storage,
hauling, or transport of silica sand that is intended
to be sold or used for construction, agriculture, or
other applications where its use is other than as
frac sand.
CHAPTER 10: ZONING DISTRICTS – AMEND TO
ADD THE FOLLOWING:
10.11 Uses Prohibited in All Districts
1. The following uses are prohibited in all zoning districts:
(a) Frac sand operations
2. This section does not apply to any use legally established prior to the adoption of this Section 10.11.
Any change to an established use shall, however, be
done in accordance with the provisions of this Section
10.11.

App. 154
[LOGO] Winona County REQUEST FOR COUNTY
BOARD ACTION
Items must be received
in the Administrator’s
Office by 12:00 Noon
the Tuesday prior to
the scheduled meeting
to be considered.
Item#
7.7
Assigned by Administrator
Consent:
⬜
General:
☒
Meeting Date:

August 23, 2016

Department:

Planning & Environmental Services

Item Requested: Receive Planning Commission’s
Recommendation of Modified
Proposed Amendment to the
Winona County Zoning Ordinance
to Restrict Certain Mining and
Processing of Silica Sand and
Schedule a Public Hearing on
the Modified Amendment
=========================================
Summary of the Issue:
On August 11, 2016, the Winona County Planning
Commission voted at its meeting to recommend the
modified proposed amendment to the Winona County
Zoning Ordinance (WCZO). The County Board needs

App. 155
to formally receive the Planning Commission’s recommendation at its August 23, 2016 meeting. Pursuant to
WCZO, Section 5.4.3 (5), the next step is for the County
Board to set the matter for a public hearing on the proposed amendment as modified by the Planning Commission.
Background:
On June 14, 2016, the Winona County Board of Commissioners referred a proposed amendment to the
WCZO relating to industrial mining operations to the
Winona County Planning Commission. On June 30,
2016, the Winona County Planning Commission
opened a public hearing on the proposed amendment.
The hearing was continued to July 21st, August 8th,
and August 11th. At the August 11th hearing, the
Planning Commission recommended to the County
Board the proposed amendment be modified with
changes as indicated on Attachment 1. The next step,
as required by Minnesota Statutes and the WCZO, is
for the County Board to receive the Planning Commission’s recommendation. Once the Board receives the
recommendation, there is no set deadline for acting on
it, but WCZO 5.4.3 (5) and Minnesota Statutes 375.51,
subdl, require a county board to hold a public hearing
before the enactment of any ordinance to adopt or
amend an official control (as is contemplated by the
proposed amendment to the WCZO). The public hearing must be noticed according to requirements of the
WCZO and applicable state statutes.

App. 156
Funding:
N/A

WINONA COUNTY
ZONING ORDINANCE AMENDMENT
REGARDING INDUSTRIAL
MINERAL OPERATIONS
CHAPTER 4: RULES AND DEFINTIONS
4.2 Definitions – AMEND TO ADD THE FOLLOWING:
CONSTRUCTION MINERALS: The term “construction minerals” includes natural common rock, stone,
aggregate, gravel and sand that is produced and used
for local construction purposes, including road pavement, unpaved road gravel or cover, concrete, asphalt,
building and dimension stone, railroad ballast, decorative stone, retaining walls, revetment stone, riprap,
mortar sand, construction lime, agricultural lime and
bedding sand for livestock operations, sewer and septic
systems, landfills, and sand blasting. The term “construction minerals” does not include “industrial minerals” as defined below.
INDUSTRIAL MINERALS: The term “industrial
minerals” includes naturally existing high quartz level
stone, silica sand, quartz, graphite, diamonds, gemstones, kaolin, and other similar minerals used in
industrial applications, but excluding construction

App. 157
minerals as defined above. Industrial minerals may be
used, among several industrial uses, as a proppant for
the hydraulic fracturing of shale for the exploration,
drilling, production, and recovery of oil and gas. Silica
sand is categorized as an industrial mineral by the
Minnesota Department of Natural Resources and the
North American Industry Classification System under
classification no. 212322.
PROCESSING OF INDUSTRIAL MINERALS. The
term “processing of industrial minerals” includes the
processing, washing, cleaning, screening, filtering, sorting, stockpiling and storage of all excavated or mined
industrial minerals, whether at the mining site or
other place in Winona County.
INDUSTRIAL MINERAL OPERATIONS: Includes
each and all of the following:
(a) Excavation, extracting, and mining, including
but not limited to any process or method of
digging, excavating, mining, drilling, blasting,
tunneling, dredging, stripping or removing
industrial minerals from the land surface
or underground. Excavation, extraction, and
mining applies to all activities occurring at
excavation, extraction, or mining sites, including sites commonly identified as quarries and
sand or extraction pits.
(b) Processing, including but not limited to preparation, processing, washing, cleaning, screening, filtering, crushing, drying, sorting, and
refining of all excavated, mined, stockpiled,
stored, or other industrial minerals either at

App. 158
the mining site or at another site within
Winona County.
(c) Storing or stockpiling of all excavated, extracted mined, or other industrial minerals
either at the mining site or at any other site
within Winona County.
(d) Hauling or transport, including but not limited to the loading, unloading, transfer, hauling, moving and transporting of industrial
minerals at or from a mining site, transfer facility, or other site within Winona County by
rail, barge, truck, or other means of transport.
REPLACE THE DEFINITION OF “MINING” TO THE
FOLLOWING:
EXCAVATION, EXTRACTION, AND MINING: The
terms “excavation, extraction, and mining” include but
are not limited to (i) any process or method of digging,
excavating, mining, drilling, blasting, tunneling,
dredging, stripping, or removing metals, minerals, or
materials from the land surface or underground, (ii)
the processing, washing, cleaning, screening, filtering,
sorting, stockpiling and storage or all excavated, extracted, or mined minerals and materials, and (iii) the
removal and transportation of all excavated, extracted
and mined minerals and materials. The terms “excavation, extraction, and mining” apply to all activity occurring at excavation, extraction, or mining sites,
including sites identified as quarries and sand pits.

App. 159
CHAPTER 9.10 EXTRACTION PITS/LAND ALTERATIONS-AMEND THE FOLLOWING SECTIONS TO READ AS FOLLOWS:
AMEND 9.10 TO READ AS FOLLOWS:
CHAPTER 9.10 EXCAVATION, EXTRACTION
PITS, MINING AND LAND ALTERATIONS
9.10. A. PURPOSE: Winona County developed and
adopted an extensive comprehensive land use plan
in 2014. The Comprehensive Plan requires Winona
County to among, other things, recognize the cultural
and economic importance of agriculture to the community, support, maintain and sustain the vitality of
family farms, promoting policies that support Winona
County’s strong tradition of locally owned agricultural
operations and the administration of best management practices that consider the conservation of soil,
water quality, economic viability, innovative practices,
the promotion of local food systems and the stewardship of the land and its resources to retain the viability
of agriculture for future generations. The Comprehensive Plan also requires Winona County to value the
importance of sound environmental practices that promote the efficient use of all natural resources. The use
of resources should promote responsible stewardship
through sound conservation practices, regulate exploration and drilling operations to minimize pollution
problems and the impact on agricultural areas and
environmentally sensitive areas, maintain, protect
and improve the quality of groundwater resources particularly the high-yielding aquifers used for drinking

App. 160
water and connected to surface hydrological features
and promote land management practices by all levels
of government that protect the natural resources in
the County, including streams, rivers, wetlands, aquifers recharge areas, woodland and forests, bluffs and
agricultural areas. This section on excavation, extraction pits, and mining is to protect natural landscapes
from excessive excavation and mining activity; protect
water resources, aquifers, streams, and rivers from excessive contamination and appropriation; minimize
soil erosion; protect agricultural land and farming activity; protect existing recreational and tourism businesses; protect residents’ health, safety and general
welfare, prevent the industrialization of agricultural,
open space and residential communities; minimize
road and bridge damage from high volume and heavy
truck traffic hauling industrial minerals, and minimize land use conflicts.
9.10. B. Industrial Mineral Operations are Prohibited. Industrial mineral operations, which includes the excavation, extraction, mining and
processing of industrial minerals are prohibited in
Winona County. This prohibition does not apply to any
use legally established prior to the adoption of this Section 9.10.8. Any change to an established use shall,
however, be done in accordance with the provisions of
this section and or Section 10.11.

App. 161
CHAPTER 10: ZONING DISTRICTS AMEND TO
ADD THE FOLLOWING:
10.11 Uses Prohibited in All Districts
1. The following uses are prohibited in all zoning districts:
(a) Industrial Mineral Operations
2. This section does not apply to any use legally established prior to the adoption of this Section 10.11.
Any change to an established use shall, however, be
done in accordance with the provisions of this Section
10.11.
1.

No new or proposed expanded project for the excavation or mining of industrial minerals shall exceed 40 acres in total boundary size of the property
to be excavated or mined, without reclamation of
previously mined acreage.

2.

No more than 6 mining sites for the excavation
and mining of industrial minerals, excluding all
existing construction minerals mining sites, shall
be allowed at any time in Winona County. If 6 mining sites for the excavation and mining of industrial minerals are in operation at any time, now
permit will be issued to any proposed new projects
for the excavation and mining of industrial minerals until at least 1 of the existing mining sites becomes officially inactive and is no longer permitted
in Winona County.

3.

This section does not apply to any use legally established prior to the adoption of this Section
10.11. Any change to an established use shall,

App. 162
however, be done in accordance with the provisions of this Section 10.11.

Recommendation:
Receive Planning Commission’s recommendation of
the modified proposed amendment to the Winona
County Zoning Ordinance to restrict certain mining
and processing of silica sand and schedule a public
hearing on the modified amendment.

App. 163
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF WINONA

THIRD JUDICIAL
DISTRICT

Southeast Minnesota
Property Owners, a Minnesota Nonprofit Corporation,
and Rog Dabelstein,
Plaintiffs,

Case Type: Declaratory
Judgment/Injunction
Court File No.:
85-cv-17-516
Judge Mary C. Leahy

v.
County of Winona, Minnesota,
a political subdivision of the
State of Minnesota,
Defendant.
Minnesota Sands, LLC,
Plaintiff,
v.
County of Winona, Minnesota,
a political subdivision of the
State of Minnesota,
Defendant.

Case Type: Civil Other
Court File No.:
85-cv-17-771
Judge Mary C. Leahy

App. 164
AFFIDAVIT OF JOHN DUSTMAN
STATE OF MINNESOTA

)
) SS.

COUNTY OF HENNEPIN )
John Dustman, declares and affirms as follows:
Background
1. I have been working on mining and groundwater issues in Minnesota for over 30 years. I have focused on developing technologies for the mining and
water industry and on building data platforms and
software to better visualize environmental conditions.
2. I am also the co-founder of Summit Envirosolutions Inc., a consulting firm providing comprehensive environmental services using state-of-the-art
environmental management information services to
evaluate and provide scientifically based direction on
projects associated with all types of environmental impacts.
3. I have worked in the mining industry for 20
years and have been involved in assessing and mitigating environmental impacts at mines across the United
States.
4. I was the Principal-in-Charge of mining projects in Montana, Nevada, Minnesota, Wisconsin, and
North Carolina including precious metals, iron ore, industrial sand, and proppant. Representative clients include US Steel, 3M, Barrick Gold, Cleveland Cliffs,

App. 165
Evelyth Mines, Aggregate Industries, Hi-Crush Proppants, Carbo Ceramics, and Chieftain Sand.
5. I earned a Bachelor of Science degree in Geology from Montana State University.
6. I am a registered Professional Geologist in the
State of Minnesota.
Silica Sand
7. The silica sand that is widely available in
Winona County comes from the two primary formations; the St. Peter Sandstone and the Jordan Sandstone.
8. Of the “industrial minerals” identified in the
Ordinance Amendment, silica sand is the only industrial mineral that I know to exist in Winona County in
significant enough volumes to create a significant demand to mine.
9. The process to mine silica sand, when used as
a proppant in hydraulic fracturing, and silica sand,
when used in the manufacture of glass, filter media, or
as a construction or bedding material does not differ in
any material way.
10. Similarly, the composition of the two types of
sand can be, and often is, the same.
11. One use for silica sand, commonly referred to
by the oil and gas industry as “frac sand,” is as a proppant in oil and gas production activities.

App. 166
12. In recent years, technology has advanced to
the point where oil and gas wells can use a combination of directional drilling and a hydraulic fracturing
process (commonly known as fracking) to take previously unproductive tight geologic formations (e.g.,
sandstone, shale, and carbonate) and convert them
into large, productive reservoirs.
13. In these formations, the fracking process
pumps a mixture that includes water and sand into formations under high pressure to release trapped reserves of hydrocarbons.
14. The pressurized “hydraulic” mixture “fractures” portions of the formation and the sand props or
keeps the fractures open so that gas and oil flow from
the formation to the well.
15. Sand and man-made materials used to prop
these fractures open are known as “proppants.”
16. While the silica sand found in Winona
County is an excellent proppant in the hydraulic fracturing process, the oil and gas production activities in
which Minnesota silica sand is ultimately used are outof-state, as there is not a significant oil or gas reserve
in Minnesota.
Work for Minnesota Sands
17. I was retained by Minnesota Sands in May of
2012 to provide environmental and geological analysis
and consulting. Initially our firm was retained to provide field services associated with characterizing

App. 167
deposits of silica sand on properties in Houston,
Winona, and Fillmore Counties. We then worked with
other Minnesota Sands consultants to begin the environmental review process at selected properties.
18. In 2013, my firm was selected to work with
the Minnesota Environmental Quality Board (EQB) to
supply data for an Environmental Impact Statement
(EIS).
19. Minnesota Sands currently holds leases to
over 3,500 acres of land in southern Minnesota with
over 250 million tons of high quality, monocrystalline
silica sand that meets the American Petroleum Institute (API) specifications for use as a proppant in the
hydraulic fracturing of oil and gas wells.
20. The sand includes 20/40 (850-425μm), 30/50
(600-300μm), 40/70 (425-212μm), and 70/140 (210106μm) sand that can be used in both shallow and deep
settings and has crush resistance as high as 12,000 psi.
This crush resistance is unusually high and increases
the demand for and value of the sand.
Minnesota Sands’ Assets in Winona County
21. On each of the six leased sites in Winona
County, Minnesota Sands has identified sand that
meets the American Petroleum Institute (API) specifications for use as a proppant in the hydraulic fracturing of oil and gas wells. Although found in abundance
in Winona County, this sand is unique and valuable because it has high crush resistant, sphericity and

App. 168
roundness, low turbidity, and a preferred grain size,
making it extremely valuable for use in energy production.
22. As part of my work for Minnesota Sands, I
have analyzed the scope of the silica sand available for
Minnesota Sands to mine pursuant to its leases.
23. This analysis suggests that there is
23,464,270 tons of silica sand present on the Thomas
and Janet Campbell lease site.
24. This analysis suggests that there is
36,547,056 tons of silica sand present on the Roger
Dabelstein lease site.
25. This analysis suggests that there is
16,617,924 tons of silica sand present on the Toby and
Barbara Detweiler lease site.
26. This analysis suggests that there are
79,066,781 tons of silica sand present on the Harry E.
Kesler Trust and the Jane J. Kessler Trust lease site.
27. This analysis suggests that there is
18,179,931 tons of silica sand present on the Daniel
and Annie Yoder lease site.
28. This analysis suggests that there is
41,387,308 tons of silica sand present on the William
and Ida Yoder lease site.

App. 169
Environmental Review
29. Over the course of my career, I have been involved in the environmental review and/or permitting
of over 30 mines.
30. Because of the ban on silica sand mining for
use as a proppant in Winona County, it is not feasible
or prudent for Minnesota Sands to invest in additional
environmental review involving Winona County until
the ban is lifted.
31. While Minnesota Sands would likely be required to prepare an EAW for a proposed mining project in Winona County pursuant to Minn. Stat.
§ 116C.991(a), it is possible that Minnesota Sands
would not be required to complete an EIS if its proposed mining plan did not meet the mandatory EIS
categories outlined in state law and the RGU determined that the project did not have the potential for
significant environmental effects.
32. Whether the RGU would require as EIS for
any future proposed mining project in Winona County
is dependent on the scope of the proposed mining in
Winona County and its relationship to related or
phased actions.
Sand Mining Generally
33. The size of a sand mine, whether it be a silica
sand for use as a proppant or a sand and gravel mine
for construction materials, is driven by market demand, which changes over time, the size of the

App. 170
applicable mineral deposits, and the permitting conditions placed on the mining operation by state and local
permitting authorities.
34. Although most mines do not typically publicly disclose their annual production volumes, I am
aware of frac sand mines in close proximity of Winona
County that produce less than 200,000 tons of sand
sold as a proppant.
35. I am also aware of sand and aggregate mining operations in the region that produce millions of
tons of product per year.
36. There is nothing inherent in a frac sand
mine, or the methods typically employed to mine it,
that would require it to be larger in size or scope than
a sand and gravel mine producing product for construction purposes.
37. The permitting process often dictates the size
of a mine as well. In many jurisdictions, the size of any
type of mine is limited by zoning ordinances or the conditions placed on the mine through permitting.
38. I am aware of the quality and properties of
the silica sand mined at the Nisbit Saratoga Township,
Winona County. This silica sand is of an excellent quality and meets the American Petroleum Institute’s specifications for use as a proppant.

App. 171
39. I declare under penalty of perjury that everything I have stated in this document is correct.
DATED: July 24, 2017
/s/ John E. Dustman
John Dustman

App. 172
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF WINONA

THIRD JUDICIAL
DISTRICT

Southeast Minnesota
Property Owners, a Minnesota Nonprofit Corporation,
and Rog Dabelstein,
Plaintiffs,

Case Type: Declaratory
Judgment/Injunction
Court File No.:
85-cv-17-516
Judge Mary C. Leahy

v.
County of Winona, Minnesota,
a political subdivision of the
State of Minnesota,
Defendant.
Minnesota Sands, LLC,
Plaintiff,
v.
County of Winona, Minnesota,
a political subdivision of the
State of Minnesota,
Defendant.

Case Type: Civil Other
Court File No.:
85-cv-17-771
Judge Mary C. Leahy

App. 173
AFFIDAVIT OF RICHARD FRICK
STATE OF MINNESOTA

)
) SS.

COUNTY OF HENNEPIN

)

Richard Frick, declares and affirms as follows:
1. I currently reside in Dakota, Minnesota which
is in Winona County.
2. My background is in farming, trucking and,
most recently, in agricultural transportation, logistics,
and facilities operations.
3. As I worked in transloading trucks and railcars, I learned about the role and value of certain types
of silica sand in the oil and gas industry.
4. In 2011, having lived in the region for all of my
life and having learned much about the regional geology, I began locating and testing potential sand mine
sites.
5. This testing confirmed that sand from certain
sites in the area had qualities and characteristics that
make it ideal for use in hydraulic fracturing.
6. I built strong relationships with landowners,
all of whom are farmers, that I identified had access to
value sand deposits and began executing mineral
leases to mine silica sand for use as a proppant in hydraulic fracturing.

App. 174
Minnesota Sands, LLC
7. As a result I created Minnesota Sands, LLC
(“Minnesota Sands”) in 2012.
8. As a principal equity contribution to the new
company, I assigned all of my Winona County mineral
leases to Minnesota Sands in 2012.
9. Minnesota Sands acquires, owns, and develops
silica deposits to produce custom sand proppants using
high quality Minnesota quartz and substrates for customers in the energy industry.
10. The mineral leases held by Minnesota Sands
allow the company to use the leased premises solely to
mine frac sand to be used by Minnesota Sands for commercial purposes.
11.
Sands.

I still serve as the President of Minnesota

Winona County Property Interests
12. In Winona County, Minnesota Sands currently maintains six leases to mine silica sand and
holds two purchase agreements granting it an option
to secure a rail transloading site.
13. I negotiated the terms of all of these leases
and purchase agreements, originally on my own behalf
and eventually on behalf of Minnesota Sands.
14. I entered into a lease with Thomas and Janet
Campbell on November 22, 2011 and assigned the

App. 175
lease to Minnesota Sands on February 24, 2012. Relevant terms of the lease include:
a.

¶ 1: “The landlord, in consideration of the
rent, agreements, and conditions contained
herein, leases to the Tenant and Tenant leases
from Landlord, for the sole purpose of removing Frac Sand[.]”

b.

¶ 5(a): “Tenant may use the Premises solely to
mine Frac Sand to be used by Tenant for commercial purposes.”

c.

¶ 8: “Landlord represents that it has not previously leased or assigned the mineral rights
to the premises to any other party and covenants not to lease, grant or assign the mineral
rights to the premises described above, during
the term of this lease.”

15. I entered into a lease with Roger Dabelstein
on November 18, 2011 and assigned the lease to Minnesota Sands on February 24, 2012. Relevant terms of
the lease include:
a.

¶ 1: “The landlord, in consideration of the
rent, agreements, and conditions contained
herein, leases to the Tenant and Tenant leases
from Landlord, for the sole purpose of removing sand[.]

b.

¶ 5(a): “Tenant may use the Premises solely to
mine Frac Sand to be used by Tenant for commercial purposes.”

c.

¶ 8: “Landlord represents that it has not previously leased or assigned the mineral rights

App. 176
to the premises to any other party and covenants not to lease, grant or assign the mineral
rights to the premises described above, during
the term of this lease.”
16. I entered into a lease with Toby and Barbara
Detweiler on Novemebr 21, 2011 and assigned the
lease to Minnesota Sands on February 24, 2012. Relevant terms of the lease include:
a.

¶ 1: “The landlord, in consideration of the
rent, agreements, and conditions contained
herein, leases to the Tenant and Tenant leases
from Landlord, for the sole purpose of removing sand[.]”

b.

¶ 5(a): “Tenant may use the Premises solely to
mine Frac Sand to be used by Tenant for commercial purposes.”

c.

¶ 8: “Landlord represents that it has not previously leased or assigned the mineral rights
to the premises to any other party and covenants not to lease, grant or assign the mineral
rights to the premises described above, during
the term of this lease.”

17. Minnesota Sands entered into a lease with
the Harry E. Kesler Trust and the Jane J. Kessler
Trust on November 20, 2015. Relevant terms of the
lease include:
a.

¶ 1: “The landlord, in consideration of the
rent, agreements, and conditions contained
herein, leases to the Tenant and Tenant leases
from Landlord, for the sole purpose of removing sand[.]”

App. 177
b.

¶ 5(a): “Tenant may use the Premises solely to
mine Frac Sand to be used by Tenant for commercial purposes.”

c.

¶ 8: “Landlord represents that it has not previously leased or assigned the mineral rights
to the premises to any other party and covenants not to lease, grant or assign the mineral
rights to the premises described above, during
the term of this lease.”

18. I entered into a lease with the Daniel and Annie Yoder on November 16, 2011 and assigned the lease
to Minnesota Sands on February 24, 2012. Relevant
terms of the lease include:
a.

¶ 1: “The landlord, in consideration of the
rent, agreements, and conditions contained
herein, leases to the Tenant and Tenant leases
from Landlord, for the sole purpose of removing sand[.]”

b.

¶ 5(a): “Tenant may use the Premises solely to
mine Frac Sand to be used by Tenant for commercial purposes.”

c.

¶ 8: “Landlord represents that it has not previously leased or assigned the mineral rights
to the premises to any other party and covenants not to lease, grant or assign the mineral
rights to the premises described above, during
the term of this lease.”

19. I entered in to a lease with the William and
Ida Yoder on November 18, 2011 and assigned the
lease to Minnesota Sands on February 24, 2012. Relevant terms of the lease include:

App. 178
a.

¶ 1: “The landlord, in consideration of the
rent, agreements, and conditions contained
herein, leases to the Tenant and Tenant leases
from Landlord, for the sole purpose of removing sand[.]”

b.

¶ 5(a): “Tenant may use the Premises solely to
mine Frac Sand to be used by Tenant for commercial purposes.”

c.

¶ 8: “Landlord represents that it has not previously leased or assigned the mineral rights
to the premises to any other party and covenants not to lease, grant or assign the mineral
rights to the premises described above, during
the term of this lease.”

20. Minnesota Sands has entered into a number
of purchase agreements with the Margaret Benedett
Trust to purchase approximately 220 acres of land in
St. Charles Township, Winona County for the purpose
of installing a drying and transloading facility. The
transloading facility would load and transport processed silica sand on rail car. The most recent purchase
agreement was executed on May 12, 2017.
21. Minnesota Sands has also entered into a
number of purchase agreements with Teresa Benedett
Farmer and Larry Farmer to purchase approximately
84 acres of land in St. Charles Township, Winona
County, adjacent to the land identified in the paragraph above, for the purpose of installing a drying and
transloading facility. The transloading facility would
load and transport processed silica sand on rail car.

App. 179
The most recent purchase agreement was executed on
May 12, 2017.
22. Pursuant to the explicit terms of the mining
leases held by Minnesota Sands, it may only mine frac
sand to be used for commercial purposes. This language was developed years before the Ordinance
Amendment was considered and was intended, in part,
to justify the maximum possible royalty for the landlords.
23. I am not aware of any other active mineral
leases in Winona County that are limited to frac sand
to be used for commercial purposes.
24. Pursuant to the terms of the Winona County
leases, Minnesota Sands maintains quiet enjoyment
and the sole rights to the minerals on the identified
premises for the terms of the leases. This language was
included so that no other party is allowed to mine the
minerals for as long as Minnesota Sands holds the
leases.
Investment in Winona County Assets
25. Minnesota Sands and I have worked very
hard since 2011 to secure and maintain the mineral
rights identified above and the necessary processing
and transportation infrastructure in the County to
support the mining activity.
26. Minnesota Sands has invested significant financial resources, as well as years of valuable and unreimbursed time, to obtain and maintain the leases

App. 180
identified above in anticipation of frac sand mining in
Winona County.
27. This level of investment of money and time
was only made by myself and others because we assumed that we would be able to mine sand for use in
hydraulic fracturing on its leased property, assuming
we followed well-understood environmental review
and permitting steps.
28. In addition to the fees paid to obtain the
leases, Minnesota Sandshas spent resources to sample,
test, and analyze the quality and characteristics of the
sand; acquire and maintain purchase options for a rail
and processing site and payment of associated property taxes; conduct environmental review activities;
and to develop operating plans.
29. While there is no existing valuation of these
investments, Minnesota Sands estimates that the
value is at least $2,595,500.00 based upon known expenditures related to the Winona County assets and
the actual value is likely significantly higher.
30. This financial investment includes $2.1 million to acquire Farm 2 Rail. The assets of this company
included the purchase options to acquire the processing and transloading site as well as the business
and engineering plans that had been developed to
date.
31. It also includes over $400,000 spent on environmental review and geological testing to access the
quality of the mineral deposits.

App. 181
Winona County Transloading Site
32. As part of the acquisition of Farm 2 Rail,
Minnesota Proppant, a subsidiary of Minnesota Sands,
acquired the Purchase Agreements originally held by
Farm 2 Rail with the Marguerite Benedett Trust and
Teresa Benedett Farmer in 2012.
33. These. Purchase Agreements have been extended a number of times by Minnesota Sands, most
recently on May 12, 2017.
34. As part of the terms of the Purchase Agreements, Minnesota Sands and its predecessors have
continuously paid the property taxes for the site.
35. Since 2012, Minnesota Sands has conducted
numerous community meetings related to the rail site,
began preparation of an EAW, and we worked with the
City of St. Charles, and its Mayor, Bill Spitzer, to explore options for annexation of the site by the City. The
goal of this annexation would be to better provide utility and other services to the site.
36. Further work to execute on the plans for the
rail site were postponed due to market conditions at
the time.
37. Minnesota Sands has spent significant resources obtaining plans to utilize the rail site and expanding upon those plans. Minnesota Sands proposed
the use of a slurry pipe that would pump sand from the
mining areas to the south and would reduce truck traffic, diesel fumes, and dust associated with sand transportation by at least 70 percent.

App. 182
38. In addition to beneficial impacts on the local
community, the slurry system would provide all necessary washing of the sand and would only require drying prior to sale to customers.
39. Minnesota Sands met with County officials,
including County Administrator Duane Hebert and
County Engineer David Kramer, to discuss this slurry
pipe proposal and received favorable feedback from the
County that it would provide necessary right-of-ways
to install the system.
40. Minnesota Sands has also worked with the
Canadian Pacific Railroad to design a track that will
support a significant volume without entering the
town of St. Charles.
41. I am aware that Minnesota Sands representatives held at least four meetings with the Canadian
Pacific Railroad to reach agreement on the scope of
switches to the mainline, on-site loop track design, and
inclusion of emergency ladder tracks.
42. The unit train-capable outbound facility will
have expandability and can support high volume loading to maximize locomotive and railcar utilization to
improve velocity on the Canadian Pacific Railroad.
Prior Environmental Review and Permitting
Efforts
43. In 2012, Minnesota Sands began the permitting and environmental review processes in the hope
of mining the assets in Winona County. As the

App. 183
company engaged in these activities, the market for silica sand crashed and we made the difficult decision to
postpose our efforts until the silica sand market improved.
44. On August 17, 2012, we submitted two Conditional Use Permits to Winona County to mine two
different sites, one consisting of 36.5 acres and a second consisting of 38.2 acres.
45. These two permit applications were put on
hold as environmental review took place.
46. Minnesota Sands worked with Winona
County to prepare Environmental Assessment Worksheets (EAWs) for the mines but was directed by the
County to seek an Environmental Impact Statement
(EIS) prior to submitting the permit request due to
other mining applications submitted by Minnesota
Sands in two other counties in Southern Minnesota.
47. Minnesota Sands began the EIS process for
all of its proposed mines but subsequently suspended
it due to disappointing and unfavorable market conditions for silica sand.
48. In late 2016 and 2017, the silica sand market
has drastically improved and is forecasted to remain
very strong for the foreseeable future.
Other Sand Mining Operations
49. In my years of experience in the mining industry I have seen a variety of sizes of sand mines and

App. 184
a variety of clients to whom these mines sell their products.
50. The recent volatility in the frac sand market
highlights for me that market demand really drives
the productivity and pace of mining. If the market is
saturated with product, frac sand mines simply won’t
be intensively mining sand.
51. Another driver for the size and intensity of
mining at any particular site is the permitting conditions placed on the mining operation by state and local
permitting authorities. In some counties, silica sand
mines are limited to 40 acres.
52. I am very familiar with the operations and
sand quality at the Nisbit Mine in Saratoga Township,
Winona County. The silica sand mined at the Nisbit
mine is the same quality of sand that Minnesota Sands
would mine to be sold as a proppant.
53. I am also aware that the Nisbit Sand is sold
for use as bedding material for livestock operations.
54. I have raised cattle in the past and I have
used silica sand as bedding material for calves. Sand
harbors less microbial growth versus other bedding options. Given the roundness and size consistency of silica sand, it causes less bruising and abrasions on the
animals than other types of sand and allows for proper
drainage of urine. The same characteristics that make
silica sand attractive as a proppant in hydraulic fracturing also makes it attractive for use as bedding sand
for livestock operations.

App. 185
Impact of the Ordinance Amendment on Minnesota Sands and Future Plans
55. The Ordinance Amendment has severely
harmed Minnesota Sands.
56. The Ordinance Amendment prohibits the excavation, extracting, and mining of all silica sand under lease by Minnesota Sands in Winona County.
57. The Ordinance Amendment also prohibits
the processing, storing, and stockpiling of silica sand
owned or mined by Minnesota Sands, regardless of its
source.
58. Accordingly, Minnesota Sands will either be
unable to process, store, or stockpile silica sand mined
outside of Winona County or it will incur significantly
higher costs to do so.
59. The leases that I worked so hard to acquire
and maintain on behalf of Minnesota Sands in Winona
County are now worthless.
60. Even if our Winona County leases allowed
Minnesota Sands to mine for “construction minerals,”
which they do not, such mining is not economically viable given the anticipated capital investments needed
to get these mines into operation.
61. The County has not provided Minnesota
Sands with any compensation for it taking of our property through its regulation and is unwilling to do so.
62. Since the Ordinance Amendment was passed
on in November 2016, Minnesota Sands has continued

App. 186
to expand and maintain its Winona County assets and
develop its mining plans.
63. However, we have been strategic about any
additional investment in permitting, licensing, or other
approval activity in Winona County because the Ordinance Amendment effectively masks it illegal to mine
silica sand for use as a proppant as well as the processing and transportation of that sand.
64. If the ban on the mining of silica sand for use
as a proppant is lifted, Minnesota Sands intends to
mine all of its leased properties in Winona County as
soon as practicable upon completion of required environmental review and permitting requirements.
65. Until that time, it is not feasible or prudent
for Minnesota Sands to invest in additional environmental review involving Winona County until the ban
is lifted.
66. Minnesota Sands also intends to execute the
purchase of the rail site subject to the terms of the Purchase Agreement as soon as practicable after the ban
has been removed.
67. Minnesota Sands intends to use the site to
build a sand drying and loading facility. both of which
are currently banned pursuant to the Ordinance
Amendment.
68. I am a proud resident of Winona County and
I would never participate in any activity that I believe
would damage the environment or harm my neighbors.

App. 187
69. In all of its operations, Minnesota Sands is
committed to be a good steward and operating its
mines and processing and transportation processes in
a sustainable and non-intrusive manner.
70. Minnesota Sands’ reclamation efforts will
ensure than mined land will result in beautifully restored prairies and farmland that will serve the recreational and agricultural needs of the community for
generations.
71. Minnesota Sands looks forward to working
with the County and stakeholders to address any concerns and to educate the community on how silica,
sand mining can be done safely and in collaboration
with other community interests and needs.
72. I declare under penalty of perjury that
even/thine I have stated in this document is true and
correct.
DATED: July 24, 2017
/s/ Richard Frick
Richard Frick

App. 188
[LOGO] Division of Lands and Minerals

March 2014

Silica Sands of Minnesota
WHAT IS SILICA SAND (FRAC SAND)? Silica
sand consists of well-rounded, sand composed of almost pure quartz grains. Quartz, or silicon dioxide
(SiO2), is the most common mineral found on the
Earth’s surface and is found in rocks like granite,
gneiss, and sandstone. The value of silica sand can be
significantly higher than sand and gravel used in the
construction industry. Silica sand is processed into frac
sand, a product used by the oil and gas industry.
WHERE IS SILICA SAND FOUND? Silica sand is
mined from Paleozoic-aged sandstones occurring in
portions of Minnesota, Wisconsin, Iowa, and Illinois. In
Minnesota, glacial drift and other bedrock layers commonly exist on top of the sandstone. Three sandstone
formations have potential for producing high quality
silica sand. The Jordan and Wonewoc sandstones are
the most sought after sources for frac sand, followed by
the St. Peter sandstone. Natural aggregates mined
from sand and gravel deposits do not meet the specification for frac sand.*

* Dustman, J.E., Gulbranson, B., Bell, P., Gregg, W., 2011:
Characteristics of high quality frac sand, and where to find it in
the upper Midwest., Geological Society of America Abstracts with
Programs, Vol. 43, No 5.

App. 189

WHAT TYPES OF INDUSTRIES USE SILICA
SAND? Silica sand has been mined in the Upper Midwest for over a century. Uses for this resource include
a variety of products and applications like glass-making,
abrasives, bedding for livestock, golf course sand traps,
and frac sand. Over the past decade, a sharp increase
in demand for silica sand corresponded with a rapid
expansion of shale oil and gas development. An extraction method called hydraulic fracturing is used to

App. 190
access oil and gas from shale and limestone bedrock
which can require approximately 10,000 tons of frac
sand per well.
WHAT IS THE STATUS OF SILICA SAND MINING IN MINNESOTA? Silica sand is found in the
southeastern portion of the state. Five mines are currently known to extract silica sand for industrial applications. An unknown number of silica sand mines
produce silica sand for construction and agricultural
uses. Silica sand mines producing frac sand may or
may not process the sand on-site. Off-site processing
plants that receive silica sand from various mining operations in Minnesota and Wisconsin are also found in
Minnesota.
HOW IS IT MINED? In Minnesota, all silica sand
mines that produce industrial and agricultural sand
operate as surface quarries using similar equipment as
aggregate mines. Both surface and underground mines
exist in other states.
WHAT IS “FRACKING”? “Fracking” is slang for hydraulic fracturing. Developed in 1947, hydraulic fracturing is a method used to increase the production of a
well. The hydraulic fracturing process for oil and gas
uses a mixture of proppant (usually frac sand), water,
and chemicals. The mixture is injected into a well under very high pressures. Small cracks form in the bedrock, frac sand “props” open the fissures, and conduits
form to allow the flow of fluids and gas within a well.
The average depth of an hydraulically fractured oil/gas
well is between 6000-9000 feet below the surface.

App. 191
IS FRACKING FOR OIL AND GAS OCCURRING
IN MINNESOTA? No. Sand used for hydraulic fracturing is mined and/or processed in Minnesota. The
sand is then transported out of the state by rail or
barge to oil and natural gas producing regions (e.g.
Western North Dakota, Pennsylvania, and Texas).
However, a method of hydraulic fracturing is used in
Minnesota to increase production of water wells
screened in certain types of bedrock.
WHY HERE? WHAT MAKES OUR SAND SO
UNIQUE? Even though sand is found all over the
world, the sandstones of the Upper Midwest have several unique physical properties (listed below). It is one
of a few known places on Earth where this resource
occurs, making it a globally desired commodity.
Composition: Sand usually contains many different rock types; however, silica sand consists of
nearly 95% quartz.
Strength: Quartz is a very hard mineral and able
to withstand high pressures produced during the
hydraulic fracturing process without breaking.
Shape: The sand grains are shaped like little ball
bearings allowing for oil and gas to flow between
individual grains without clogging the fractured
rock. It is very important that the round, unbroken
grain shape is preserved throughout mining, processing, and transporting the sand to the market.
Size: The sand grains are fairly uniform in size.
When washed and screened, the sands meet a precise grain-size distribution required for frac sand

App. 192
(specified by the American Petroleum Institute,
Recommended Practice 56):
PRODUCT

8/12

10/20

20/40

70/140

RANGE
OF GRAIN
SIZE DIAMETERS

2.38 to 2.00 to 0.84 0.84 to 0.42 210 to
1.68 mil- millimeter millimeter
105
limeter
microns

AGGREGATE
NAME

Fine
Very
Gravel to Coarse
Course Sand to
Sand
Course
Sand

Coarse
Sand to
Medium
Sand

Fine
Sand to
Very
Fine
Sand

NOTE: Ninety percent (by weight) of the total product
must fall within the specified range of grain sizes.
Washing significantly reduces silt and clay sized particles (less than 62.5 microns in diameter) so to not exceed a turbidity threshold of 250 FTU (Formazin
Turbidity Units).
WHO REGULATES SILICA SAND MINING?
Counties, townships, or municipalities are the responsible governmental unit (RGU) for administering permits to mine for silica sand. The DNR administers an
additional permit, Silica Sand Mining Trout Stream
Setback Permit, for silica sand mines within one mile
of a designated trout stream.
WHO ARE THE OTHER REGULATING AUTHORITIES? Depending on size and scope, the proposed mining operation may be subject to the following
state and federal permits and regulations:

App. 193
Department of Natural Resources (DNR)- Silica
Sand Trout Stream Setback Permit, Water Appropriation Permit; Public Waters Work Permit;
Burning Permit; and Endangered or Threatened
Species Taking Permit.
US Army Corps of Engineers- Section 404 Permit
(discharge of dredged or fill material or excavation
within waters and wetlands may require approval
of the US Army Corps of Engineers).
Environmental Quality Board (EQB)- Requires
environmental reviews in the form of an Environmental Assessment Worksheet (EAW) for operations excavating 40 or more acres of land at a
mean depth of 10 feet and Environmental Impact
Statement (EIS) for operations exceeding 160
acres.
Board of Water and Soil Resources (BWSR)- Wetland Conservation Act.
Pollution Control Agency (MPCA)- Section 401
Certification; Water Quality, and Air Quality Regulations.

Minnesota Department of Natural Resources
Division of Lands
and Minerals
Jess Richards,
Director

500 Lafayette Rd
Saint Paul,
Minnesota
55155-4045

Phone:
651-259-5959
Fax:
651-296-5939

App. 194
ADOPTION OF AMENDMENT TO WINONA
COUNTY ZONING ORDINANCE
1. On voice vote, motion carried 3 (Commissioners
Kovecsi, Pomeroy, Olson) to 2 (Commissioners Ward,
Jacob) in favor of adopting and enacting the attached
Winona County Zoning Ordinance Amendment Regarding the Mining and Processing of Industrial Minerals in Winona County.
I certify that the above Ordinance was adopted by the
Board of Commissioners of the County of Winona on
November 22, 2016.
SIGNED:

WITNESSETH:

/s/ Marie Kovecsi
/s/ Kenneth J. Fritz
Marie Kovecsi
Kenneth Fritz
Chair
County Administrator
Winona County Board
of Commissioner
11-22-16
Date

11-22-16
Date

Drafted and Approved
as to Form On
November 15, 2916 by

Approved as to Execution
on November 22, 2016 by

/s/ Karin L. Sonneman
Karin L. Sonneman
Winona County Attorney

/s/ Kevin L. Sonneman
Kevin L. Sonneman
Winona County
Attorney

App. 195
WINONA COUNTY
ZONING ORDINANCE AMENDMENT
REGARDING THE MINING AND
PROCESSING OF INDUSTRIAL
MINERALS IN WINONA COUNTY
CHAPTER 4: RULES AND DEFINTIONS
4.2 Definitions - AMEND TO ADD THE FOLLOWING:
CONSTRUCTION MINERALS: The term “construction minerals” includes natural common rock, stone,
aggregate, gravel and sand that is produced and used
for local construction purposes, including road pavement, unpaved road gravel or cover, concrete, asphalt,
building and dimension stone, railroad ballast, decorative stone, retaining walls, revetment stone, riprap,
mortar sand, construction lime, agricultural lime and
bedding sand for livestock operations, sewer and septic
systems, landfills, and sand blasting. The term “construction minerals” does not include “industrial minerals” as defined below.
INDUSTRIAL MINERALS: The term “industrial minerals” includes naturally existing high quartz level
stone, silica sand, quartz, graphite, diamonds, gemstones, kaolin, and other similar minerals used in industrial applications, but excluding construction
minerals as defined above.
Silica sand is categorized as an industrial mineral by
the Minnesota Department of Natural Resources and

App. 196
the North American Industry Classification System
under classification no. 212322.
“Silica sand” has the meaning given in Minnesota Statutes, section 116C.99, subd. 1(d): “ ‘Silica sand’ means
well-rounded, sand-sized grains of quartz (silicon dioxide), with very little impurities in terms of other minerals. Specifically, the silica sand for the purposes of
this section is commercially valuable for use in the hydraulic fracturing of shale to obtain oil and natural
gas. Silica sand does not include common rock, stone,
aggregate, gravel, sand with a low quartz level, or silica compounds recovered as a by-product of metallic
mining.” Minn. Stat. Section 116C.99, subd. 1(d).
“Silica sand project” has the meaning given in
Minnesota Statutes, section 116C.99, subd. 1(e): “ ‘Silica Sand project’ means the excavation and mining and
processing of silica sand; the washing, cleaning, screening, crushing, filtering, drying, sorting, stockpiling, and
storing of silica sand, either at the mining site or at
any other site; the hauling and transporting of silica
sand; or a facility for transporting silica sand to destinations by rail, barge, truck, or other means of transportation.” Minn. Stat. Section 116C.99, subd. 1(e).
PROCESSING OF INDUSTRIAL MINERALS. The
term “processing of industrial minerals” includes the
processing, washing, cleaning, screening, filtering, sorting, stockpiling and storage of all excavated or mined
industrial minerals, whether at the mining site or
other place in Winona County.

App. 197
INDUSTRIAL MINERAL OPERATIONS: Includes
each and all of the following:
(a) Excavation, extracting, and mining, including
but not limited to any process or method of
digging, excavating, mining, drilling, blasting,
tunneling, dredging, stripping or removing
industrial minerals from the land surface or
underground. Excavation, extraction, and
mining applies to all activities occurring at excavation, extraction, or mining sites, including sites commonly identified as quarries and
sand or extraction pits within Winona County
that are under the jurisdiction of Winona
County Zoning authority.
(b) Processing, including but not limited to preparation, processing, washing, cleaning, screening, filtering, crushing, drying, sorting, and
refining of all excavated, mined, stockpiled,
stored, or other industrial minerals either at
the mining site or at another site within
Winona County.
(c) Storing or stockpiling of all excavated, extracted mined, or other industrial minerals either at the mining site or at any other site
within Winona County.
(d) Hauling or transport, including, but not limited to, the loading, unloading, transfer, hauling, moving and transporting of industrial
minerals extracted from a mine located in
Winona County that are at that mining site, a
transfer facility, or other site within Winona
County by truck, or other means of transport.

App. 198
REPLACE THE DEFINITION OF “MINING” TO THE
FOLLOWING:
EXCAVATION, EXTRACTION, AND MINING: The
terms “excavation, extraction, and mining” include but
are not limited to (i) any process or method of digging,
excavating, mining, drilling, blasting, tunneling,
dredging, stripping, or removing metals, minerals, or
materials from the land surface or underground, (ii)
the processing, washing, cleaning, screening, filtering,
sorting, stockpiling and storage of all excavated, extracted, or mined minerals and materials, and (iii) the
removal and transportation of all excavated, extracted
and mined minerals and materials. The terms “excavation, extraction, and mining” apply to all activity occurring at excavation, extraction, or mining sites,
including sites identified as quarries and sand pits.
CHAPTER 9.10 EXTRACTION PITS/LAND ALTERATIONS-AMEND THE FOLLOWING SECTIONS TO READ AS FOLLOWS:
AMEND 9.10 TO READ AS FOLLOWS:
CHAPTER 9.10 EXCAVATION, EXTRACTION
PITS, MINING AND LAND ALTERATIONS
9.10. A. PURPOSE: Winona County developed and
adopted an extensive comprehensive land use plan in
2014. The Comprehensive Plan requires Winona
County to among, other things, recognize the cultural
and economic importance of agriculture to the community, support, maintain and sustain the vitality of family farms, promoting policies that support Winona

App. 199
County’s strong tradition of locally owned agricultural
operations and the administration of best management practices that consider the conservation of soil,
water quality, economic viability, innovative practices,
the promotion of local food systems and the stewardship of the land and its resources to retain the viability
of agriculture for future generations. The Comprehensive Plan also requires Winona County to value the importance of sound environmental practices that
promote the efficient use of all natural resources. The
use of resources should promote responsible stewardship through sound conservation practices, regulate
exploration and drilling operations to minimize pollution problems and the impact on agricultural areas
and environmentally sensitive areas, maintain, protect
and improve the quality of groundwater resources particularly the high-yielding aquifers used for drinking
water and connected to surface hydrological features
and promote land management practices by all levels
of government that protect the natural resources in the
County, including streams, rivers, wetlands, aquifers
recharge areas, woodland and forests, bluffs and agricultural areas. This section on excavation, extraction
pits, and mining is to protect natural landscapes from
excessive excavation and mining activity; protect water resources, aquifers, streams, and rivers from excessive contamination and appropriation; minimize soil
erosion; protect agricultural land and farming activity;
protect existing recreational and tourism businesses;
protect residents’ health, safety and general welfare,
prevent the industrialization of agricultural, open
space and residential communities; minimize road and

App. 200
bridge damage from high volume and heavy truck traffic hauling industrial minerals, and minimize land use
conflicts.
Minnesota Statutes Section 116C.99 Subd. 2(a)
recognizes that standards and criteria for mining, processing, and transporting silica sand “shall be different
for different geographic areas of the state. The unique
karst conditions and landforms of southeastern Minnesota shall be considered unique when compared with
the flat scoured river terraces and uniform hydrology
of the Minnesota Valley. The standards and criteria developed shall reflect those differences in varying regions of the state.”
9.10. B. Industrial Mineral Operations are Prohibited. Industrial mineral operations, which includes the excavation, extraction, mining and
processing of industrial minerals are prohibited in
Winona County. This prohibition does not apply to any
use legally established prior to the adoption of this Section 9.10.B. Any change to an established use shall,
however, be done in accordance with the provisions of
this section and or Section 10.11.
CHAPTER 10: ZONING DISTRICTS–AMEND
TO ADD THE FOLLOWING:
10.11 Uses Prohibited in All Districts
1. The following uses are prohibited in all zoning districts:
(a)

Industrial Mineral Operations

App. 201
2. This section does not apply to any use legally established prior to the adoption of this Section 10.11.
Any change to an established use shall, however, be
done in accordance with the provisions of this Section
10.11.

